<html>
<title> - CARING FOR SPECIAL NEEDS DURING DISASTERS: WHAT'S BEING DONE FOR VULNERABLE POPULATIONS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   CARING FOR SPECIAL NEEDS DURING DISASTERS: WHAT'S BEING DONE FOR 
                        VULNERABLE POPULATIONS?

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2010

                               __________

                           Serial No. 111-69

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
63-092                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4324332c03203630372b262f336d202c2e6d">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Vacancy
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Michael T. McCaul, Texas
Emmanuel Cleaver, Missouri           Peter T. King, New York (ex 
Dina Titus, Nevada                       officio)
William L. Owens, New York
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida:
  Prepared Statement.............................................    38

                               WITNESSES
                                Panel I

Ms. Marcie Roth, Senior Advisor on Disability Issues, Federal 
  Emergency Management Agency, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Jonathan M. Young, Chairman, National Council on Disability:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Carmen J. Spencer, Deputy Assistant Secretary of the Army--
  Elimination of Chemical Weapons, United States Army:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Mr. James Kish, Director--Technological Hazards Division, Federal 
  Emergency Management Agency, Department of Homeland Security:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33

                                Panel II

Mr. Jon R. Gundry, Deputy Superintendent of Schools, Los Angeles 
  County Office of Education:
  Oral Statement.................................................    50
  Prepared Statement.............................................    53
Ms. Diana Rothe-Smith, Executive Director, National Voluntary 
  Organizations Active in Disasters:
  Oral Statement.................................................    55
  Prepared Statement.............................................    56

                                APPENDIX

Questions From Chairwoman Laura Richardson for Marcie Roth.......    73


   CARING FOR SPECIAL NEEDS DURING DISASTERS: WHAT'S BEING DONE FOR 
                        VULNERABLE POPULATIONS?

                              ----------                              


                         Tuesday, June 15, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Thompson, Cuellar, 
Cleaver, Rogers, and Cao.
    Ms. Richardson [presiding]. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order.
    The subcommittee is meeting today to receive testimony on 
caring for the special needs during disasters. What is being 
done for vulnerable populations is the key question before us.
    I will now recognize myself for an opening statement.
    Good morning. I would like to welcome all of our witnesses 
today to our hearing to address the needs of all populations 
during disasters.
    As we approach the fifth anniversary of Hurricane Katrina 
and move into hurricane season, we must heed the lessons of 
past failures and look to engage in integrated preparedness 
planning that meets the needs of all of our citizens, 
including: The mentally ill, physically impaired, the poor, the 
elderly, children, individuals with limited English 
proficiency, and culturally diverse communities, to name a few.
    When it comes to disaster planning, our most vulnerable 
populations should no longer be left as a secondary 
consideration or an annex to an Emergency Operations Plan. This 
hearing provides an opportunity to hear what steps have been 
taken by FEMA and others to ensure that we keep moving forward.
    The Post-Hurricane Katrina Emergency Management Reform Act 
of 2006 included many reforms to provide FEMA with the 
necessary tools and leadership to ensure integration of needs-
related issues. For example, the Act directed the FEMA 
administrator to appoint a disability coordinator to ensure 
that the needs of individuals with disabilities are being 
properly addressed in emergency preparedness and disaster 
relief.
    I am pleased that Ms. Roth has taken on this role 
temporarily and was selected to lead the Office of the 
Disability Integration and Coordination. But with $150,000 
budget request for fiscal year 2011, it is difficult to believe 
that your office will have the funding necessary to fulfill 
your mission.
    We cannot allow these reforms to be considered as simply 
window dressing, but rather they must be real and able to 
ensure that people with disabilities or that need assistance 
have an empowered advocate and the right tools to get the job 
done.
    Additionally, the Act requires that FEMA coordinate many of 
its efforts with the National Council on Disability. In August 
2009, NCD released a report which provided several 
recommendations for making improvements to further integrate 
our efforts. Dr. Young serves as the chairman of NCD, and we 
would like to hear what steps FEMA has taken to coordinate with 
the council and to implement the report's recommendations.
    The Post-Katrina Act also requires that FEMA provide 
guidance to States and localities on how to implement 
disability integration into emergency planning. We would like 
to learn the status of the guidance of documents for States and 
localities and the NCD's role in developing them.
    Our other two panelists will discuss the collaborative work 
of FEMA and the U.S. Army in preparing the communities 
surrounding the Army's chemical warfare and agent stockpiles.
    Our second panel will continue to discuss the unique needs 
of children, culturally diverse communities, and citizens who 
are economically disadvantaged. I understand Dr. Robles, the 
superintendent of the Los Angeles County Office of Education, 
which is actually the largest county in the United States, 
could not be here today to discuss needs specific to 
schoolchildren, but I would like to extend a warm welcome to 
her deputy, Dr. Jon Gundry. He will discuss how L.A. school 
emergency plans are developed to meet the unique challenges of 
preparing children for disasters.
    I have also introduced H.R. 4898, the Elementary and 
Secondary School Emergency Preparedness Planning Act, which 
would address some of the challenges associated with preparing 
our children and their parents, should a disaster occur.
    I would like to thank all the Members who have supported 
that so far in this committee and urge others as we look at 
this discussion to join on, as well.
    Finally, our second witness, Ms. Rothe-Smith of the 
National VOAD, will discuss the experiences of nonprofit and 
faith-based organizations in providing an all-community 
approach to disaster response and recovery. We have often heard 
that that has been one of the faults of bureaucracy, of failing 
to utilize our other partners.
    Preparedness planning for all citizens has evolved with 
progress, but it is clear that much more work needs to be done 
to integrate fully our plans to include the needs of all 
persons.
    I look forward to hearing how our Federal agencies are 
ensuring that this occurs and about the unique approaches and 
experiences that our local and nonprofit partners can bring to 
the table.
    Thanks again to all of you, all of our witnesses for being 
here today.
    The Chairwoman now recognizes the Ranking Member from the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Madam Chairwoman. Thank you for 
calling this hearing.
    I want to thank all the witnesses for being with us today. 
I know you are busy and this is an inconvenience, but it does 
help us do our job, and I appreciate your time and effort in 
preparing for this hearing.
    This hearing presents a timely opportunity to examine the 
level of progress that has been made in planning for and 
addressing the needs of individuals with disabilities, both 
before and after a disaster takes place.
    Given that we are in the midst of a hurricane season right 
now, we are all mindful of the importance of preparedness and 
the critical mission FEMA has to promote preparedness for any 
type of major disaster within our local communities.
    The Post-Katrina Emergency Management Reform Act of 2006 
required FEMA to establish the position of disability 
coordinator in order to ensure that the needs of individuals 
with disabilities are addressed in emergency preparedness and 
disaster relief.
    Among her responsibilities, the disability coordinator is 
charged with ensuring dissemination of the best practices and 
models for evacuation plans for individuals with disabilities 
and ensuring the development of training materials on special 
needs.
    I want to stress the coordinator's role in disseminating 
best practices and hope this hearing will provide the 
opportunity to discuss how FEMA can build--can begin to build 
on the best practices, particularly in looking at the Chemical 
Stockpile Emergency Preparedness Program, or CSEPP, which has 
helped communities that surround U.S. chemical stockpile sites 
address special needs and establish a higher level of 
preparedness.
    I would like to extend a special welcome to Mr. Spencer and 
Mr. Kish and thank them for being here to discuss the excellent 
work they have done together through CSEPP in Anniston, 
Alabama, my hometown.
    Thanks to the determination of State and county officials 
in Alabama, CSEPP has established an exemplary special needs 
program in Anniston to maintain a high level of awareness and 
preparedness for the unlikely event of a chemical agent 
emergency.
    I have heard that 1,000 times, the ``unlikely event.'' It 
is in my hometown. We hear it constantly. Thank goodness it is 
an unlikely event.
    Among the many positive developments that arise out of 
CSEPP, local emergency management officials have provided 
equipment and training to individuals with special needs in 
Anniston and have sponsored training for professional 
caregivers and published a quarterly newsletter for the special 
needs population.
    The strong coordination between the U.S. Army officials and 
FEMA under CSEPP, and with State and local and private-sector 
partners, has led to a successful special needs program which 
can benefit State and local emergency managers around the 
country through the tools that have been developed and all of 
the lessons learned.
    I am pleased to know that CSEPP is working closely with the 
disability coordinator to introduce special aspects of the 
program into the special needs-related initiatives at FEMA. I 
look forward to discussing these developments with the 
witnesses in more detail today.
    Once again, I want to thank you all for being here.
    Madam Chairwoman, I yield back.
    Ms. Richardson. The Chairwoman now recognizes the Chairman 
of the Committee on Homeland Security, the gentleman from 
Mississippi, Mr. Thompson, for an opening statement. I would 
say that--talk about the right man for the right time for the 
right job, who has had plenty of disasters to deal with himself 
very personally in his district, and we are so glad to have our 
Chairman.
    Mr. Thompson. Thank you very much, Chairwoman Richardson, 
for calling this important hearing and for our witnesses being 
here today.
    We are here to discuss what is being done to ensure that 
needs of all persons are considered before, during, and after a 
disaster. To this end, the committee has been closely following 
the development and work of the disability coordinator at FEMA.
    The Post-Katrina Emergency Management Reform Act of 2006 
required FEMA to appoint a disability coordinator and tasked 
him/her with coordinating with the National Council on 
Disability.
    I am pleased to see Ms. Roth from FEMA's Office of 
Disability Integration and Coordination and Dr. Young of NCD 
sitting together at this table with a commitment to 
collaborate. I look forward to working with you both to ensure 
that you are provided the tools and resources necessary to 
carry out your mission.
    While a strong disability coordinator is needed at FEMA's 
headquarters, I also believe each region should have similar 
positions. As Administrator Fugate continues to shift greater 
responsibility to the regional offices, he should also look to 
facilitate better coordination on disability issues across the 
country. Whether conducted at FEMA's headquarters or in the 
regions, emergency management planning must be inclusive of the 
needs of all people.
    Hurricane Katrina showed us that we must ensure that those 
persons most vulnerable during disasters receive additional 
attention and resources.
    I might just, Madam Chairwoman, put a caveat here, that I 
understand we have developed a plan for pets during disasters. 
Now, I want us to put a pin in the plan for pets and make sure 
we produce this plan for persons with disabilities next. Pets 
are absolutely important, but obviously people are absolutely 
important, also.
    As the Chairwoman rightly has pointed out, the children, 
the elderly, the poor, and the disabled, among others, must 
become part of the planning process. For many of them and their 
families, there are and must be a matter of life or death.
    Consequently, I am disappointed that at this point FEMA has 
not yet released its updated Comprehensive Planning Guidance 
with the anticipated new language on all-needs disaster 
management. I look forward today to hearing when we can expect 
the release of that document.
    More importantly, I would like to hear how we are moving 
beyond plans to actual implementation.
    Again, thank you for being here today. I look forward to 
this very important hearing and the testimony.
    I yield back.
    Ms. Richardson. As standard with this Homeland Security 
Committee, other Members of the subcommittee are reminded that 
under the committee rules opening statements may be submitted 
for the record.
    I welcome our first panel of witnesses today. Our first 
witness, Ms. Marcie Roth, was appointed by President Obama in 
June 2009 as senior adviser on disability issues on FEMA. Once 
at FEMA, she developed the new Office of Disability Integration 
and Coordination, where she now serves as director and acting 
disability coordinator.
    In this capacity, Ms. Roth leads the agency's commitment to 
meet the needs of children, adults with disabilities, and 
emergency and disaster preparedness response, recovery, and 
mitigation.
    Our second witness, Dr. Jonathan Young, serves as the 
chairman of the National Council on Disability, an independent 
Federal agency. In this role, he is responsible for leading the 
NCD's effort to provide advice to the President, to Congress, 
and to the Executive branch on policies and procedures that 
guarantee equal opportunity for all individuals with 
disabilities.
    Our third witness, Mr. Carmen Spencer, was designated 
deputy assistant secretary of the Army, Elimination of Chemical 
Weapons. Mr. Spencer provides Executive-level policy and 
oversight of the chemical demilitarization program projects, 
including the Chemical Stockpile Emergency Preparedness 
Program.
    Our fourth and final witness of the first panel, Mr. Jim 
Kish, serves as FEMA's representative to the Chemical Stockpile 
Emergency Preparedness Program, which is a partnership between 
FEMA and the United States Army that provides emergency 
preparedness assistance and resources to communities 
surrounding the Army's chemical warfare agent stockpiles.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I now ask each witness to 
summarize your statement for 5 minutes, beginning with Ms. 
Roth.

STATEMENT OF MARCIE ROTH, SENIOR ADVISOR ON DISABILITY ISSUES, 
  FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Roth. Good morning, Madam Chairwoman, Ranking Member 
Rogers, Chairman Thompson, and distinguished Members of the 
subcommittee. Thank you for convening this important hearing. I 
am honored to appear before you today.
    I am Marcie Roth. In June 2009, President Obama appointed 
me as senior adviser for disability issues at the U.S. 
Department of Homeland Security Federal Emergency Management 
Agency.
    In February 2010, after a careful review of FEMA's progress 
in serving children and adults with disabilities, FEMA 
Administrator Craig Fugate established the Office of Disability 
Integration and Coordination, or ODIC. Organizationally located 
directly under his office, it is a great honor to serve as its 
director.
    My office plays a lead role in promoting a paradigm shift 
in the way we think about children and adults with access and 
functional needs in our National emergency management approach. 
This shift is away from an approach that views people with 
disabilities as separate from the general population and 
towards one that integrates all members of American society in 
our preparedness initiatives.
    As we approach the 20th anniversary of the Americans with 
Disabilities Act, I am proud of FEMA's role in reinforcing the 
importance of the ADA's integration mandate into our Nation's 
emergency management policies and practices. The name of my 
Office of Disability Integration and Coordination reinforces 
this point and shapes the work that we do.
    ODIC is not a siloed office. Rather, we exist to provide 
support across the agency and in support of our partners.
    Let me give you a personal example of how the lack of an 
integrated approach led to an unnecessary death during 
Hurricane Katrina. Prior to my appointment at FEMA, I served 
for many years as the CEO of the National Spinal Cord Injury 
Association and co-chair of the Consortium for Citizens with 
Disabilities Emergency Management Task Force, representing over 
100 National organizations, serving millions of people with 
disabilities.
    On the morning of August 29, 2005, when Hurricane Katrina 
was making landfall in the gulf, I received a call from a 
colleague whose sister-in-law, Benilda Caixeta, was trapped in 
her home in New Orleans. Benilda was quadriplegic, paralyzed 
from the shoulders down, and she had been trying to evacuate 
from her Upper Ninth Ward New Orleans apartment to the 
Superdome for 3 days.
    There had only been minimal pre-planning for a person who 
uses a wheelchair to be evacuated during an emergency. The 
local paratransit system designed to serve the accessible 
transportation needs of people with disabilities never arrived, 
despite Benilda's repeated calls. Even her pleas to 9-1-1 had 
been fruitless, so she was still in her home that morning.
    As I learned of her situation, I thought I could use my 
connections to help get--to get help to her. I was wrong. It 
was too late to evacuate, so I did the next best thing. I 
stayed on the phone with Benilda for most of the day, assuring 
her that help would come as soon as possible.
    I was on the phone with her that afternoon when she told 
me, with panic in her voice, ``The water is rushing in,'' and 
then her phone went dead. We learned 5 days later that she had 
been found in her apartment dead, floating next to her 
wheelchair.
    Knowing that this death and countless other unnecessary 
tragedies could have been averted is why I came to FEMA and why 
we are working so hard to implement comprehensive strategies 
for inclusive emergency planning.
    When I began to address this process of integrating the 
needs of the whole community, the first obstacle I encountered 
was to explain what we mean by people with access and 
functional needs.
    Historically, emergency management has planned primarily 
for easy, individuals with their own resources, rather than 
real, including people requiring assistance with physical, 
programmatic, or communications access needs.
    Mindful of the hard lessons of the past and our National 
mandates regarding the integration of children and adults with 
disabilities, I am faced with continual references to people 
with ``special needs.'' The problem with this nomenclature is 
that it leads to segregation and unequal services for people 
with disabilities.
    No one wants to be special during an emergency. They want 
to receive the same services as everyone else, and they should.
    In addition, the term ``access and functional needs'' is 
much more useful as a description, because it describes 
everyone who may require accommodations throughout the life 
cycle of a disaster. This includes elders, people with language 
and communication access needs, pregnant women, people with 
mental health needs, and others who may be anticipate--who must 
be anticipated and accommodated in Federal, State, Tribal, and 
local emergency plans.
    Over the past 11 months, we have already begun to make 
significant progress. Our accomplishments include our new 
document, ``Guidance on Planning for Integration of Functional 
Needs Support Services in General Population Shelters.'' This 
guidance will help municipalities comply with Federal laws 
designed to assist people with disabilities, to maintain their 
independence, health, and functioning. Training will be 
provided in each FEMA region, beginning on July 19.
    Other accomplishments include integrating the access and 
functional needs of children and adults with disabilities and 
to preparedness initiatives, including CPG 101, and our role as 
co-sponsor for the 20th anniversary celebration of the 
Americans with Disabilities Act with the National Council on 
Disability. Administrator Fugate and other senior leaders will 
participate.
    Another upcoming initiative is an intensive capacity-
building conference between FEMA's regional offices, State 
emergency managers, and members of the disability community to 
focus on disability integration in planning policies and 
operations.
    Ultimately, FEMA and all of our partners must be driven by 
a commitment to inclusive practices that bring disability 
community leaders to the table, along with the rest of the 
team, as we bake the needs of children and adults with 
disabilities into all we do.
    We are determined to learn from the mistakes of the past 
and to deliver a better future to all who may be affected by 
disasters. We must not stand by and allow what happened to 
Benilda Caixeta to happen again.
    In the face of a disaster, we are all vulnerable, we are 
all at risk. The needs of our communities will be best served 
by planning and practices that are inclusive. We will all be 
stronger as we succeed.
    Thank you, Madam Chairwoman and distinguished Members of 
the subcommittee, for the opportunity to share FEMA's progress 
with disability integration and coordination with you. I stand 
ready to answer your questions.
    [The statement of Ms. Roth follows:]

                   Prepared Statement of Marcie Roth
                             June 15, 2010

    Good morning Madame Chairwoman, Ranking Member Rogers and 
distinguished Members of the subcommittee. I am honored to appear 
before you today. I am Marcie Roth. I have served since June 2009 as 
the Senior Advisor for Disability Issues at the U.S. Department of 
Homeland Security (DHS), Federal Emergency Management Agency (FEMA). I 
am here today to speak about the strong emphasis this administration 
has placed on providing people with disabilities and those with access 
and functional needs the necessary support in times of disaster. I also 
want to share with you FEMA's work as a result of this emphasis.
    Prior to my appointment, I served for many years as the Executive 
Director and CEO of the National Spinal Cord Injury Association 
(NSCIA), where one of our duties was working on disaster relief efforts 
on behalf of all people with disabilities. I also co-chaired the 
Consortium for Citizens with Disabilities Emergency Management Task 
Force, which represents over 100 National disability organizations.
    On the morning of August 29, 2005, I received a call that I will 
never forget and once I tell you about it, I hope you will never forget 
it either. My friend and colleague called to enlist my help because her 
sister-in-law, Benilda Caixeta, a New Orleans resident who was 
quadriplegic, paralyzed from the shoulders down, had been trying to 
evacuate from her Upper 9th Ward New Orleans apartment to the Superdome 
for 3 days.
    Despite repeated requests to be evacuated, in her power wheelchair, 
which is a vital tool for mobility and independence, the paratransit 
system that serves the transportation needs of people with disabilities 
never showed up. Even calls to 911 had been fruitless. She was still in 
her home, she had not been able to evacuate, despite her very best 
efforts. I thought a few phone calls to the ``right'' people would 
help, and I was sure I knew who to call. I was wrong. After many calls 
to the ``right'' people, it was clear that Benny was not being 
evacuated.
    I stayed on the phone with Benny for most of the day, assuring her 
that I was doing all I could to make sure help would be coming as soon 
as possible. She kept telling me she had been calling for a ride to the 
Superdome for 3 days, but, despite promises, no one came. I was on the 
phone with her that afternoon when she told me, with panic in her 
voice, ``the water is rushing in'' and then her phone went dead. We 
learned 5 days later that she had been found in her apartment, dead, 
floating next to her wheelchair. Sometimes things like this can't be 
prevented. Despite the magnitude of the catastrophe, this was not one 
of those times. Benilda did not have to drown.
    In 2005, as many as 54.4 million people, or 18.7 percent of the 
population at that time, were people with disabilities. As it happens, 
the areas most severely impacted by the 2005 hurricanes were also those 
with especially high percentages of people with disabilities living in 
the community. Because a disproportionate number of people with 
disabilities live below the poverty line, frequently have less mobility 
than the general population, and are often more dependent on external 
assistance, this population felt the impact of Hurricane Katrina quite 
severely.
    In October 2006, the Post-Katrina Emergency Management Reform Act 
of 2006 (PKEMRA) provided a much-needed mandate to integrate the needs 
of people with disabilities and those with access and functional needs, 
into general emergency management planning, response, and recovery. 
However, despite the numerous new requirements on planning for and 
meeting the disaster-related needs of children and adults with 
disabilities, many of the same problems were seen again during 
Hurricanes Gustav and Ike just a few years later. Many people were 
still turned away from shelters, information was inaccessible to 
individuals who were deaf or blind, services required under disability 
rights laws were not being provided, and catastrophic but preventable 
health impacts were felt by previously stable and independent evacuees 
with disabilities.
    However, with some responsible planning and smart investments, 
people with disabilities can begin to trust that their needs will be 
better met in future disasters. In addition, taxpayers, generous 
donors, and the general public can rest assured that we are maximizing 
our limited resources and minimizing any unnecessary waste in moving 
forward with this effort.

                            INTEGRATED PLANS

    All successful actions start with planning. As FEMA's administrator 
Craig Fugate said, at the Inclusive Hurricane Conference in Biloxi, 
Mississippi, ``My experience tells me if we wait and plan for people 
with disabilities after we write the basic plan, we fail.'' The 
administrator is challenging the emergency management community to not 
just plan for easy scenarios, but to plan for all who may be impacted 
by a disaster or emergency.
    The DHS Nationwide Plan Review (NPR).--The DHS Nationwide Plan 
Review (NPR) revealed major inconsistencies in the definition of the 
term special needs, including the current National Response Framework 
(NRF) terminology.
    The consistent yet vague references to special needs lack the 
guidance to put direct community-wide planning tasks into actions that 
will fully support people with disabilities. When people with 
disabilities are thought of as ``special,'' they are often thought of 
as marginal individuals who have needs, not rights. People with that 
label appear to need things done for them as recipients, not 
participants. If people with disabilities are more thoroughly 
integrated in local planning, their participation will help ensure that 
misleading stereotypes do not dilute the effectiveness of emergency 
plans.
    National Response Framework (NRF).--The NRF definition of special 
needs is, ``populations whose members may have additional needs before, 
during, and after an incident in functional areas, including but not 
limited to: maintaining independence, communication, transportation, 
supervision, medical care. Individuals in need of additional response 
assistance may include; those who have disabilities; who live in 
institutionalized settings; who are elderly; who are children; who are 
from diverse cultures; who have limited English proficiency or are non-
English speaking; or who are transportation disadvantaged.''
    Researchers have pointed out that this definition actually 
describes almost 50 percent of the population,\1\ and yet, until now, 
``special needs'' planning has been handled as a separate activity, 
rather than as a central element of the planning required in every 
community to prepare for vital emergency management needs.
---------------------------------------------------------------------------
    \1\ Kailes, J. (2005). Disaster Services and ``Special Needs:'' 
Term of Art or Meaningless Term? Kailes-Publications, 6201 Ocean Front 
Walk, Suite 2, Playa del Rey, California 90293-7556, http://
www.jik.com/resource.html, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f8929193b888999b9a9d9494d6969d8cd6">[email&#160;protected]</a>
---------------------------------------------------------------------------
    A better way to plan for the needs of people with disabilities and 
activity limitations is to use an orientation that considers major 
functional needs as vital to protecting life and safety, maximizing 
limited resources and promoting maintenance of independence and health. 
Functional Needs Support Services (FNSS) are defined as ``services that 
are provided to individuals during an emergency in general population 
shelters or other integrated community facilities to enable them to 
maintain their independence in such settings''. FNSS includes 
reasonable modifications to shelter practices and procedures such as 
the planning for the inclusion of service animals, and also may include 
the acquisition or use of durable medical equipment (DME), consumable 
medical supplies (CMS), personal assistance services (PAS), and other 
goods and services as needed.
    Children and adults requiring FNSS may have physical, sensory, 
mental health, cognitive, and/or intellectual disabilities affecting 
their ability to function independently without assistance. Others that 
may benefit from FNSS include women in late stages of pregnancy, 
elders, and people needing bariatric equipment or communications 
assistance. Acute medical needs, not regularly addressed in the 
individual's daily life, however, are not a part of FNSS and are 
addressed under activities conducted through medical facilities 
(hospitals, hospices, etc.).
    Since Katrina, there have been significant changes in the NRF's 
Mass Care Emergency Support Function-6 (ESF-6). FEMA is now the lead 
agency, with other Federal agencies and the American Red Cross in a 
supporting role. FEMA's Mass Care ESF-6 planning includes all 
activities needed to meet the access and functional needs of people 
impacted by a disaster. FEMA's ESF-6 staff is working with FEMA's 
Office of Disability Integration and Coordination (ODIC) to ensure that 
all planning meets compliance with the Americans with Disabilities Act, 
the Rehabilitation Act, the Fair Housing Act, and other disability 
rights laws, not only in sheltering, but also in evacuation, housing, 
and recovery efforts.
    Comprehensive Preparedness Guideline (CPG 101).--FEMA is updating 
its CPG 101 to integrate the Comprehensive Preparedness Guideline 301 
for Special Needs Planning, which will result in a single all-inclusive 
planning document. This is meant to provide clear and efficient 
guidance for State, territorial, Tribal, and local emergency managers 
with one integrated plan--rather than a base general plan and 
secondary, auxiliary guidance on people with disabilities. The revised 
document is expected to be finalized soon.
    FEMA's National Disaster Recovery Framework and National Disaster 
Housing Strategy.--These are being drafted to incorporate the needs of 
people with disabilities and access and functional needs, so they can 
more easily transition back into the community following a disaster.

           OFFICE OF DISABILITY INTEGRATION AND COORDINATION

    PKEMRA also required FEMA to appoint a Disability Coordinator. I 
have been serving as the acting Disability Coordinator since 2009. In 
February 2010, after a careful review of FEMA's progress in serving 
children and adults with disabilities and responding to the National 
imperative for an inclusive approach to emergency management, FEMA 
administrator Craig Fugate established the ODIC, with me as director.
    Mindful of the hard lessons of the past, as well as our National 
mandates regarding the integration of children and adults with 
disabilities, ODIC has played a lead role in promoting a shift in our 
National emergency management approach. This represents a shift away 
from a paradigm that views people with disabilities and other access 
and functional needs as separate or apart from the general population, 
and towards a notion that all segments of American society will be 
integrated and served through a single and inclusive emergency 
management approach.
Partnerships, Technical Assistance and Information Dissemination
    In order to maximize FEMA's capacity to serve individuals with 
disabilities and other access and functional needs in disaster 
situations, ODIC has worked actively to engage the many stakeholders 
involved in inclusive emergency management.
    This work includes coordination with both internal FEMA program 
offices and relevant external parties. The vast spectrum of 
coordination projects include: Forming new partnerships and 
relationships, providing technical assistance and information 
dissemination, incorporating disability considerations into emergency 
communications, evacuation, transportation, sheltering, medical supply 
plans, Disaster Recovery Centers, and registration needs. Some recent 
ODIC projects include:
  <bullet> Established regular meetings with the National Council on 
        Disability, the National Council on Independent Living, the DHS 
        Office for Civil Rights and Civil Liberties, and others.
  <bullet> Provided technical assistance and expert guidance on 
        disability integration in multiple venues, including: FEMA 
        Regional Offices, FEMA National Advisory Council, the National 
        Disaster Housing Taskforce, the Pandemic Planning Guidance 
        Workgroup, the Long Term Disaster Recovery Initiative, and the 
        National Exercise Program's National Level Exercise 2011, which 
        will include the National Council on Disability and State 
        representatives.
  <bullet> Engaged in an on-going series of trainings, presentations, 
        and meetings with Government and private entities in order to 
        get the word out about disability integration in emergency 
        management, building capacity, and developing networks. 
        Selected venues include: The Federal Communications Commission 
        Broadband Opportunities for Individuals with Disabilities 
        Initiative; the U.S. Department of Labor Perspectives on the 
        Employment of Persons with Disabilities Conference; the 
        Wireless Emergency Communications 2009 Conference; the 
        International Association of Emergency Management Special Needs 
        Subcommittee; The Iowa Special Needs Symposium; the National 
        Council on Community Preparedness; the National Organization on 
        Disability; the Access to Readiness Coalition; and the Citizens 
        with Disabilities Emergency Management Taskforce.
  <bullet> Utilized and reviewed disability related emergency 
        preparedness guidance, such as the Framework of Guidelines: 
        Preparing the Workplace for Everyone, developed by the 
        Interagency Coordinating Council on Emergency Preparedness for 
        Individuals with Disabilities, Workplace Subcommittee, which is 
        coordinated by the Office of Disability Employment Policy at 
        the Department of Labor.
  <bullet> Provided 600 disability and emergency management stakeholder 
        organizations and entities with updates on a variety of FEMA 
        efforts such as: The disability response during the American 
        Samoa Tsunami, H1N1 preparedness and response, earthquakes in 
        Haiti and Chile (supporting USAID), and more.
  <bullet> Began efforts to develop a cadre of disability subject 
        matter experts who can assist in disaster response activities 
        across the country.
  <bullet> Participated in FEMA conferences related to logistics, mass 
        care, and external affairs, providing counsel and expertise on 
        disability integration into these FEMA programs.
  <bullet> Established a Citizen Corps partnership with the National 
        Council on Disability, and held a Citizen Corps Disability Law 
        webinar on April 10, 2010.
  <bullet> Participated in the creation of a FEMA Children's Working 
        Group, and established a focus within that group on children 
        with disabilities. ODIC is participating in a summer 2010 
        Children's Summit.
  <bullet> Facilitated the development of a partnership between FEMA 
        and the Department of Education so we can focus on inclusive 
        preparedness curriculums for children in schools.
    In addition, FEMA has collaborated with the National Commission on 
Children and Disasters to further identify and address the needs of 
children during a disaster, including children with disabilities. Thus 
far, FEMA has updated its fiscal year 2010 Homeland Security Grant 
Program guidance to include how grant dollars may be used to support 
preparedness and planning activities for children. The guidance 
provides resources for grantees to incorporate children into their 
planning and purchase of equipment and supplies, and provides training 
to a broad range of child-specific providers, and exercise capabilities 
relating to children. In addition, FEMA's Children's Working Group 
collaborated with the American Red Cross, the Commission, and other 
pediatric experts to develop a shelter supply list which identifies the 
basic items necessary to sustain infants and toddlers in mass care 
shelters and emergency congregate care environments. That list has been 
integrated into numerous planning and guidance documents. FEMA signed 
an agreement with Health and Human Services to provide for the rapid 
deployment of case managers when requested by the State during a 
Presidentially declared disaster. FEMA's Public Assistance Division has 
clarified certain child care services and facilities are eligible for 
reimbursement under the Stafford Act and a Fact Sheet has been 
disseminated to the Regions.

Emergency Communications
    ODIC and FEMA's Integrated Public Alert and Warning System (IPAWS) 
Program Office are collaborating to identify key resources and 
stakeholders that can facilitate improved emergency communications such 
as alerts and warnings. Examples of key ODIC and IPAWS Program Office 
stakeholder collaborations include:
  <bullet> Developing a burgeoning relationship with WGBH-TV's National 
        Center for Accessible Media (NCAM) in our efforts to identify 
        key industry contacts, and available resources currently being 
        used to alert people with disabilities.
  <bullet> Leveraging Gallaudet University's research on new technology 
        for Emergency Alerting Systems. IPAWS and Gallaudet University 
        have jointly participated in collaborative technology 
        demonstrations featuring the ALERTUS Alert Beacon System, 
        currently in use at Gallaudet University.
  <bullet> Coordinating with the National Council on Disability to 
        gather Commercial Mobile Alerting System requirements 
        pertaining to the disability community as well as identifying 
        educational and training strategies on disabilities for 
        emergency managers.

Evacuation and Transportation
    Federal mass evacuation planning requires a coordinated concept of 
operations and a command and control system that provides Federal 
support to State, local, or Tribal authorities. FEMA's Planning 
Division in the Response Directorate has recently begun to discuss with 
ODIC how to create regional and State response plans that better 
integrate the needs of all populations, including transportation during 
emergencies.\2\ NORTHCOM and NORAD are assisting FEMA with planning and 
resources for the potential evacuation of people with disabilities and 
access and functional needs. FEMA has assisted State and local 
evacuation-specific planning for people with disabilities, access, or 
functional needs.
---------------------------------------------------------------------------
    \2\ Mass Evacuation Plans are implanted within the framework and 
operating principles of the National Response Framework (NRF) and are 
pursuant to authorities including: Robert T. Stafford Disaster Relief 
and Emergency Assistance Act; Post-Katrina Emergency Management Reform 
Act of 2006; Americans with Disabilities Act (ADA) of 1990; Executive 
Order 13166, Improving Access to Services for Persons with Limited 
English Proficiency; Executive Order 13347, Individuals with 
Disabilities in Emergency Preparedness; The Aviation and Transportation 
Security Act (ATSA), 2007; The Safe, Accountable, Flexible, Efficient, 
Transportation Equity Act, 2007.
---------------------------------------------------------------------------
    Federal support may be required when people with medical needs must 
move to a facility with an appropriate care level. Various modes of 
transportation may be implemented to safely and effectively transport 
individuals with acute medical needs and people with mobility 
disabilities including emergency medical services (EMS), paratransit 
services, surface marine vessels, and rotary-wing and fixed-wing 
aircraft. FEMA's ambulance contract remains fully mission-capable, 
including providing services to people with disabilities.
    PKEMRA, by amending sections 501, 503, and 512 of the Homeland 
Security Act of 2002, assigned FEMA the responsibility of supporting 
State mass evacuation operations. To meet this requirement, FEMA 
created the National Mass Evacuation Tracking Systems (NMETS) expected 
to roll out this summer. NMETS is composed of both manual and computer-
based systems that are designed to assist States in tracking the 
movement of transportation-assisted evacuees, their household pets, 
luggage, and medical equipment during evacuations. The system can 
operate independently or be used to support multi-State, State-managed 
or local level evacuation operations. The systems are compliant with 
the Mass Evacuation Incident Annex to the National Response Framework 
(NRF).

Medical Supplies
    FEMA is developing consumable medical supplies (CMS) capabilities 
to support people with functional support needs in general population 
shelters across all FEMA regions. ODIC supported Mass Care's ``just-in-
time'' capacity so FEMA could provide durable medical equipment and 
consumable medical supplies upon request by a State. With input from 
disability subject matter experts, FEMA developed and implemented 
mechanisms to obtain durable medical equipment (DME) to support people 
with disabilities in shelters and other integrated congregate care 
environments.
    Administrator Fugate directed the agency to identify a universal 
cot that could accommodate people with functional needs. As part of the 
process, FEMA held an ``Industry Day'' on June 14, 2010 for U.S. 
manufacturers of cots to provide specifications for a universal cot 
that can be used by people with functional support needs as well as the 
other residents of a shelter. Instead of purchasing separate items, we 
hope to move forward with one item that fits the needs of most 
individuals impacted by a disaster.

Sheltering
    FEMA, together with a host of partners, is developing Guidance for 
Integration of Functional Needs Support Service in General Population 
Shelters. The guidance was created with the Department of Justice, the 
DHS Office for Civil Rights and Civil Liberties, the National Council 
on Disability, the Department of Health and Human Services, the 
American Red Cross, the National Council on Independent Living, State 
emergency management officials, and FEMA's Office of Disability 
Integration and Coordination, among others. The group continues to 
examine and re-evaluate ways that FEMA's disaster assistance programs 
can meet the needs of individuals with disabilities and others with 
access and functional needs, at all levels of service delivery.
    FEMA is developing the FNSS guidance to States as well as Guidance 
for Personal Assistance Services (PAS) in General Population Shelters. 
The guidance also has a training curriculum that is being scheduled for 
all ten FEMA Regions in the coming months. The guidance will provide 
States and territories with more information on how to comply with 
Federal laws regarding people with disabilities and the integration of 
people with disabilities into general population shelters. ODIC also 
partnered with FEMA's Mass Care Section to develop a multi-agency 
shelter assessment tool that incorporates disability considerations.
    Over the past 4 years, FEMA has collaborated with the U.S. Access 
Board, the Department of Housing and Urban Development, and DHS' Office 
of Health Affairs to revise FEMA specifications to meet Uniform Federal 
Accessibility Standards (UFAS) for Accessible Temporary Housing. FEMA 
has provided UFAS-compliant temporary housing directives for all Direct 
Housing Missions since 2007.
    FEMA's current target baseline temporary housing inventory is 
established at 4,000 units, of which 10 percent are targeted as UFAS-
compliant. This target baseline inventory is being re-evaluated in 
consideration of production contracts that allow FEMA to produce 
additional UFAS-compliant units as needed.
    FEMA's indefinite delivery, indefinite quantity (IDIQ) contracts 
allow for rapid ramp-up of temporary housing unit (THU) production. 
Each of the five contractors has the capability to produce 150 units 
per week within 3 weeks of a request by FEMA. Units produced under the 
contracts may be all UFAS-compliant if disaster housing needs require a 
large number of such units. FEMA's IDIQ contracts for THU installation 
and the template statements of work for local contractors to install 
THUs have specific language requiring the installation of accessible 
ramps and platform stairs. All FEMA contracts for the design and 
construction of group sites have UFAS requirements ensuring 
accessibility and integration and not segregation of applicants with 
disabilities.
    Further, FEMA Interim Policy 9452.1 directs that housing group 
sites constructed, altered by, or altered on behalf of FEMA will 
include accessible routes and elements for common use areas. Moreover, 
this policy mandates that at least 15 percent of individual lots within 
any such site constructed or managed by or on behalf of FEMA must be 
designed to accommodate accessible units for eligible disaster 
survivors with a disability and or access and functional needs.

Disaster Recovery Centers (DRCs)
    As part of the Disaster Recovery Center Services and Providers 
Policy (DAP 9430.1), FEMA established a DRC Access Agreement for the 
Agency's National Disaster Assistance Partners--non-governmental 
entities that offer services FEMA does not provide. These ``Partners'' 
have seamless access to all of FEMA's DRCs. Currently, FEMA is working 
on DRC Access Agreements with two additional disability groups, the 
National Council on Independent Living and National Disability Rights 
Network.

Communications Equipment
    FEMA purchased equipment for its Regions to use in communicating 
emergency and disaster assistance information to persons with hearing 
limitations. This assistive technology equipment is for use by the 
Regions in Disaster Recovery Centers, congregate shelters, and other 
areas where disaster victims may gather. The equipment is sent in a 
waterproof storage case for durable use after a disaster. Additional 
items to assist with access for applicants with disabilities have been 
selected by each Region.

Registration
    FEMA uses Teletypewriter (TTY) to take Registration Intake and 
Helpline calls from disaster survivors with hearing disabilities. The 
TTY is answered by a live agent during the hours of operation. When the 
1-800 number is not manned by a live operator, the caller can leave a 
message and a Customer Service Representative will quickly return the 
call.
    Disaster survivors who are unable to register with FEMA over the 
phone can register for disaster assistance on-line at 
www.disasterassistance.gov. FEMA's applicant guide, Help After a 
Disaster (FEMA Publication 545), is available in Braille and large 
print. Additionally, the applicant guide is available for download at 
www.fema.gov, and in the text version, which can be used in Acrobat 
ADOBE reader.
    The disaster applicant guide has been translated into 20 languages 
and translated documents will be posted, in an accessible format, at 
www.fema.gov for public access. The registration intake interview 
includes question regarding the applicant's access and functional needs 
that may require FEMA's attention as a result of the disaster.

Staffing
    Meeting the regional staffing needs for successfully achieving 
disability integration is complex, and involves budget decisions made 
some time ago. The regional administrators were presented with staffing 
options that included a variety of job titles including disability 
coordinator. It appears that most of the regions chose to incorporate 
the tasks of a disability coordinator into positions that already exist 
and work with individuals on disaster assistance.
    There are advantages and disadvantages to this approach. If we 
aspire to integrate disability into the entire emergency management 
process, then it would be ideal to have staff members working on 
general population needs while incorporating important disability 
issues. On the other hand, if these individuals do not have disability 
subject matter expertise, this may not be effective.
    Alternatively, if we identify one position as a permanent 
disability coordinator, they may be ``stove-piped'' into disability 
topics and individual case management and away from integrating the 
needs of every individual into the whole. At this point, those staffing 
decisions are in the hands of the regional administrators and we will 
work with their designated staff.
    One way we intend to assist those regional staff working with 
disability integration issues is by providing training, capacity 
building, and the opportunity to share ideas. ODIC is planning a 
National conference to be held in Washington, DC in the early fall of 
this year that will bring these regional staff members together with 
their State counterparts and relevant subject matter experts to provide 
a strong beginning to this collaborative National effort.

                       NEXT STEPS: THE WORK AHEAD

    While we are very proud of FEMA's and our partners' achievements in 
a short period of time, more needs to be done to incorporate disability 
and other access and functional needs considerations into all FEMA 
operations.
    One of our upcoming initiatives will be a National Capacity 
Building Training Conference at the end of the summer, co-sponsored by 
the National Preparedness Directorate, Citizen Corps, and the DHS 
Office for Civil Rights and Civil Liberties. During this training, 
members of the disability and emergency management communities will 
participate jointly in an intensive cross-training and bridge-building 
conference. Participants will have post-training responsibilities to 
educate others in their communities about emergency preparedness that 
is inclusive of children and adults with disabilities and others with 
access and functional needs.
    Additionally, ODIC plans to co-sponsor 20th Anniversary 
Celebrations with the National Council on Disability in order to get 
the word out about FEMA's emphasis on disability integration. ODIC 
welcomes the opportunity to work with the National Council on 
Disability in this and many venues as we move forward together.
    Ultimately, FEMA and all of our partners must be driven by the 
determination to learn from the mistakes of the past and to deliver a 
better future to all those affected by disasters. We must not stand by 
and allow what happened to Benilda Caixeta to happen again to those who 
need and trust us for support in the face of disaster.
    Madam Chairwoman, Ranking Member Rogers and distinguished Members 
of the subcommittee, I thank you again for the opportunity to share 
with you FEMA's work on disability integration and coordination, and 
stand ready to answer any questions you may have.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Dr. Young to summarize his statement for 5 
minutes.

 STATEMENT OF JONATHAN M. YOUNG, CHAIRMAN, NATIONAL COUNCIL ON 
                           DISABILITY

    Mr. Young. Thank you, Madam Chairwoman, Ranking Member 
Rogers, Chairman Thompson. Thank you for the opportunity to be 
here today. I commend the work of your subcommittee and this 
committee.
    I am always pleased when a dialogue begins with all the 
participants, largely on the same page, as certainly appears to 
be the case with your opening remarks.
    Fortunately, I have never been part of a National disaster, 
but I have been a part of my own personal disaster of sorts. As 
I described in my written testimony, I broke my neck in a 
wrestling match in 1986 as a senior in high school.
    Fortunately, my father, who is here with me today, who was 
then-chairman of--commissioner of the Food and Drug 
Administration, an MD/PhD, was there at my side, was able to 
make sure that I got all the proper care, made sure that no one 
touched me to make sure that more damage wasn't caused, ensure 
that I was transferred to the MedStar trauma center.
    Unfortunately, in the midst of National disasters, people 
don't get that kind of attention. As Ms. Roth described just a 
moment ago, there are too many stories of people like Benilda 
Caixeta, who instead of having personalized attention to make 
sure that they are brought to safety and brought to the best 
care that they deserve, end up being casualties in the midst of 
disasters.
    Ranking Member Rogers, I appreciate your sentiments about 
calling us all here today, but it is no inconvenience for me to 
be here. I embrace my obligations and responsibilities as the 
chairman of the National Council on Disability, and our job is 
to ensure that we do everything that we can so that Americans 
around the country are not inconvenienced any more than they 
need to be in the midst of National disasters.
    I don't have time today to review my vision for the 
National Council on Disability, but what I am going to 
emphasize here in just a couple moments about my three points 
here is very part and parcel of where I would like to take the 
National Council on Disability.
    Chairman Thompson, you talked about moving beyond plans and 
toward implementation. I am delighted to acknowledge that the 
first correspondence that I received as chairman was a letter 
from you, addressed to Administrator Fugate, copying me, 
bidding us to meet. We met for an hour in April. It was a 
phenomenal meeting, along with Ms. Roth and my executive 
director, Joan Durocher.
    I was anticipating sort of a confrontation, perhaps, of 
sorts, but was struck with how incredibly Administrator Fugate 
understood all of the issues in a way that I couldn't even 
quite express at the time. We have committed to meeting on a 
monthly basis until we can show signs of progress.
    My vice chair, Fernando Torres-Gil, has a long experience 
in emergency planning. He is going to be joining us in those 
meetings, as--as he can.
    I have here with me our most recent report on the subject, 
effective emergency management in 2009. That is what NCD has 
most been known for in recent years. While this is an 
appropriate and useful compendium of knowledge as it described, 
in NCD at this point, I really want to move toward the focus on 
implementation, developing reports where necessary, but looking 
at where we can be engaged in a collaborative process to 
implement these recommendations in a very real-time way.
    For instance, Ms. Roth and I met on Friday with the 
exercise division, preparing for NLE 11 for the New Madrid 
Seismic Zone, and we are exploring the possibility of having 
advisory committee and action-oriented advisory committee to be 
engaged in the planning process over the next 11 months leading 
up to that exercise.
    Ms. Richardson, you talked about in your opening remarks, 
you know, all populations having integrated planning, not 
having mere window dressing, and I think that is very much what 
I would like to emphasize here. Ms. Roth talked about this, 
also.
    I think if we set up a framework of general planning and 
then special needs planning, we are setting ourselves up for 
failure at the outset. Of course, there is an appropriate role 
to have attention to particular issues, but when we talk about 
vulnerable populations, there are no clear divisions. Whether 
somebody is pregnant or has recently had surgery, they might 
not think of themselves as a person with a disability, but in 
the moment when a disaster strikes, they might need a level of 
attention that they had not maybe 6 months previously.
    So if we approach planning and preparedness in a holistic 
way, trying to anticipate all the kinds of needs that are sort 
of chronic and on-going, as well as immediately circumstantial, 
I think we will be in a better place to move forward.
    A number of comments have been made about the idea for 
regional coordinators. Certainly, if we are focusing everything 
here in Washington, we are not going to get the job done. We 
need to be in a real-time way in communities around the 
country.
    The final point that I want to make--and I have said this 
in more detail in my prepared testimony--but we need to work 
across silos. Particularly, I would like to talk about the need 
for accessible infrastructure.
    We are going to be maximally prepared for disasters if our 
communities are already accessible. If our communities' 
infrastructures for transportation and housing or the 
communications systems are inaccessible anyway, it is going to 
be that much more difficult when a disaster strikes.
    I know there are definite problems and challenges with 
committees' jurisdictions, but if we can try to coordinate your 
efforts with other committees, with other agencies around our 
infrastructures, I think we will be better served and better 
capable to address your particular needs around emergency 
planning.
    Again, thank you. I am excited about the collateral that 
Ms. Roth and I have already struck up. We have known each other 
for a dozen years. I pledge my personal commitment to you. We 
are just beginning. I welcome any of your questions.
    [The statement of Mr. Young follows:]

                Prepared Statement of Jonathan M. Young
                             June 15, 2010

                              INTRODUCTION

    Ms. Chairwoman, and Members of the House Homeland Security 
Subcommittee on Emergency Communications, Preparedness, and Response: 
Thank you for the opportunity to submit for the record this written 
testimony about the critical importance of ensuring that our emergency 
management infrastructures meaningfully afford all Americans, including 
Americans with disabilities, an opportunity to be prepared for and 
survive emergencies, and to resume and rebuild productive lives after 
them.
    This is my first occasion to provide Congressional testimony as 
chairman of the National Council on Disability. Accordingly, by way of 
introduction, I would like to provide some personal background. I broke 
my neck in during a wrestling match as a senior at Walt Whitman High 
School in Bethesda in 1986. Initially paralyzed from the neck down, I 
was fortunate that my spinal cord was compressed and bruised but not 
severed, enabling a partial recovery from paralysis. Like many people 
who acquire disabilities later in life, my initial impulse was to 
disassociate from disability. I viewed disability as debilitating, and 
my injury as an enemy. I was only vaguely aware of the Americans with 
Disabilities Act in 1990, and it did not occur to me then that it had 
anything to do with me. I had broken my neck in a wrestling match and 
had a pronounced limp. But I did not view myself as a ``person with a 
disability'' nor as part of a ``disability community.''
    I would not be here today absent the extraordinary impact of the 
National Council on Disability on my life. I refer not to my current 
role as chairman but rather the opportunity afforded me in 1996 to 
write a history of the Americans with Disabilities Act on a contract 
through what was then the National Rehabilitation Hospital Research 
Center. At the time I was a Ph.D. student in American history at the 
University of North Carolina at Chapel Hill writing a dissertation 
about the slavery debates, and I had recently endured a difficult bout 
of depression related to my injury. In fact, I had reached a point 
where I did not think I would ever be able to hold a meaningful job. 
Depression can cast long shadows.
    Writing about the history of the ADA transformed my personal and 
professional identity. As I interviewed dozens of leaders in the 
disability community I was riveted by the power of their story and the 
gravity of the change wrought through the ADA. I began to view 
disability as a source of power and pride rather than debilitating 
stigma. With NCD's 1997 publication of Equality of Opportunity: The 
Making of the Americans with Disabilities Act, I became a person with a 
disability, and part of the disability community.
    I also became employable. My opportunity to write about the ADA's 
history for NCD restored the confidence in myself that I had lost in 
the darkness of depression. As a direct result of my NCD ADA history 
project, I was nominated for and later became Associate Director for 
Disability Outreach in the White House Office of Public Liaison in 1998 
and served through the end of the Clinton Administration. Thereafter I 
completed my Ph.D. with a dissertation on the disability rights 
movement in 2002 and went on to obtain my J.D. from Yale Law School in 
2005. I also got married and am the proud father of three beautiful 
daughters, ages 3, 5, and 7.
    Serving as NCD Chairman thus completes a circle for me. NCD was my 
gateway to the disability community. It is thus a profound and humbling 
honor to serve as chairman of this important agency.
    My remarks today reflect several years of important work led by the 
National Council on Disability and documented in a series of reports 
beginning in April 2005 with the pre-Katrina report, Saving Lives: 
Including People with Disabilities in Emergency Planning, and two 
reports in the aftermath of Hurricane Katrina. NCD's leadership in 
highlighting the importance of people with disabilities in emergency 
response and preparedness had a direct impact on the provisions of the 
2006 Homeland Security Appropriations bill's Post-Katrina Emergency 
Management Reform Act (PKEMRA). Among other things, PKEMRA required 
FEMA to create and hire a National Disability Coordinator and to 
interact, consult, and coordinate with NCD on a list of activities. 
Congress's fiscal year 2007 appropriations enabled NCD to undertake and 
complete its most recent report on the subject, the 2009 Effective 
Emergency Management: Making Improvements for Communities and People 
with Disabilities report.
    These reports, which have helped to create awareness of the breadth 
of concerns facing people with disabilities during all phases of a 
disaster, have played an important role. Of course, reports alone are 
not enough. What is critical is taking these reports' findings and 
drilling down into the day-to-day decision-making and relationship 
building required to effect the change that these reports have 
indicated is so direly needed. We should never find ourselves 
exchanging business cards for the first time at the moment of a 
disaster. When that happens, people become statistics instead of 
stories of successfully saved lives. Consider the tragic story of 
Benilda Caixeta. She was on the phone with Marcie Roth during Hurricane 
Katrina and pleading for transportation from her home. Benilda reported 
that water was gushing in shortly before the phone died. Five days 
later her body was recovered floating next to her wheelchair.\1\ Each 
of the cold casualty statistics represents the loss of a lifetime of 
potential to contribute to our country's well-being. We can, and must, 
do better.
---------------------------------------------------------------------------
    \1\ National Council on Disability, Emergency Management and People 
with Disabilities: Hill Briefing, (November 10, 2005), http://
www.ncd.gov/newsroom/publications/2005/transcript_emergencymgt.htm 
(last visited June 10, 2010).
---------------------------------------------------------------------------
    Today, there are three main points I would like to make:
    (1) First, it is time to focus on implementation. It is time to 
move beyond identification and deliberation of issues and 
recommendations, and beyond dense reports that state and restate 
problems. We must shift our focus to active implementation of evidence-
based successful practices in areas of known need. NCD is committed to 
joining our Federal partners, including Congress and FEMA, in shifting 
focus toward implementation and determining how to allocate scarce 
resources to meet a plethora of acute challenges.
    (2) Second, we must insist on integrated emergency planning. We 
cannot divide emergency planning into two distinct frameworks--one for 
``general'' preparedness and one for ``special needs'' preparedness. 
This division is particularly problematic when, as now, it results in 
devoting a miniscule portion of overall resources to ``special needs'' 
that are too often disproportionately more costly and resource 
intensive. Being well-prepared for emergencies means addressing ALL 
peoples' diverse needs, including the needs of people with 
disabilities, in a single, integrated, and unified approach to 
emergency preparedness. Vastly more important than a ``Special Needs 
Plan'' is the meaningful inclusion of people with diverse disabilities 
in every phase of disaster management planning, in all communities. 
Emergency preparedness planning must be informed at every juncture by 
the experiences and inputs of people with disabilities.
    (3) Third, we need to collaborate across silos to build accessible 
infrastructures. So long as we continue to work in agency silos, State, 
and Federal silos, individuals and nonprofits and Government silos, and 
Congressional committee silos, our progress will be halting and 
scattered. We need to think creatively about how to replicate exemplary 
and successful collaborations and continue to insist upon working 
across silos to effect positive change for people with disabilities.
    In addition to the amplification of these points that follows, 
attached to this testimony is a summary document of key recommendations 
and findings from our Effective Emergency Management report germane to 
this hearing, which is meant to supplement my testimony. (See 
attachment).

                 IT IS TIME TO FOCUS ON IMPLEMENTATION

    I am proud of the extraordinary role NCD has played prior to my 
tenure as chairman in drawing attention to the needs of people with 
disabilities in emergency planning. As an independent agency charged 
with making recommendations to the President and to Congress, our work 
on emergency management is a prime example of NCD's critical role in 
helping to ensure that we hold true to our Nation's disability policy 
goals of equality of opportunity, full participation, independent 
living, and economic self-sufficiency.
    To date, NCD is probably best known for its substantive and lengthy 
reports, including its reports on emergency management. While NCD will 
continue to develop reports when warranted or requested by Congress and 
the President, I am persuaded that NCD has reached a critical juncture 
that requires us to focus less on generating high-level recommendations 
encased in lengthy prose and focus more on rapid and responsive advice 
and guidance about effective implementation. This conclusion is 
informed substantially by comments I have received from Congressional 
staff and other key Federal stakeholders. Accordingly, NCD is currently 
undertaking a strategic planning process in coordination with the U.S. 
Office of Personnel Management to determine how best to equip NCD to 
fulfill a new and more actively-engaged role in helping to implement 
critical recommendations about disability policies and programs.
    This shift in NCD's emphasis forms a backdrop for my testimony 
today. At this point, there is little mystery about the scope of 
actions needed to ensure that people with disabilities are not the 
first to be sacrificed when disaster strikes. We have enumerated, 
justified, and detailed our recommendations in several reports. Of 
course, we all agree that we need to implement solutions rather than 
crystallize with increasing clarity the scope of the problem. It is now 
time for us to support active implementation of these recommended 
actions in areas of known need.
    With regard to emergency preparedness, NCD is prepared, and has in 
fact begun, to make this transition toward implementation of 
recommended actions. One example is a need identified by the Government 
Accountability Office (GAO) to improve the coordination and 
collaboration between NCD and FEMA. I am pleased to report to this 
subcommittee that FEMA Administrator Fugate and I had an excellent 
first meeting on April 23, 2010. I am also pleased to report that 
Marcie Roth, Director of FEMA's new Office of Disability Integration 
and Coordination, and I enjoy a strong working relationship rooted in 
our collaborations in various contexts over the past 12 years. 
Administrator Fugate has suggested that he and I meet regularly until 
we can point to tangible signs of progress. Toward that end, I have 
charged NCD Vice Chair Fernando Torres-Gil with a lead responsibility 
for the Council and plan to have him join me in meeting with 
Administrator Fugate whenever possible. Dr. Torres-Gil brings a wealth 
of emergency preparedness experience and will be an extraordinary asset 
as NCD and FEMA deepen our collaboration.
    As Assistant Secretary for Aging during the Clinton administration, 
Dr. Torres-Gil worked closely in assisting elderly and disabled persons 
to recover from the Midwest floods of 1993 and the Northridge 
earthquake of 1994. He directed the aging network of area and State 
units on aging to give particular attention to the needs of older 
adults with disabilities. As a current board member of The California 
Endowment and the Los Angeles Airport Commission, he continues to 
advocate for people with disabilities and older adults and is helping 
to bridge the communication gaps between disability and aging 
communities whose needs clearly overlap, even if both groups have a 
tendency to disassociate from one another for fear of the stigma of 
being viewed as ``old'' or ``disabled.''
    Historically, our work on emergency management has come in the form 
of Council oversight of outside contractors producing reports for NCD. 
This type of reporting has played an important role in the past, and we 
have targeted our lump-sum emergency management appropriation for 
financing contract research. However, if one agrees that most of the 
issue identification has been accomplished and one concurs with the 
general scope of NCD's prior recommendations, I would contend that 
NCD's greatest value in the years ahead will come from a more resource-
intensive process of being far more directly engaged with decision-
makers in actualizing the recommendations.
    Dr. Torres-Gil and I pledge our commitment and that of the Council 
to aggressive implementation of our emergency management 
recommendations and look forward to providing this subcommittee with an 
update on our progress in the future. One of the obvious challenges is 
how best to allocate our agency's limited financial and human 
resources. NCD has a $3.2 million annual lump sum appropriation (along 
with a one-time, $300,000 appropriation for emergency preparedness) to 
support a mission of advising the President and Congress on the entire 
sweep of disability programs and policies, including every type of 
disability and every conceivable disability issue. At present, nine 
full-time staff supports the work of a 15-member, Presidentially-
appointed, and Senate-confirmed part-time Council. Most Council 
members, including myself, balance their service on NCD with full-time 
careers. We embrace the breadth of our mission even as we acknowledge 
that difficult choices must be made about priorities.
    As I mentioned previously, NCD is undergoing a strategic planning 
process to optimize our allocation of resources, and as the chairman of 
the Council, I am committed to including emergency management 
activities as a discreet item in our strategic planning process. We 
welcome an opportunity to strategize with our Congressional partners 
about how best to marshal the resources necessary to fulfill Congress' 
charge to NCD. I will turn now to discussing two of the highest 
priority areas in need of aggressive implementation.

           WE MUST INSIST ON INTEGRATED PREPAREDNESS PLANNING

    Winston Churchill once said, ``However beautiful the strategy, you 
should occasionally look at the results.'' I respectfully urge this 
subcommittee to apply the sentiment behind that quote to its work 
involving ``caring for special needs.'' Reference to the unique 
considerations of people with disabilities in disasters is often termed 
``special needs.'' While some people would certainly prefer the label 
of ``people with special needs'' over ``people with disabilities,'' NCD 
embraces the view of the disability advocacy community that ``special 
needs'' connotes separateness and tends to reinforce debilitating 
stigma. People with disabilities are people first, and if we truly 
believe that disability is a natural part of the human experience, 
labeling the work done to address its implications for emergency 
planning should not be referred to as ``special.''
    As people with disabilities, we may have various physical, sensory, 
and/or psychiatric limitations, but our needs and wants are 
fundamentally the same as all other Americans--to live, to learn, and 
to earn. Furthermore, while recognizing that many people with 
disabilities are uniquely vulnerable in times of emergency and 
disaster, we need to focus greater energy on empowering people with 
disabilities to act responsibly and appropriately at such times, rather 
than default with the suggestion that they should wait to receive care. 
Although identifying and focusing on ``caring for special needs'' is no 
doubt well-intentioned, such a focus can have the unintentional, 
deleterious impact of segregating, isolating, and thereby failing to 
address adequately the actual needs of people with disabilities. People 
with disabilities have long been marginalized by the emergency 
management community. Instructions relating to the unique needs of 
people with disabilities have typically been limited to a few lines in 
an emergency plan, if they are mentioned at all. ``Disabilities'' have 
generally been placed into one large category, often labeled ``special 
needs,'' without genuine consideration for the unique circumstances of 
different disabilities. Emergency planners have often decided what 
people with disabilities need without consulting them. This practice 
further alienates people with disabilities and increases their 
vulnerability during disasters.
    I often say that there is no such thing as ``disability policy.'' 
Rather, when we say ``disability policy,'' we are actually simply 
thinking about all policies through a lens of consideration of its 
impact on people with disabilities. This perspective is no less 
relevant in emergency planning. We cannot divide emergency planning 
into distinct frameworks for ``general'' preparedness and ``special 
needs'' preparedness. What we need to do is ensure that all aspects of 
emergency preparedness planning always integrate and fully incorporate 
the unique life experiences of people with disabilities. This goes for 
responses to disasters, as well.
    Given the diversity of disability experiences and the highly 
variable progress toward accessibility in communities across the 
country, the most effective way to ensure that the needs of people with 
disabilities are taken into account during emergencies and disasters is 
to have people with disabilities be an integral part of the planning 
process from start to finish--equal partners. President Eisenhower once 
said, ``Planning is essential; plans are worthless.'' I am grateful to 
FEMA Administrator Fugate for calling my attention to this idea. It has 
helped give shape to my vision for the future of NCD and is certainly a 
central principle in understanding how NCD views effective emergency 
preparedness for people with disabilities.
    Many of NCD's prior recommendations get to the heart of this need 
for participation in the planning process. NCD has, for instance, 
recommended that there be a network of regional coordinators across the 
country. My good friend Marcie Roth is doing an extraordinary job as 
Director of FEMA's Office of Disability Integration and Coordination. 
However, despite my highest confidence in her abilities and dedication 
to these issues, I am deeply concerned about her ability as one 
individual to shoulder the enormous task laid before her. I am 
heartened to be confident, based on my on-going dialogue with 
Administrator Fugate, that he understands these weighty concerns, like 
few people outside the disability community. I believe Administrator 
Fugate, Ms. Roth, and I all agree that an important indicator of 
success will be when all people engaged in emergency management work 
have disability toward the center of their radar screens rather than 
expecting that the concerns of people with disabilities are the job of 
only a few individuals--whatever their rank may be.

Regional Coordinators Could Create Crucial Linkages
    PKEMRA established the National Disability Coordinator position at 
FEMA, which marked a critical step in institutionalizing staff 
positions representing disability interests. Despite encouraging work 
seen to date from the National coordinator (a position that is, 
regrettably, currently unfilled), the frequency and geographic 
dispersion of disasters annually underscores that regional replication 
of the National coordinator position is vital. Regional coordinators 
similar to the National coordinator's position, set up in each regional 
FEMA office, could enhance the effectiveness of the National 
coordinator by drilling down on local disability issues to more 
aggressively and timely respond to the needs of people with 
disabilities. Regional coordinators could liaise between voluntary 
agency liaisons and voluntary organizations that function in the 
National Response Framework, as well as oversee disability task forces. 
Such actions would go a long way in shoring up communication linkages 
between local disability communities and emergency managers.
    Meaningful involvement of people with disabilities in emergency 
management planning must happen across the country, not just here in 
Washington between NCD and FEMA. Success will be marked by the 
education of and enhanced awareness among all stakeholders in the 
business of emergency management--which is to say, albeit in varying 
ways, each and every American. And we have a long way to go.

People with Disabilities are Routinely Excluded from Preparedness 
        Activities
    People with disabilities are routinely excluded from preparedness 
exercises, drills, and other planning processes. As noted in one study 
of 30 disaster sites, only 27 percent of emergency managers had 
completed available training on disabilities, and fully 66 percent of 
the counties had ``no intention of modifying their guidelines to 
accommodate the needs of persons with mobility impairments'' because of 
problems stemming from costs, the availability of staff, awareness, 
etc.\2\ This lack of involvement in disaster planning also compromises 
emergency planners' credibility to people with disabilities when hazard 
and preparedness information is disseminated. The likeliest solution a 
partnership approach to planning that brings disability organizations, 
with which people with disabilities may already be familiar, to the 
table with emergency planners.
---------------------------------------------------------------------------
    \2\ Fox, M.H., White, G.W., Rooney, C., & Rowland, J.L. (2007). 
Disaster preparedness and response for persons with mobility 
impairments. Journal of Disability Policy Studies, 17(4), 196.
---------------------------------------------------------------------------
One-Size-Fits-All Approaches Do Not Work
    People with disabilities are often grouped together as a homogenous 
unit when considering preparedness provisions, which does not 
adequately account for the range of differences that exist between 
disabilities or the accompanying range of issues for which emergency 
managers must prepare to successfully respond to this diverse 
population. Generic, one-size-fits-all approaches to disaster planning 
do not work. Each type of disability presents its own unique set of 
barriers during disasters. For example, people with hearing 
disabilities may not receive weather warnings that broadcast only over 
audible technologies, whereas the most urgent concern of people with 
mobility disabilities may be negotiating the stairs of a fire escape 
during evacuation. Addressing barriers created by the unique needs of 
people with disabilities can serve to better protect all people during 
times of disaster. Children, seniors, and people with disabilities all 
benefit from an expanded set of options to support those at risk during 
an event.

People with Disabilities as Active Participants in Preparedness 
        Planning
    People with disabilities must be involved in emergency planning for 
several reasons:
  <bullet> First, their knowledge of potential barriers is invaluable. 
        People with disabilities make excellent consultants or advisors 
        during emergency plan development;\3\
---------------------------------------------------------------------------
    \3\ Loy, B., & Batiste, L.C. (2004). Evacuation preparedness: 
Managing the safety of employees with disabilities. Occupational Health 
and Safety, 73(9), 112-117.
---------------------------------------------------------------------------
  <bullet> Second, their personal experience in overcoming these 
        barriers adds tremendous validity to plan solutions; and
  <bullet> Third, the empowerment experienced through participation may 
        prompt people with disabilities to take preemptive actions and 
        encourage others to follow suit.\4\
---------------------------------------------------------------------------
    \4\ Wisner, B. (2002). Disability and disaster: Victimhood and 
agency in earthquake risk reduction. In C. Rodrigue & E. Rovai (eds.), 
Earthquakes. London: Routledge.
---------------------------------------------------------------------------
    Invited participants must be representative of all types of 
disabilities. Equal representation is imperative, as each disability 
can present unique challenges to consider during emergency plan 
development. For example, people with only mobility disabilities can 
receive warnings via ordinary technology, but they may not be able to 
self-evacuate; whereas people with hearing disabilities may be able to 
self-evacuate, if they are properly notified. Advocacy groups that work 
for and with people with disabilities should also receive an invitation 
to the planning table. The collective knowledge gained by including 
these individuals and organizations is invaluable to plan development. 
In addition, the individuals or groups responsible for implementing the 
plan, such as first responders, should also be involved in the 
process.\5\ The insight gained through working side by side with people 
with disabilities during the plan development process will enhance 
everyone's understanding of the plan's purpose.
---------------------------------------------------------------------------
    \5\ May, P.J. (1985). Recovering from catastrophes: Federal 
disaster relief policy and politics. Westport, CT: Greenwood Press, 95.
---------------------------------------------------------------------------
we need to collaborate across silos to build accessible infrastructures
    We need to think creatively about how to work across silos, 
including Congressional committee jurisdiction. If our communities' 
housing, communications, transportation and related infrastructures are 
not accessible now, our response to emergencies will be impaired from 
the start. Therefore, even though housing, communications, and 
transportation may not fall within a single committee's jurisdiction, 
all the committees who do have distinct jurisdiction over those topics 
will only achieve shared overarching objectives if they coordinate 
efforts. While we mourn the tragic loss of life and destruction of 
buildings in the wake of major disasters, built in the tragedy is the 
opportunity to improve lives by rebuilding our society more 
inclusively. We can only do this if we collaborate and coordinate 
across all varieties of silos.

Problems Posed by the Built Environment
    As I mentioned briefly before, historically, society has viewed 
disability through a medical model, which explains disability as one's 
personal, biologically-understood limitation, rather than through a 
socio-political model, which views disability as a consequence of 
faulty assumptions within the broader social, economic, and political 
environments.\6\ (The landmark civil rights law, the Americans with 
Disabilities Act (ADA), was written and is premised on the latter 
model.) Relying on the medical model to understand disability has had 
the consequence of deemphasizing examination of the built environment 
and social responsibility to create a safe setting for everyone. One 
research team remarked, ``Traditional perspectives, based on 
assumptions of individual limitation, have shaped the construction of 
disabled people's vulnerability to natural hazards as tragic yet 
unavoidable.''\7\ This is simply untrue. However, by ignoring the built 
environment, people with disabilities are further alienated and the 
safety of everyone who responds to an emergency or disaster is 
jeopardized. Contributing to concerns is the fact that ``the most 
accessible entrances tend to be the best route out of the building for 
everyone; nondisabled people head there first in an emergency, thus 
clogging those exits intended for the disabled, who have no alternative 
exits.''\8\ Researchers in this area emphasize the need to construct 
the built environment to be accessible to everyone, rather than relying 
upon people with disabilities to understand and act on detailed 
instructions in an environment that is not supportive of their 
functional needs.
---------------------------------------------------------------------------
    \6\ Tierney, K., Petak, W., & Harlan, H. (1988). Disabled persons 
and earthquake hazards. Los Angeles: University of Southern California.
    \7\ Hemingway, L., & Priestly, M. (2006). Natural hazards, human 
vulnerability and disabling societies: A disaster for disabled people? 
Journal of Disability Policy Studies, 2(3), 57.
    \8\ Wagner, C.G. (2006). Disaster planning for the disabled. The 
Futurist (March 1).
---------------------------------------------------------------------------
    When evacuation is necessary, additional attention must be directed 
toward the availability of adequate transportation for individuals with 
disabilities and the technology or mobility devices on which they rely. 
According to the Survey of Hurricane Katrina Evacuees, the most common 
reason provided by respondents for not evacuating was ``I did not have 
a car or a way to leave.''\9\ In studying the aftermath of Hurricane 
Katrina among New Orleans residents, GAO found that State and local 
governments did not ``integrate transportation-disadvantaged 
populations'' into their evacuation plans.\10\ GAO also found that most 
State officials did not believe that many of their residents needed 
transportation assistance, despite U.S. Census data to the contrary. 
Further emphasizing the importance of this consideration, the recent 
Citizen Corps 2009 survey showed that over half of the respondents 
reported needing help with transportation out of their area in the case 
of an emergency (55 percent).\11\
---------------------------------------------------------------------------
    \9\ Kaiser Family Foundation. (2005). Survey of Hurricane Katrina 
evacuees. Washington Post, Kaiser Family Foundation, Harvard 
University, p. 6. Retrieved from www.kff.org/newsmedia/upload/7401.pdf.
    \10\ Government Accountability Office (GAO). (2006a). Preliminary 
observations on the evacuation of vulnerable populations due to 
hurricanes and other disasters. Retrieved March 3, 2008, from 
www.gao.gov/new.items/d06790t.pdf.
    \11\ Federal Emergency Management Agency (2009). Personal 
Preparedness in America: Findings from the 2009 Citizen Corps National 
Survey. Retrieved October 15, 2009, from http://citizencorps.gov/pdf/
2009_Citizen_Corps_National_Survey_Findings.pdf.
---------------------------------------------------------------------------
    When considering individuals with disabilities who lack 
transportation, emergency planners must plan for the evacuation of 
assistive devices and service animals, as well. Assistive devices are 
often custom-fit for the individual and should be evacuated with him or 
her to ensure maximum independence, lower reliance on emergency assets, 
and speed post-event recovery. Service animals are also vitally 
important to their owners' ability to maintain independence and should 
be evacuated with the person.

Housing Concerns
    Perhaps surprisingly, housing is one of the least examined areas of 
recovery research, despite its importance. Lower income housing tends 
to take a disproportionate hit during a disaster because it is likely 
to be older and less likely to be up to code; located in a floodplain 
or other hazardous area; and less structurally able to withstand an 
event (such as manufactured housing). Thus, seniors and people with 
disabilities at lower incomes presumably bear a higher risk of 
displacement from their homes.
    Public housing can be problematic when it has been affected, 
particularly locations that are approved through the Section 8 Housing 
Choice Voucher Program. Although HUD maintains lists of available units 
across the Nation, those units may not be located nearby. In past 
disasters, HUD and local housing authorities have identified and 
verified appropriate locations for replacement rentals. After the 
California wildfires in 2007, HUD established a new National Housing 
Locator System. The system invited prospective landlords and property 
owners to list units. Approximately 26,000 units were identified within 
a 300-mile radius of San Diego County. The list included the ability to 
search for accessible units, although additional concerns remained, 
including proximity to work, family, health care, banking, pharmacies, 
and other routinely accessed sources of support.
    In New Orleans, public housing units remain unavailable while they 
are being rebuilt by HUD and area housing authorities. Concern has been 
expressed by local residents that the new units, which will be in 
mixed-income ranges, will displace or deter lower income residents. 
Finding housing near vital support systems needed by people with 
disabilities, the elderly, and people with medical conditions is also 
of concern. For example, relocation 100 miles away from a familiar 
senior center or dialysis center will be problematic.
    After Hurricane Katrina, FEMA failed to provide temporary trailers 
that were accessible. In Brou v. FEMA (the Department of Homeland 
Security was also named in the suit), successful plaintiffs argued in a 
class action discrimination suit that the Federal agency had not 
provided accessible trailers (e.g., with wheelchair ramps, maneuvering 
room, or grab bars), resulting in a longer wait for temporary housing. 
As another example, housing advocates have noted in conference 
presentations that mitigation elevations along the Gulf Coast displace 
people with mobility disabilities and senior citizens. Some 
organizations report that some of these people have been forced to 
choose congregate care over independent living.\12\ Brou v. FEMA was 
one of several efforts by the disability community that have resulted 
in changes at FEMA when it comes to disaster response and recovery. In 
another example, FEMA is incorporating disability-specific ideas and 
language into its National Disaster Housing Strategy and Plan.
---------------------------------------------------------------------------
    \12\ Cahill, A. (2006). Planning tools you can use to meet the 
needs of people with disabilities in an emergency: What to do, what not 
to do, and what difference does it make? Paper presented at the Working 
Conference on Emergency Management and Individuals with Disabilities 
and the Elderly, Washington, DC.
---------------------------------------------------------------------------
                               CONCLUSION

    Marking meaningful progress in addressing the needs of people with 
disabilities in times of disaster requires implementation--follow-
through--on identified solutions. It requires deliberate and thorough 
preparations that must include input in all disaster phase planning 
from people with disabilities. As self-advocating experts, people with 
disabilities offer invaluable knowledge of existing and potential 
barriers as well as creative and personal experience in overcoming 
them. Further, inclusion of people with disabilities throughout 
emergency phase planning promotes personal preemptive actions and 
enhances the credibility of emergency management personnel in times of 
actual emergency. Finally, marking meaningful progress requires working 
across silos and thinking holistically about peoples' lives--zooming 
out from action steps to ensure the solution integrates across systems 
in a sensible way.
    Disability is a normal part of the human experience. Anyone at any 
time can acquire a disability--as I did during a high school wrestling 
match. And acquiring a disability can just as well open the door to new 
opportunities as present new challenges--as I eventually discovered. 
Furthermore, there is considerable overlap in the challenges faced by 
persons with disabilities, seniors, and residents of low-income 
households in disaster-threat situations. People with disabilities 
should thus not be viewed as one more special interest group that 
drains resources from the common pool. Rather, planning for and 
accommodating people with disabilities often means being better 
equipped to serve all people.
    On behalf of the members of NCD, thank you again for the 
opportunity to contribute this testimony to the written record. As we 
are just over a month away from the 20th anniversary of the ADA, we 
very much look forward to working in collaboration with this 
subcommittee on closing the emergency planning gaps that remain.

                               ATTACHMENT

    The following information is based upon NCD's 2009 report entitled 
Effective Emergency Management: Making Improvements for Communities and 
People with Disabilities and is meant to supplement the written and 
oral testimony of Jonathan Young. This document begins by laying out 
several key recommendations before moving into several supplemental 
findings regarding the challenges faced by people with disabilities 
during the preparedness and response phases of a disaster, germane to 
the subcommittee's hearing.

                          KEY RECOMMENDATIONS

    1. Policies focusing on disaster preparedness should strive to 
protect and maintain the independence of people with disabilities.--
This includes addressing appropriate warning systems, transportation 
services, and sheltering options.
    2. People with disabilities must be involved in emergency 
planning.--Their knowledge of potential barriers is invaluable. Their 
personal experience in overcoming these barriers adds tremendous 
validity to plan solutions. In addition, the empowerment experienced 
through participation may prompt people with disabilities to take 
preemptive actions and encourage others to follow suit.\1\
---------------------------------------------------------------------------
    \1\ Wisner, B. (2002). Disability and disaster: Victimhood and 
agency in earthquake risk reduction. In C. Rodrigue & E. Rovai (eds.), 
Earthquakes. London: Routledge.
---------------------------------------------------------------------------
    3. Partnerships with disability organizations are critical.--
Federal agencies should be required to include disability organizations 
as partners in all preparedness and outreach efforts, funds, grants, 
and programs.
    4. Regional disability coordinators could provide critical 
communication linkages.--Positions similar to the National Disability 
Coordinator should be included in the structure of the regional FEMA 
offices. Regional disability coordinators could enhance the 
effectiveness of the National Disability Coordinator by addressing more 
localized disability issues. State, local, and Tribal emergency 
management offices should be encouraged to establish similar positions 
in their respective jurisdictions.
    5. Improvements to the built environment are vital.--By ensuring 
that the built environment better meets the needs of the most 
vulnerable populations, policymakers can create an environment that 
improves response and evacuation outcomes for all populations.
    <bullet> All interim or permanent housing that is built or rebuilt/
            reconstructed should meet at least minimal accessibility 
            requirements.
    <bullet> As a community's infrastructure is initially built or 
            rebuilt/redesigned, it should offer more accessible 
            features, such as wider pathways, auditory signaling 
            systems, and tactile signage.
    <bullet> As schools are built, renovated, or substantially 
            redesigned, the envelope should be hardened according to 
            the probable hazard (e.g. hurricane, tornado, ice storm, or 
            earthquake) and other measures should be taken to equip the 
            facility for use as an accessible shelter.
    <bullet> As shelter operations often rely upon existing building 
            structures, funding must be made available to allow for 
            retrofits and modifications that remove barriers and make 
            existing buildings accessible when used as shelters.
    6. Warning systems must be accessible to all people.--Policymakers 
should address public funds earmarked for civil defense sirens and use 
some monies for alternative warning systems. Additionally, Congress 
should request that GAO investigate noncompliance with FCC policies 
(regarding accessibility of emergency broadcasts).
    7. Federal exercise evaluations should include disability 
considerations.--All Federal exercises and disaster response after-
action reports should include performance evaluations and assessments 
on disability concerns as standard operating procedure.

                              KEY FINDINGS
                              PREPAREDNESS

Practical Barriers to Preparedness for People with Disabilities
    Although ultimately everyone, including people with disabilities, 
is personally responsible for his or her own safety and must actively 
prepare for a disaster, this proves difficult for many individuals with 
disabilities whose incomes are often well below National norms. When an 
individual must rely upon discretionary income to pay for emergency 
kits, transportation costs for evacuation, temporary shelter expenses, 
and on-going recovery needs, and discretionary income is little to 
none, execution of these steps is often impractical. In addition, 
disaster preparedness remains low in most peoples' list of 
priorities,\2\ and for people with disabilities who often have long 
lists of other unmet needs, this situation is no different.
---------------------------------------------------------------------------
    \2\ Tierney, K.J., Lindell, M.K., & Perry, R.W. (2001). Facing the 
unexpected: Disaster preparedness and response in the United States. 
Washington, DC: Joseph Henry Press, p. 44.
---------------------------------------------------------------------------
Education and Training
    Since most people have limited experience with disasters, 
educational programs are essential components of effective preparedness 
plans.\3\ Increasing awareness of people with disabilities through 
disaster-related education is likely to lead to increased confidence 
and self-reliance.\4\ Education programs should instruct individuals 
and families both how to prepare for disasters. The materials and 
formats used in these disaster education programs must be developed in 
such a manner that they are accessible to people with all kinds of 
disabilities in both format and content. Multiple modes of distribution 
of this information should be used, including organizations; public 
meetings; brochures, door hangers, and other printed materials (also 
available in Braille and other languages); issue presentations and 
panel discussions; radio talk shows, chat rooms, social networking 
sites, disability blogs, and email blasts; web-based references; and 
degree programs at colleges and universities, which should integrate 
awareness of the needs of people with disabilities into their 
curriculums.\5\
---------------------------------------------------------------------------
    \3\ Parr, A. (1987). Disasters and disabled persons: An examination 
of the safety needs of a neglected minority. Disasters, 11(2), 153.
    \4\ Newport, J.K., & Jawahar, G.G.P. (2003). Community 
participation and public awareness in disaster mitigation. Disaster 
Prevention and Management, 12(1), 33-36.
    \5\ Natural Hazards Center (NHRAIC). (2005). Holistic disaster 
recovery: Post-Katrina edition. Boulder, CO: NHRAIC and Public Entity 
Risk Institute.
---------------------------------------------------------------------------
    Training--which includes practice sessions, live drills, and 
tabletop exercises--offers a way to evaluate recommended measures and 
procedures contained in an emergency preparedness plan while enhancing 
the proficiency of participants. Practicing and adapting a personal 
evacuation plan is vital to ensuring that protective actions work and 
become familiar. The development of responsive habits is the first line 
of defense against any type of disaster, especially rapid onset events. 
Emergency responders also need training in understanding the needs of 
people with disabilities.\6\ People with disabilities must be actively 
involved in preparing, conducting, and overseeing training exercises. 
Their expertise in proper lifting techniques, ways of communicating, 
and handling other barriers will greatly benefit emergency responders 
by enhancing the effectiveness of training simulations and identifying 
areas for improvement.
---------------------------------------------------------------------------
    \6\ Parr, at 153.
---------------------------------------------------------------------------
Evacuation Planning
    Pre-event planning is crucial, as the time and resources necessary 
for the successful evacuation of people with disabilities often exceeds 
that required for individuals without disabilities.\7\ The U.S. 
Government Accountability Office (GAO) documented a number of 
challenges in addition to timing during recent evacuation events, 
including identifying people who need evacuation assistance, securing 
adequate transportation, and coordinating the evacuation efforts.\8\ 
Evacuation protocols are still emerging and lack empirical validation. 
Rapid-onset evacuations often prove more difficult, even under the best 
of circumstances. In 2004, the California State Independent Living 
Council (SILC) issued a brief entitled ``The Impact of 2003 Wildfires 
on People with Disabilities'' and found that people who were deaf were 
not notified adequately of the wildfires.\9\ Emergency personnel raced 
ahead of the fast-moving fires and announced evacuation orders using 
car loudspeakers, and few reports on television were close-captioned. 
Similarly, people who were blind often went without notification as 
well. Many remote areas did not have television or radio access and 
none had reverse 9-1-1 capabilities.
---------------------------------------------------------------------------
    \7\ Rubadiri, L., Ndumu, D.T., & Roberts, J.P. (1997). Predicting 
the evacuation capacity of mobility-impaired occupants. Fire 
Technology, 33(1), 32-53.
    \8\ Government Accountability Office. (2006). Preliminary 
observations on the evacuation of vulnerable populations due to 
hurricanes and other disasters. Retrieved March 3, 2008, from 
www.gao.gov/new.items/d06790t.pdf.
    \9\ California State Independent Living Council. (2004). The impact 
of southern California wildfires on people with disabilities. Retrieved 
March 3, 2008, from www.calsilc.org/impactCAWildfires.pdf.
---------------------------------------------------------------------------
Sheltering in Place
    An alternative to evacuation when faced with a rapid onset disaster 
is to seek refuge inside a structure, with the object of limiting if 
not eliminating one's exposure to the outside air. Sheltering in place 
may be problematic for people with disabilities for several reasons. 
First, people in the ``lowest income quartile [are] less likely to want 
to attend classes on creating a home shelter environment and to have a 
family plan or preparedness kit'' in place to do so, and people with 
disabilities often fall into this lower income quartile.\10\ Second, 
people with disabilities may experience difficulties with the physical 
labor necessary to create a home shelter. The limitations could 
increase the amount of time necessary to set up a shelter, leaving them 
vulnerable to airborne contaminants for an extended period. A separate 
but similar issue may occur among individuals with cognitive 
disabilities, who may have difficulty understanding instructions for 
sheltering in place. A third problem with sheltering in place is the 
lack of accessible options; for example, most underground safe rooms in 
tornado alley are not accessible.
---------------------------------------------------------------------------
    \10\ Phillips, B.D., Metz, W.C., & Nieves, L.A. (2005). Disaster 
threat: Preparedness and potential response of the lowest income 
quartile. Environmental Hazards, 6(3), 131.
---------------------------------------------------------------------------
                                RESPONSE

Communication Gap Between Emergency Management and Disability Community
    Many of the problems incurred by emergency personnel during the 
response phase of a disaster could be addressed if planning included 
people with disabilities. It is imperative that people with 
disabilities have a voice and be at the table for all stages of 
disaster planning, including the development of policies that impact 
the built and social environments and, therefore, influence a person's 
ability to respond appropriately to disaster. Yet, the report from the 
Special Needs Assessment for Katrina Evacuees (SNAKE) project found 
that many emergency shelter planners had little interaction with the 
disability community prior to Hurricane Katrina.\11\ The following 
findings were presented in the SNAKE report:
---------------------------------------------------------------------------
    \11\ National Organization on Disability. (2005). Special Needs 
Assessment for Katrina Evacuees project. Retrieved December 18, 2008, 
from www.nod.org/emergency.
---------------------------------------------------------------------------
  <bullet> 50 percent of those interviewed had policies, plans, and 
        guidelines for disability accommodations in place prior to 
        Hurricane Katrina. Only 36 percent had someone with expertise 
        on-site to provide guidance regarding appropriate 
        accommodations.
  <bullet> 54 percent of the respondents did not have any working 
        agreements with disability and aging organizations prior to the 
        event. 50 percent made contacts with those organizations as a 
        result of their Hurricane Katrina experience.
  <bullet> The gap between emergency management and disability-specific 
        and aging-specific organizations widened when the organizations 
        serving these populations tried to connect with the emergency 
        management community. 85.7 percent of these community-based 
        groups answered that they did not know how to link with the 
        emergency management system.

Warning Systems
    The current status of emergency warnings for people with 
disabilities is woefully inadequate. People who may have unique 
communication needs for disaster warning messages include people who 
are deaf, deaf-blind, blind, or visually-impaired; the frail elderly; 
and those with cognitive disabilities. The existing and decentralized 
warning system in the United States, though offering extensive means 
for warning dissemination, largely relies on audible (possibly 
supplemented by visual) messages that are often transmitted through an 
intermediary. For many deaf and hard-of-hearing individuals, audible-
only inclement weather warnings or Civil Defense sirens go unheard. 
Most disaster warnings are only broadcast via conventional media 
methods, so to the extent that conventional media remain inaccessible 
to people with hearing and vision disabilities, emergency information 
broadcast over them does as well.
    Many blind or visually-impaired individuals are relying 
increasingly on television to meet communication needs, which has 
important implications in times of disaster. The FCC Media Security and 
Reliability Council is working with the American Foundation for the 
Blind (AFB) to develop standards to address the needs of individuals 
with vision loss during times of disasters. In the current absence of 
standards, on-air meteorologists often assume that consumers have good 
vision and can see the radar images, failing to accompany an emergency 
weather broadcast with proper audio cues as to location or trajectory. 
Technologies that project a storm's path, location, and timing may be 
useful, but only if they are offered through audible means as well as 
through visual graphics.
    For individuals who are deaf-blind, receipt of an emergency message 
often involves diverse communication needs. Large-print and tactile 
cues are preferred when available. Communication with individuals who 
are deaf-blind can range from sign language near the person's face to 
sign language in the palm to words written on the palm with a finger. 
The universal symbol for an emergency is a tactile symbol ``X,'' 
``drawn'' on the back of the deaf-blind individual by an individual who 
is alerting him or her. This symbol is understood to mean that an 
emergency has occurred and that it is imperative for the individual 
receiving the message to follow directions and not ask questions. 
However, few preparedness materials or trainings include this 
information.
    In addition to the numerous barriers to the initial receipt of the 
warning message, barriers also hamper a recipient's belief in the 
credibility of the message. Experts contend that the best way to extend 
warnings is through the use of people who are as similar to the target 
population as possible, using well-established officials familiar to 
the community to enhance credibility.\12\ Emergency management 
professionals can build their credibility among the disability 
community by involving people with disabilities in all stages of 
disaster response. In addition, being able to see, hear, or understand 
that other people are taking shelter increases the likelihood that a 
person will take action. For people with sensory, cognitive, or 
psychiatric disabilities, taking shelter may be further delayed if 
confirmatory cues are not present. Solutions include accessible PSAs 
that show people with disabilities taking protective action, outreach 
efforts by people with disabilities or advocacy organizations, and 
direct appeals to people with disabilities, their families and friends, 
and service organizations.
---------------------------------------------------------------------------
    \12\ Fothergill, A., Maestas, E., & Darlington, J. (1999). Race, 
ethnicity, and disasters in the United States. Disasters, 23(2), 156-
173.
---------------------------------------------------------------------------
Transportation Considerations
    When evacuation is necessary, additional attention must be directed 
toward the availability of adequate transportation for individuals with 
disabilities and the technology or mobility devices on which they rely. 
According to the Survey of Hurricane Katrina Evacuees, the most common 
reason provided by respondents for not evacuating was ``I did not have 
a car or a way to leave.''\13\ In studying the aftermath of Hurricane 
Katrina among New Orleans residents, GAO found that State and local 
governments did not ``integrate transportation-disadvantaged 
populations'' into their evacuation plans.\14\ GAO also found that most 
State officials did not believe that many of their residents needed 
transportation assistance, despite U.S. Census data to the contrary. 
Further emphasizing the importance of this consideration, the recent 
Citizen Corps 2009 survey showed that over half of the respondents 
reported needing help with transportation out of their area in the case 
of an emergency (55 percent).\15\
---------------------------------------------------------------------------
    \13\ Kaiser Family Foundation. (2005). Survey of Hurricane Katrina 
evacuees. Washington Post, Kaiser Family Foundation, Harvard 
University, p. 6. Retrieved from www.kff.org/newsmedia/upload/7401.pdf.
    \14\ Government Accountability Office (GAO). (2006a). Preliminary 
observations on the evacuation of vulnerable populations due to 
hurricanes and other disasters. Retrieved March 3, 2008, from 
www.gao.gov/new.items/d06790t.pdf.
    \15\ Federal Emergency Management Agency (2009). Personal 
Preparedness in America: Findings from the 2009 Citizen Corps National 
Survey. Retrieved October 15, 2009, from http://citizencorps.gov/pdf/
2009_Citizen_Corps_National_Survey_Findings.pdf.
---------------------------------------------------------------------------
    When considering individuals with disabilities who lack 
transportation, emergency planners must plan for the evacuation of 
assistive devices and service animals, as well. Assistive devices are 
often custom-fit for the individual and should be evacuated with him or 
her to ensure maximum independence, lower reliance on emergency assets, 
and speed post-event recovery. Service animals are also vitally 
important to their owners' ability to maintain independence and should 
be evacuated with the person.

Nursing Home Evacuations
    Deaths amongst nursing home residents in New Orleans following 
Hurricane Katrina highlighted the need to better plan and respond to 
the special needs in this population of people.\16\ Transportation and 
long-term living arrangements are the major factors in the evacuation 
of nursing home residents, many of whom have mobility and/or cognitive 
impairments. Evacuations are multi-tiered, as residents, their personal 
items, staff, and long-term medical needs must all be addressed. When 
the National Disaster Medical System (NDMS) assists in the evacuation 
of hospital patients during natural disasters, it is not designed to 
aid in nursing home evacuations.\17\ Further, nursing homes and 
emergency management teams seldom work together. In its 2006 report, 
for these reasons, GAO requested that DHS ``clearly delineate how to 
address the needs of nursing home residents during evacuations.''\18\
---------------------------------------------------------------------------
    \16\ Hyer, K., Brown, L.M., Berman, A., & Polivka-West, L. (2006). 
GrantWatch: Report: Establishing and refining hurricane response 
systems for long-term care facilities. Health Affairs-Web Exclusive 
25(5).
    \17\ Bascetta, C.A. (2006). Disaster preparedness: Limitations in 
federal evacuation assistance for health facilities should be 
addressed. DIANE Publishing.
    \18\ GAO (2006a).
---------------------------------------------------------------------------
Search and Rescue
    Unlike other components of the response phase, rescuing disaster 
victims always occurs in an unpredictable and hazardous environment. 
Because of the unpredictability of disasters, first responders do not 
preplan rescue operations but rather focus on practicing rescue 
techniques. It is during the practice of these fundamentals that 
guidance in lifting, moving, and communicating with people who have 
disabilities should be incorporated.
    Because of our decentralized society, responsibility for the 
initial response to any disaster rests on the shoulders of the local 
government.\19\ Thus, the incorporation of special training in rescuing 
people with disabilities must be initiated at the local level. Most 
first responders approach all search and rescue assignments with the 
same mindset--get the victims out as quickly as possible. While speed 
may be of the utmost importance in these situations, first responders 
must also be careful not to exacerbate the situation. This is 
especially true in rescuing people with disabilities. For example, 
first responders are cautioned not to use the over-the-shoulder carry 
when rescuing a person who uses a wheelchair.\20\ This carry can cause 
additional life-threatening injuries because of the health issues 
associated with the person's disability. Therefore, rescuers must 
practice multiple carrying techniques during training to be proficient 
in applying them during a rescue operation. In addition, first 
responders should attempt to rescue the victim's assistive technology, 
if at all possible. These assistive devices are often essential to the 
person's survival and will speed his or her recovery. Although rescuing 
these assistive devices should not take precedence over a human life, 
they should receive consideration when time and resources allow. The 
old adage ``You will play the way you practice'' holds true for rescue 
situations that do not allow the rescuer sufficient time to plan each 
step of the process.
---------------------------------------------------------------------------
    \19\ Drabek, T.E. (1985). Managing the emergency response. Public 
Administration Review, 45 (special issue), 85-92.
    \20\ Federal Emergency Management Agency (FEMA). (2002). 
Orientation manual for first responders on the evacuation of people 
with disabilities, 13. Retrieved April 19, 2008, from 
www.eadassociates.com/fa-235-508.pdf.
---------------------------------------------------------------------------
Shelter Operations
    The Americans with Disabilities Act mandates that accommodations, 
which include shelters, must be accessible. Shelters must also 
accommodate service animals and should provide multiple means for 
communication. Ideally, shelter staff should be trained to accommodate 
a wide variety of disabilities and medical needs. However, it appears 
that such training is not conducted routinely and that people with 
disabilities and those with medical conditions, as well as service 
animals, may be turned away from a general population shelter or sent 
to a special needs or medical shelter.
    The National Organization on Disability (NOD) conducted a rapid 
survey of 18 shelters after Hurricane Katrina, supplemented with 
information from officials involved in response and sheltering efforts. 
Although two-thirds of the shelters included questions regarding 
disability on their intake or registration paperwork, only minimal 
recognition of the disability occurred. Translating potential needs 
into available services lagged behind the intake identification. For 
example, only 30 percent of the shelters provided American Sign 
Language. Eighty percent did not provide TTY and 60 percent did not 
offer closed-captioned television. Although 56 percent posted written 
versions of oral announcements, people who were deaf or blind reported 
missing communications. Some shelters set up specific areas for 
communication, although such locations have been criticized as 
unnecessarily segregating people with disabilities.
    Because of the rapid and chaotic evacuation of New Orleans, people 
with disabilities reported being separated from family members, who 
ended up in separate shelters. Disability organizations and schools 
worked to reunite families. One State school, for example, used its 
email and website capabilities to reunite families and opened the 
school as a shelter site for students and parents. State officials 
reported that rescue efforts failed to include many pieces of durable 
medical equipment. Louisiana officials worked for 6 months, for 
example, to locate and reconnect expensive pieces of durable medical 
equipment with evacuees. Meanwhile, evacuees sent to shelters lost 
their independence because of the loss of their equipment; shelters 
scrambled to find temporary equipment that may not have fit the 
specific need; and shelters had to add staff to support individuals who 
had lost their equipment.

    Ms. Richardson. Thank you, Dr. Young.
    Mr. Young, Sr., are you here? Where are you? There you go. 
I think you did a pretty good job. Thank you. Thank you very 
much, sir.
    Thank you for your testimony. I now would like to recognize 
Mr. Spencer to summarize his statement for 5 minutes.

 STATEMENT OF CARMEN J. SPENCER, DEPUTY ASSISTANT SECRETARY OF 
 THE ARMY--ELIMINATION OF CHEMICAL WEAPONS, UNITED STATES ARMY

    Mr. Spencer. Madam Chairwoman, Representative Rogers, 
distinguished Members of the committee, I am grateful to have 
this opportunity to address the subcommittee to discuss the 
important work the United States Army and FEMA, working 
together, have accomplished and continue to accomplish as it 
relates to the Chemical Stockpile Emergency Preparedness 
Program.
    I respectfully request my written statement be entered into 
the record in its entirety.
    I am Carmen Spencer, deputy assistant secretary of the Army 
for the elimination of chemical weapons. In this capacity, I 
provide management oversight of the United States Army's 
Chemical Demilitarization Program.
    By way of background, as a former Army officer for over 28 
years, I had the privilege of commanding two Army installations 
directly involved in destroying the U.S. stockpile of chemical 
munitions. This experience gave me first-hand knowledge of 
working with municipalities and local citizens concerned with 
emergency preparedness in the very unlikely event of a chemical 
accident or incident.
    The Chemical Demilitarization Program was established in 
1986 by Public Law 99-145 and exists today to remove the threat 
posed by continued storage of obsolete chemical weapons to meet 
international security requirements and international treaty 
requirements and to inspire a worldwide commitment to the 
elimination of an entire class of weapons of mass destruction.
    Since 1986, the Army has safely and effectively destroyed 
over 2 million chemical munitions at seven sites Nation-wide. 
As of today, the Army has successfully completed the 
destruction missions at three sites, Johnston Atoll in the 
South Pacific, Newport, Indiana, and Aberdeen, Maryland, and is 
currently operating four incineration sites in Umatilla, 
Oregon, Tooele, Utah, Pine Bluff, Arkansas, and Anniston, 
Alabama.
    The Army's effectiveness in destroying these agents and 
munitions, while maintaining the highest standards of safety to 
the workers, the public, and the environment has led to over $2 
billion in life-cycle cost savings and has placed the program 
62 months ahead of schedule. As of today, the Army has 
destroyed 74.3 percent of the entire U.S. stockpile.
    The United States Army Chemical Demilitarization Program is 
made up of three areas: The chemical stockpile elimination 
project; the non-stockpile project; and most importantly, the 
Chemical Stockpile Emergency Preparedness Program, or CSEPP.
    CSEPP provides technical and financial support to 
communities located near the stockpiles to enhance effective 
responses to potential releases of chemical agent. The program 
is managed cooperatively by the Army and the Department of 
Homeland Security's Federal Emergency Management Agency.
    We have successfully managed and executed this mission 
since August of 1988. As part of Public Law 99-145, the 
Congress directed the Department of Defense to dispose of its 
lethal agents and munitions while providing maximum protection 
to the environment, the general public, and all personnel 
involved.
    In 1987, the Army released a draft emergency response 
concept plan which presented a basis for the development of 
local emergency response programs and examined various methods 
of emergency planning. Then in 1999, the National Defense 
Authorization Act provided further statutory delineation 
between the roles that Army and FEMA each play with CSEPP. The 
law assigned the Army the responsibility for all on-post 
activities and FEMA the responsibilities for all off-post 
activities.
    Then in 2008, the Congress modified the termination 
requirements for CSEPP funding, and this statutory change 
requires that CSEPP communities receive assistance until either 
the date of completion of all grants and cooperative 
agreements, which are managed by FEMA, or the date that 180 
days after completion of destruction of chemical agent and 
munitions at each individual installation or facility.
    The primary mission of CSEPP is to protect the health and 
safety of the public by enhancing and augmenting existing 
emergency preparedness capabilities of the Army installations 
and, most importantly, of the nearby civilian communities.
    The Army and FEMA have jointly developed a programs policy 
and guidance using integrated process teams to ensure 
representation and acceptance by all of the Government 
stakeholders involved. The strong Army, FEMA, State, and, yes, 
even Tribal and local government partnerships have ensured that 
continued full program benchmark compliance at all sites.
    I am very proud and have been continually impressed by the 
work that CSEPP has done and continues to do. Through their 
involvement in this program, CSEPP communities are now better 
prepared to response not only to chemical hazards, but all 
natural and manmade hazards.
    In closing, thank you again for this opportunity to come 
before you. I look forward to answering any questions you may 
have.
    [The statement of Ms. Spencer follows:]

                Prepared Statement of Carmen J. Spencer
                             June 15, 2010

    Chairman Richardson, Representative Rogers, distinguished Members 
of the committee, I am grateful to have the opportunity to address this 
subcommittee to discuss the important work the United States Army and 
FEMA has completed and continues to do on the Chemical Stockpile 
Emergency Preparedness Program in support of the Chemical 
Demilitarization Program. I respectfully request that my written 
statement be entered into the record in its entirety.
    I am Carmen J. Spencer, Deputy Assistant Secretary of the Army, for 
the Elimination of Chemical Weapons. In this capacity, I provide 
management oversight of the United States Army's Chemical 
Demilitarization Program. By way of background, as a former Army 
officer, I had the privilege of commanding two Army installations 
directly involved in destroying the U.S. stockpile of chemical 
munitions. This experience has given me first-hand knowledge of working 
with municipalities and local citizens concerned with emergency 
preparedness in the unlikely event of a chemical accident or incident.
    The Chemical Demilitarization Program was established in 1986 by 
Public Law 99-145, and exists today, to remove the threat posed by 
continued storage of obsolete chemical weapons, to meet international 
treaty requirements, and to inspire a world-wide commitment to the 
elimination of an entire class of weapons of mass destruction. The 
United States Army Chemical Demilitarization Program has been a 
Congressionally funded and mandated program for more than 20 years. 
Since 1986 the Army has safely and effectively destroyed chemical 
agents and munitions at seven stockpile sites Nation-wide. As of today, 
the Army has successfully completed the destruction missions at three 
sites (Johnston Atoll, Newport, IN, and Aberdeen, MD) and is currently 
operating four incineration sites (Umatilla, OR, Tooele, UT, Pine 
Bluff, AR and Anniston, AL). The Army's effectiveness in destroying 
these agents and munitions, while maintaining the highest standards of 
safety to the workers, the public, and the environment has led to over 
$2 billion in life-cycle cost savings and has placed the program 62 
months ahead of schedule. As of 9 June, 2010, the Army has currently 
destroyed 74 percent of the U.S. stockpile.
    The United States Army Chemical Demilitarization Program is made up 
of three program areas, the Chemical Stockpile Elimination Project, the 
Non-Stockpile Chemical Materiel Project and the Chemical Stockpile 
Emergency Preparedness Program or CSEPP. CSEPP provides technical and 
financial support to communities located near the stockpiles to enhance 
effective responses to potential releases of chemical agent. The 
program is managed cooperatively by the Army and the Department of 
Homeland Security (DHS) Federal Emergency Management Agency (FEMA).
    The Army and FEMA have been successfully managing and executing 
this important mission since August 1988. As a part of Public Law 99-
145, the Congress directed the Department of Defense to dispose of its 
lethal unitary chemical agents and munitions while providing ``maximum 
protection for the environment, the general public and the personnel 
involved.'' In 1987, the United States Army released a Draft Emergency 
Response Concept Plan, which presented a basis for the development of 
local emergency response programs and examined various methods of 
emergency planning. Then in 1999, the National Defense Authorization 
Act provided further statutory delineation between the roles that the 
Army and FEMA each play with CSEPP. The law assigned the Army 
responsibility for all on-post CSEPP activities and FEMA the 
responsibility for all off-post CSEPP activities. Then in 2008, the 
Congress modified the termination requirements for CSEPP funding in 
Public Law 110-181. This statutory change requires that CSEPP 
communities only receive assistance until either the date of the 
completion of all grants and cooperative agreements which are managed 
by FEMA, or the date that is 180 days after the completion of the 
destruction of chemical agent and munitions at each individual 
installation or facility.
    The primary mission of CSEPP is to protect the health and safety of 
the public by enhancing and augmenting existing emergency preparedness 
capabilities of the Army installations and nearby civilian communities. 
The Army and FEMA have jointly developed the program's policy and 
guidance using the Integrated Process Team concept to ensure 
representation and acceptance by all of the Government stakeholders 
involved. This strong Army, FEMA, State, Tribal, and local government 
partnership has ensured that continued full program benchmark 
compliance at all sites and has successfully allowed for the continued 
safe destruction of the Nation's stockpile of chemical weapons. The 
United States Army has a continuing commitment to fund off-post 
requirements that are validated by FEMA to meet the maximum protection 
criteria mandated by Public Law.
    I am very proud and have been continually impressed by the work 
that CSEPP has done, and continues to do. Through their involvement in 
this program, CSEPP communities are now better prepared to respond to 
all natural and man-made hazards.
    In closing, thank you again for this opportunity to come before 
you. I look forward to answering any questions you may have.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Mr. Kish to summarize his statement for 5 
minutes.

   STATEMENT OF JAMES KISH, DIRECTOR--TECHNOLOGICAL HAZARDS 
 DIVISION, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Kish. Good morning, Madam Chairwoman, Ranking Member 
Rogers, and Chairman Thompson, and distinguished Members.
    Thank you very much for the opportunity to testify on this 
critically important topic. My remarks will describe how a 
successful approach to preparing vulnerable populations has 
been accomplished through the aforementioned CSEPP program.
    My name is James Kish, and I serve as the director for 
technological hazards for the Federal Emergency Management 
Agency, Department of Homeland Security.
    FEMA works with the U.S. Army and our State, local, and 
Tribal partners to ensure that the communities can provide a 
maximum protection for citizens that are living and working 
within areas that could possibly be affected by an accidental 
chemical release. To meet this high standard, the CSEPP program 
focuses both on overall community preparedness, as well as 
efforts to foster increased personal resiliency of those who 
participate in this program.
    I would like to summarize for the committee the process we 
use to work with our program partners. The Army and FEMA use 
integrated process teams, a highly collaborative process, to 
bring together all of the program's stakeholders in an effort 
to identify the needs that are individual to the particular 
communities to solve problems that those needs have been 
identified and to develop products to meet the needs of those 
problem solutions.
    At each site, a community IPT has been established and has 
representatives from State and local governments, the Army 
installation, as well as other Federal partners, local 
volunteer organizations, and a number of other partners.
    These integrated process teams have been very successful in 
developing local solutions that are very specific to the 
complex emergency preparedness challenges. Since 1997, FEMA, 
the Army, State of Alabama, and the participating local 
governments and agencies have pursued specific emergency 
planning efforts to address the concerns of residents that have 
disabilities, access or functional needs, or those who may live 
in a facility such as assisted living facility or a skilled 
nursing home.
    The focus of these activities is to improve individual 
resilience for those with disabilities, access, or functional 
needs, while providing necessary information for the delivery 
of emergency services during a response.
    As I detail the efforts in Anniston, I would like to note 
that FEMA is committed to communicating these positive lessons 
across the entire emergency management community. For example, 
a software planning tool is developed for use in the Anniston 
area, and that has been posted to an open source Web site and 
has been downloaded numerous times over that decade-plus 
period.
    The planning project in Alabama community began 13 years 
ago using common terminology at the time and was called the 
CSEPP special needs population program. I should acknowledge 
that the CSEPP program is working with FEMA's Office of 
Disability Integration and Coordination to ensure that our 
approaches are modified to become and maintain consistency with 
the newest guidelines.
    In Alabama, the planning community developed a registry 
system that people could voluntarily enroll into. The purpose 
of this system was to understand the scope of those community 
needs and to facilitate planning and to develop activities to 
meet those needs. Key elements of the program included efforts 
to invite people to self-register, the development of a 
geographic information system, or GIS, emergency planning 
software tool, and that tool was designed specifically for the 
program to be able to assist and facilitate in geolocating 
people in the event of emergencies.
    Repeated efforts have been made to remain in contact with 
those people who desire information that have self-registered. 
As well, there has been a significant delivery of extensive 
preparedness training to those people who have self-identified 
their caregivers and people without vehicles for evacuation, 
parents of unattended children who might need assistance during 
chemical emergency.
    Involvement of people with disabilities was established 
early in the process. Workshops were held with the individuals, 
as well as those community-based organizations, to learn of 
their activities and their needs and to build bridges into the 
emergency management community. Tests of the protective 
equipment that was determined to be viable was--included people 
with disabilities, and their inputs resulted in shaping those 
equipment sets, as well as the training.
    Today, the workshops continue, but the focus is now on 
training individuals and their staffs on techniques and to 
improve individual preparedness.
    Together, these elements enabled focus to be brought on 
meeting individual medical and functional needs in advance of 
any danger. The emergency planning in Anniston, Alabama, 
fostered relationships between Government, the private sector, 
volunteer, and faith-based organizations.
    The Alabama CSEPP program demonstrates that a robust public 
outreach effort with consistent messaging, preparedness can be 
enhanced to include all populations in that planning activity. 
Such programs help all residents become more self-sufficient, 
thus producing a more resilient community.
    Early on, leaders and planners determined that this could 
not be a rescue program, that--rather, to be successful, they 
had to be a blend of self-reliance and targeted responder 
preparations.
    The core element of their success has been on-going 
empathetic contact between emergency management personnel and 
people with disabilities access and functional needs. The 
Alabama project is just another example of how CSEPP's 
collaborative approach is used to benefit emergency managers 
throughout the country.
    Thank you very much for the opportunity to speak today, and 
I look forward to your questions.
    [The statement of Mr. Kish follows:]

                    Prepared Statement of James Kish
                             June 15, 2010

    Good Morning Madame Chairwoman, Ranking Member Rogers and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify on how a successful approach to preparing 
vulnerable populations has been accomplished through the Chemical 
Stockpile Emergency Preparedness program (CSEPP). My name is James 
Kish, and I serve as the Director of the Technological Hazards Division 
for the Federal Emergency Management Agency (FEMA). There are two 
primary elements within my division, CSEPP and the Radiological 
Emergency Preparedness Program (REPP). Our Division is part of FEMA's 
National Preparedness Directorate.
    CSEPP was created to assist communities to prepare for the unlikely 
event of an accident involving the U.S. Army's chemical weapons 
stockpile. Since 1989, FEMA has worked collaboratively with the U.S. 
Army and our State, local, and Tribal partners to ensure the 
communities with a U.S. Army chemical weapons stockpile facility meet a 
standard of ``maximum protection''\1\ for people living and working 
within areas that could possibly be affected by an accidental chemical 
agent release.
---------------------------------------------------------------------------
    \1\ 50 U.S.C.  1521(c)(1)(A).
---------------------------------------------------------------------------
    CSEPP involves all levels of Government and community members to 
develop, resource, test, and evaluate the integrated planning essential 
to the ``maximum protection'' mission. FEMA provides both resources and 
technical assistance. Target resources are delivered to communities and 
States through cooperative agreements with FEMA. These resources 
include: Technical assistance; training for first responders and 
hospital personnel; assistance in emergency planning; organizing and 
conducting drills and exercises to measure preparedness; and sponsoring 
the development of various preparedness products. In addition, CSEPP 
funds on-the-ground personnel in these communities to carry out 
emergency preparedness functions. FEMA works with the U.S. Army to 
develop budget inputs, and the Army in turn provides the funding 
necessary to ensure the integrated plans are adequately resourced. This 
includes resources for cooperative agreements with the States and 
communities through FEMA's grants management system.
    There are currently six U.S. Army installations in the United 
States that store our Nation's stockpile of chemical weapons. These 
stockpiles affect Umatilla, OR; Tooele, UT; Pueblo, CO; Pine Bluff, AR: 
Anniston, AL; and Blue Grass, KY. CSEPP communities in Newport, Indiana 
and Aberdeen, Maryland were removed from the program after their 
stockpiles were safely destroyed.
    Today, I would like to specifically discuss FEMA's efforts in 
Anniston, AL. The Anniston Chemical Activity (ANCA) is located in 
northeast Alabama, approximately 10 miles west of the city of Anniston. 
For emergency planning purposes, the communities near the depots are 
classified as part of an Immediate Response Zone (IRZ) area or 
Protective Action Zone (PAZ) area.\2\ As of the 2000 census, there were 
approximately 30,000 households in the IRZ and 138,000 in the PAZ. 
Portions of Calhoun and Talladega counties closest to the depot 
comprise the Immediate Response Zone. Communities in Cleburne, Clay, 
Etowah, and St. Clair counties also participate in CSEPP as Protective 
Action Zone areas.
---------------------------------------------------------------------------
    \2\ In general IRZ size is normally out to approx 6.2 miles (10K) 
and PAZ out to about 20 miles. In Alabama the IRZ is roughly a circular 
radius of 6.2 to 12.4 miles and PAZ 18 to 30 miles. In all cases the 
designation of IRZ and PAZ are made based on a range of factors 
including population density, topography, weather patterns, etc.
---------------------------------------------------------------------------
    The U.S. Army and FEMA use Integrated Process Teams (IPTs) to bring 
together all our program stakeholders to identify needs, solve 
problems, and develop products. The IPTs are typically comprised of 
State, local, and Tribal planners, community leaders, and staff from 
Army and FEMA CSEP Program offices. At each site, a community IPT is 
established and has representatives from State and local governments, 
the Army installation, and other Federal partners. These IPTs have been 
very successful in developing local solutions to complex emergency 
preparedness challenges.
    FEMA participates in the community IPTs to identify preparedness 
needs for all residents, including those who may have difficulties in 
performing a protective action such as sheltering-in-place or 
evacuation. FEMA works with each community to define ``maximum 
protection'' in a way that is appropriate for that community. In 
Alabama, the community IPT established a quantitative public protection 
criterion upon which the plans were based.
    The Anniston CSEPP community presented significant challenges 
because residential neighborhoods are located very close to the 
chemical stockpile. Because of their proximity to the stockpile, unique 
preparedness measures had to be developed to meet the community's 
established protection criteria.
    Since 1997, FEMA, the U.S. Army, the State of Alabama, and the 
participating local governments and agencies have pursued specific 
emergency planning efforts in the Anniston, AL community to address the 
concerns of residents with disabilities, access, or functional needs, 
or those who may live in a facility such as an assisted living 
community or skilled nursing home. FEMA also entered into an 
Interagency Agreement with the U.S. Army Corps of Engineers to provide 
enhancements to buildings and homes, reducing the infiltration of 
outside air that may be harmful during a chemical release. Many of 
these facilities were identified in the special needs planning project.
    Although I am focusing on our efforts in Anniston, I would like to 
note that FEMA is committed to communicating the positive lessons 
learned from CSEPP to the greater emergency management community. The 
software planning tool developed for the Alabama program has been 
posted as open-source software available for download on the 
internet.\3\ In addition to the materials on emergency preparedness for 
people with disabilities and those with access and functional needs, 
CSEPP develops and shares its training materials and preparedness 
products using a variety of media.\4\ It is routine for CSEPP 
communities to consult and share information in order to ensure best 
practices are effectively pushed across the entire CSEPP. As 
communities in Umatilla, Oregon; Tooele, Utah; Pine Bluff, Arkansas and 
Anniston, Alabama prepare to close out of the program in the next 2 
years, FEMA is making a concerted effort to capture the positive 
lessons learned and share them with others. This initiative will not 
only benefit the remaining CSEPP sites in Kentucky and Colorado, but 
also emergency management personnel outside the program.
---------------------------------------------------------------------------
    \3\ http://sourceforge.net/projects/spc-pop-planner/.
    \4\ https://www.cseppport.net/default.aspx.
---------------------------------------------------------------------------
    I should note that the planning project in the Alabama community 
began 13 years ago using the common terminology at the time and was 
called the CSEPP Special Needs Population Program. Understanding that 
efforts are under way to better integrate emergency preparedness for 
people with disabilities, including updating the terminology used in 
emergency preparedness, CSEPP is already working with FEMA's Office of 
Disability Integration and Coordination. As an example of this effort 
to change our terminology as we modernize our emergency procedures, we 
are currently in production of a training video called ``Emergency 
Planning for Populations with Access and Functional Needs'' that will 
better enable community officials to develop comprehensive emergency 
plans that include people with disabilities. Ms. Roth, our Senior 
Disability Advisor and Director of the Office of Disability Integration 
and Coordination, has been an integral member of the production team, 
and we are working closely with her office to ensure that we continue 
to comply with FEMA's efforts in this area.
    The program has had an extensive National impact. The Special 
Population Planner software application has been downloaded more than 
2,300 times. Presentations about this work have been given to the 
National Organization on Disability, the International Association of 
Emergency Managers, the Big City Emergency Managers' Forum, the 
International Chemical Weapons Demilitarization Conference, The 
National Medical System and many others. Articles on the program's best 
practices, such as its Geographic Information System features, have 
been published in leading emergency management journals.\5\
---------------------------------------------------------------------------
    \5\ See, e.g., Journal of Emergency Management, Vol. 3, No. 4, 
July/August 2005.
---------------------------------------------------------------------------
    The Federal statute requires CSEPP to provide ``maximum 
protection'' to the public signified the seriousness of the challenge. 
Programmatic guidance emphasized that people with disabilities, people 
without vehicles for evacuation, and unattended children who might need 
assistance during an incident were entitled to equal, that is to say, 
``maximum protection''.\6\ The chemical weapons agent hazard posed 
unique risks to nearby communities, and created the need for this 
program. Before chemical agent demilitarization began reducing the 
threat in Alabama in August 2003, some area residents would have had 
less than an hour to take protective actions.
---------------------------------------------------------------------------
    \6\ CSEPP Planning Guidance, Federal Emergency Management Agency, 
revised June 2008.
---------------------------------------------------------------------------
    In response, officials of the six Alabama CSEPP counties began 
meeting in 1997 with their colleagues from the Alabama Emergency 
Management Agency, FEMA, and the U.S. Army to ensure that this standard 
would be met. The group recognized that the extreme nature of the 
hazard would effectively prevent emergency responders from entering the 
threatened area. The participants collectively decided instead to 
invest their resources in maximizing personal preparedness to increase 
self-sufficiency.
    The program that emerged over the next several years developed new 
methods to integrate with the preparedness initiatives being developed 
simultaneously for the entire community. Using a protective action 
strategy that includes both sheltering-in-place and evacuation, all 
area residents were offered specialized protective equipment and one-
on-one training in its use during emergencies. For example, tone alert 
radios were distributed door-to-door throughout the six-county area to 
maximize immediate public alerting of any emergency, along with 
training in how to shelter-in-place in case an airborne agent plume 
prevents evacuation.
    The same approach was adopted to enhance preparedness for people 
with disabilities, people without vehicles for evacuation, and 
unattended children who might need assistance during an incident. The 
Alabama CSEPP community understood that achieving universal 
preparedness required a more intensive effort to accommodate this 
portion of the community. Recognizing the difficulties inherent in 
developing and maintaining emergency registries, the decision was made 
to build such a database as part of a comprehensive system to improving 
preparedness. Over the course of the program, some 35,000 people have 
voluntarily enrolled.
    The system was developed by a team that included Argonne National 
Laboratory, Metro Services, L.L.C., the University of Alabama at 
Birmingham, and Jacksonville State University. Working closely with the 
Alabama CSEPP community, they:
  <bullet> conducted initial and follow-up efforts to invite people to 
        self identify;
  <bullet> geo-coded the area's road network for the first time so that 
        planning could include spatial elements;
  <bullet> developed a geographic information system (GIS) emergency 
        planning software application designed specifically for the 
        purpose of geo-locating data about people and such facilities 
        as schools, licensed day care centers, and nursing homes;
  <bullet> identified methods to adapt and enhance CSEPP protective 
        equipment for supporting preparedness among people with 
        disabilities;
  <bullet> established and continue to maintain a system for remaining 
        in contact with those who desire it by mail, telephone, and 
        Teletypewriter-Telecommunications device for the deaf; and
  <bullet> continue to deliver extensive preparedness training to 
        people with disabilities, their caregivers, people without 
        vehicles for evacuation, and parents of unattended children who 
        might need assistance during a chemical emergency.
    Involvement of people with disabilities was established early in 
the process. Workshops were held with community-based organizations to 
learn of their activities and build bridges. Tests of protective 
equipment included people with disabilities, and their input resulted 
in added options. For example, the array of materials distributed in 
shelter-in-place kits for sealing safe rooms was expanded to include 
materials that senior citizens--who had participated in local tests--
preferred over the usual duct tape and plastic sheeting.
    Together, these elements enabled focus to be brought on meeting 
individual medical and functional needs in advance of danger. For 
example, in addition to tone alert radios and shelter-in-place kits, 
portable room air cleaners were offered to all residents of communities 
immediately adjacent to the stockpile. The purpose of the air cleaners 
is to capture chemical agent vapor that could infiltrate homes and 
become a threat if residents were instructed to shelter in place 
following an incident. These 39-pound devices were to be picked up from 
a central facility so that training could be provided in a cost-
effective manner. However, those who registered could have their air 
cleaners delivered to their homes and receive training there if needed 
due to mobility disabilities, and bedside remote on/off switches were 
added for those individuals. Lights to indicate whether the device is 
running were added to accommodate the hard-of-hearing. Home visits were 
planned for times when caregivers could be present so that they could 
learn how to use these devices at the same time as their family members 
or patients.
    This system has fostered continuity and relationship-building 
within the community. Organizations involved included volunteer 
emergency rescue squads, the American Red Cross, chambers of commerce, 
and faith-based organizations. A regular cycle was developed for 
conducting an annual pre-enrollment public information campaign, 
inviting people to enroll, clarifying the information they or their 
caregivers provided, and offering assistance and training. This 
consistent presence is reinforced by on-going community and caregiver 
training offerings, video orientation materials, and an informational 
website. Personal contact by telephone or TTY-TDD between program staff 
and those who enroll has helped to build strong relationships with 
those who request assistance.
    The Alabama CSEPP demonstrates that with robust public outreach 
efforts and consistent messages, preparedness can be enhanced by 
including all populations in the planning effort. Such programs help 
all residents become more self-sufficient, thus producing a more 
resilient community.
    During the 20-year history of CSEPP, many innovations have been 
developed, planned, and implemented. Furthermore, these innovations 
have led to improvements across the field: For example, the CSEPP 
exercise methodology was used as the basis for the Homeland Security 
Exercise and Evaluation Program. These best practices and lessons 
learned are being shared with all the CSEPP sites, as well as with 
other emergency management agencies that may benefit from CSEPP's 
experience. The increased capability of local officials in Anniston and 
the other CSEPP sites to protect the public will remain a CSEPP legacy 
long after the stockpile is successfully destroyed and CSEPP's mission 
ends. Self-sufficiency is sustained through regular and open contact 
between emergency management personnel and people with disabilities. 
The Alabama project is yet another example of CSEPP's collaborative 
efforts that can be used to benefit emergency managers throughout the 
country.
    Thank you for the opportunity to testify before the subcommittee 
today. I would be pleased to answer any questions that you may have.

    Ms. Richardson. Thank you for your testimony.
    I thank all the witnesses for testifying thus far, and I 
will remind each Member that you will have 5 minutes to 
question the panel. I will now recognize myself for 5 minutes.
    Ms. Roth, as you noticed early in my testimony, I 
highlighted the fact that you have only been allocated 
$150,000. That doesn't give you a whole lot. How do you foresee 
doing your immense job that you have with that amount of money?
    Ms. Roth. Thank you for the opportunity to answer this 
question. In fact, over the 11 months that I have been with 
FEMA, I have been learning a whole host of ways of bringing 
resources to the work of the Office of Disability Integration 
and Coordination.
    I have several detailees, interns, a fellow, and liaisons 
from a variety of the offices. In addition, I have the full 
support of the Office of External Affairs. I have been able to 
meet and, in some cases, exceed my goals in bringing together 
those resources in accomplishing the work of the office.
    Ms. Richardson. How many paid positions do you have in your 
office? What are those?
    Ms. Roth. The single paid position would be mine, and then 
I have detailees, interns, fellows, and liaisons.
    Ms. Richardson. How many fellows and interns do you have?
    Ms. Roth. I have two interns and a fellow.
    Ms. Richardson. Do they have any experience in this area?
    Ms. Roth. Actually, our intern--I am sorry, our fellow is 
from the Department of Education office--the National 
Institutes on Disability, Rehabilitation--Disability 
Rehabilitation Research. She is an executive potential fellow.
    Ms. Richardson. Do they work full-time?
    Ms. Roth. Yes.
    Ms. Richardson. How long are they committed to your office?
    Ms. Roth. She has been with me for 2 months.
    Ms. Richardson. How long will they be committed to your 
office?
    Ms. Roth. Her fellowship ends this week.
    Ms. Richardson. Okay. Do you honestly believe that, for the 
United States of America, that it is sufficient for just you 
and two fellows--two interns and a fellow to handle the 
situation?
    Ms. Roth. I have been pulling resources from across the 
agency, and we are making tremendous progress on every front.
    Ms. Richardson. Is there any other office to your knowledge 
in the administration that only has one person, for example, 
within FEMA?
    Ms. Roth. I don't know.
    Ms. Richardson. Okay.
    Ms. Roth. I would be happy to find that out for you.
    Ms. Richardson. Okay. All right.
    With respect to the 11 responsibilities laid out for the 
disability coordinator--and I think we should start calling you 
Superwoman--in the post-Katrina Act, where is your office in 
meeting any of these items? Can you say that you have met all 
11? Or where are you with all----
    Ms. Roth. I can tell you that we have made tremendous 
progress on each of the 11.
    Ms. Richardson. But have you met any of them?
    Ms. Roth. I would say that there is no end to each of those 
11. We have certainly accomplished--I could certainly tell you 
that we have met--in most of these cases, we have met baseline 
requirements, but we are continuing to work to make sure that 
we really are integrating these needs into the work of the 
agency so that we maximize those outcomes.
    Ms. Richardson. If there is no objection, I would like to 
ask that Ms. Roth be able to submit to the committee for all of 
the 11 items whether you meet, exceed, or do not for all of 
them.
    Ms. Roth. I would be happy to.
    Ms. Richardson. Okay. Ms. Roth, let me tell you a little 
bit about my district.
    Mr. Spencer, Mr. Kish, I am going to defer to the Ranking 
Member, since he is from Alabama and is very well versed in the 
success of your areas. I want to allow him to take the lead on 
those points first.
    Ms. Roth, my district--I just recently had a primary 
election. So what that means is, I was knocking door to door. 
And I have got to tell you, there are many, many homes that I 
knock on that either a person is hearing impaired, may not be 
able to physically get to the door, maybe children in the 
house, and there is no parent there.
    I cannot begin to tell you, out of the homes where I see 
cars where I know someone is there, where I see a light, I see 
the TV on, and I can see the person in the room, and they are 
not always not getting up because they don't want to get up, 
they are oftentimes not getting up for the reasons that I just 
mentioned.
    What plan do you have with the municipalities? Does there 
exist a list in every single county and every single city of 
every person who might need assistance? Notice I didn't say 
disabilities. Mr. Kish mentioned about self-registry.
    Ms. Roth. We have been looking at the success of the 
existing registries, and data--most particularly, some data 
from California--would indicate that registries have not been 
the most effective strategy for individual preparedness and for 
making sure that people who are going to have access and 
functional needs in times of emergencies and disasters get the 
assistance that they need.
    What we are finding with those registries, first of all, as 
we are making success in housing, as we are making success--
making progress in employment and in the opportunities for 
people with disabilities and others to be involved in the 
community, people are not where they say they live.
    So that becomes a challenge, coupled with the fact that the 
resources to keep these registries updated are typically not in 
place. We have heard even in those communities that have a 
robust registry, they are very concerned about their ability to 
keep it updated.
    The data that I am looking at are indicating pretty clearly 
that individual preparedness, the opportunity for people to 
have the kind of information they need and access to the kinds 
of tools that they need in order to personally prepare, in 
order to work with their support system, in order for the folks 
in their community to be able to work together, is appearing to 
be a much more effective use of resources than registering 
folks, entering them into a computer, and then maybe they are 
there in the time of evacuation.
    Ms. Richardson. Okay, Ms. Roth, my time has expired, but I 
am going to be coming back to ask you many more questions about 
that area.
    I now recognize the Ranking Member of the Subcommittee on 
Emergency Communications and Preparedness and Response, the 
gentleman from Alabama, Mr. Rogers, for questions.
    Mr. Rogers. Thank you, Madam Chairwoman. I am pleased to 
hear you do door to door. There is no way you can truly know 
your constituency if you don't do that. It is very insightful 
when you knock on neighborhood doors and get to meet folks in 
their home. It is just good to know you do that. Many of our 
colleagues don't, and I think that is unfortunate.
    If the Chair doesn't mind, I would like to submit for the 
record a statement from Congressman Bilirakis from this 
committee who could not be here with us today.
    Ms. Richardson. Without objection.
    [The statement of Mr. Bilirakis follows:]

                   Statement of Hon. Gus M. Bilirakis
                             June 15, 2010

    As we begin another hurricane season, I am pleased the Subcommittee 
on Emergency Communications, Preparedness, and Response is meeting to 
conduct oversight of the Department of Homeland Security and Federal 
Emergency Management Agency's efforts to ensure that the needs of 
individuals with disabilities and other access and functional needs are 
integrated into disaster planning and response.
    As a Member from the Gulf Coast of Florida, I am all too familiar 
with natural disasters. I continually encourage my constituents to 
prepare themselves for possible disasters by making a family disaster 
plan and getting an emergency kit. But these individual efforts are not 
enough. Local, Tribal, and State governments, along with the Federal 
Government, must ensure that disaster planning and response scenarios 
consider the needs of all individuals--including individuals with 
disabilities, children, and the elderly.
    We have learned difficult lessons about our disaster response 
capabilities following Hurricane Katrina. I urge the Department of 
Homeland Security and the Federal Emergency Management Agency to 
continue its work to integrate the needs of all populations when 
implementing disaster plans and response efforts. I hope the Committee 
on Homeland Security will continue its oversight of this issue in the 
months ahead.

    Mr. Rogers. Thank you, ma'am.
    I wanted to talk a little bit about the special needs 
experience in my hometown around the chemical stockpile. Many 
people are like me, in that they are technologically challenged 
and aren't as proficient in internet and other gadgets as some 
of you are.
    I know that a lot of the people that I represent who are 
poor and rural really don't have access to a lot of the 
internet information that you talk about.
    I know, Mr. Kish, you talked about postings that you all 
had, that you update. My question is, how do you--what is the 
most practical ways for you to communicate what you offer to 
special needs communities and for them to be able to 
communicate back to you as to whether or not it is--they 
understand it, they want to participate in it?
    Mr. Kish. Well, thank you for the question, Ranking Member. 
I would tell you that this is a bit of an unusual program, in 
that it is a fairly narrowly defined geographic program that 
affects only those communities that are surrounding the sites 
where the chemical weapons are stored.
    With your experience in the Anniston community, you will 
recognize that very unique in that there are large community 
areas that buttress up against the edge of the stockpile 
facility, which is not the case in other facilities or other 
locations. A lot of those communities, a lot of those small 
neighborhoods, as the Ranking--excuse me, as the Chairwoman 
identified, there are a significant number of people that have 
some challenges associated with that.
    To your point that there is not a lot of technological 
connection there, it is kind of a grassroots process.
    Now, the registry piece that was spoken about earlier, that 
is something that is owned by the State, and they work closely 
with the affected county jurisdictions in order to ensure that 
the information is safeguarded.
    Mr. Rogers. But walk me through--you said grassroots 
effort. How do you communicate with that elderly woman who may 
be bound to a wheelchair in a rural community, say a mill 
village around a stockpile? How do--she doesn't have a 
computer.
    Mr. Kish. Again, this being a community-based program--it 
started from the top. This wasn't something that FEMA or the 
Army walked in and said, ``We want you to do it this way.'' We 
were participatory in that integrated process team. There 
literally were grassroots, walk-around, knocking-on-doors kinds 
of activities, and that, I think, was where you were trying to 
get me to go with that, and I appreciate that question.
    Mr. Rogers. Right. Right.
    Mr. Kish. But I think it is important to note the relative 
value of this particular registry, the way it has functioned 
over the dozen or so years that it has been in existence. It is 
a very--it is not a level line of participation. It is very up 
and down.
    People opt in for a period of time. They are--they are 
entered into. They are dealt with on a one-on-one basis. 
Whatever specific needs they have are dealt with. They opt out 
in a lot of cases. So you have a very dynamic exchange on 
there.
    Now, I don't know that that would be functional across the 
entire United States. I know that there was a comment about the 
resources of that. It is an expensive proposition, but it is 
one that we have the luxury--I would say it that way--because 
of the way the maximum protection mission is chartered and the 
way the Army funds these programs, we have the ability to 
establish and maintain that.
    So I don't know that it is entirely representative of what 
could be replicated across the country in that regard, but it 
works in this situation.
    Mr. Spencer. Congressman, if I may add a comment?
    Mr. Rogers. Sure.
    Mr. Spencer. You know, we can have all the plans written--
and the Army is famous for that--and put these written plans on 
a shelf, but you never know if they work until you exercise it. 
Thanks to the Congress and the law and the way the program is 
designed, each community has a full-scale exercise each year 
that it goes down to the grassroots level, where literally we 
evacuate schools, we evacuate hospitals, nursing homes.
    We come to them. Prior to the exercises, we train them. We 
tell them how it is going to work, what is required of them, 
and it is working. That very, very close relationships with the 
community is what has made this a success.
    Also in each community, we have full-staffed, full-time 
outreach offices in each community, where any citizen can walk 
in and get the current status, understand exactly where they 
live and what hazard zone and what is expected of them, as 
well.
    So we go to them or they can come to us. But, again, it is 
the exercises and successful completion of those exercises that 
involve State, municipal, Federal authorities that make this 
program a success.
    Mr. Rogers. Great. Thank you. My time is expired, but I did 
want to emphasize--going back to the Chairwoman's questioning 
of Ms. Roth--you heard Mr. Kish talk about the grassroots 
effort, people knocking on doors to identify these people and 
communicate with them. Mr. Spencer just talked about how 
comprehensive and well-staffed it was at the local level. That 
takes a lot of money.
    CSEPP has been a very successful program, but it has also 
spent tens of millions of dollars; $150,000 is never going to 
be able to help you do what they have done. So I know you can't 
come in here and tell us that you are not being given enough 
money because it gets you in trouble back home, but we know you 
need more money to do your job.
    Thank you.
    Ms. Richardson. Thank you, Mr. Rogers.
    The Chairwoman will now recognize other Members for 
questions they may wish to ask the witnesses. In accordance 
with our committee rules and practices, I will recognize 
Members who were here present at the start of the hearing based 
on seniority on the subcommittee, alternating between the 
Majority and the Minority. Those Members coming in later will 
be recognized in the order of their arrival.
    The Chairwoman now recognizes for 5 minutes the Chairman of 
this committee, Mr. Thompson.
    Mr. Thompson. Thank you, Madam Chairwoman.
    I would like to start off with Mr. Rogers' comment and say, 
Ms. Roth, you did a good two-step on that question. In 1 year, 
you have learned how to dance on talking about resources. I 
understand, but you do know that, as Members of the committee, 
we have to ask those kind of questions.
    I do understand and, like the other Members, the 
constraints that you have to come back to us on, but $150,000 
is clearly not nearly enough to address this problem. We will 
get down to why we think $150,000 is not enough at part of this 
hearing.
    You know, there are some directives, 301 and 302: 301, as 
you know, is special needs; 302 talks about household pets; and 
then 101 talks about how integrate all that together.
    I would assume part of your responsibility is to integrate 
it. So hopefully, now that we have a pet plan, so I am not 
knocking pets. But I think there are some other things, as I 
said in my opening comments, that we have to address.
    Can you give this committee some timeline on 101, since 
March has come and gone?
    Ms. Roth. Thank you. I have spent quite a bit of time 
working on the important information that was included in 
interim CPG 301 and making sure that that is integrated in the 
new CPG 101.1.
    I know that a tremendous amount of work has gone into 
making sure that this updated 101 is fully comprehensive of all 
of the information that was previously housed in the separate 
document. I am very pleased with what I have seen. I have seen 
what I believe is final draft. I have every indication that we 
are going to see CPG 101.1 anytime now.
    In the meanwhile, the interim CPG 301 exists and has been 
on the internet for quite a while; 101 is in use; and the work 
of my office continues as 101.1 gets ready to come on-line.
    Mr. Thompson. Let me give you a situation I was confronted 
with several weeks ago. I had some individuals, to be unnamed, 
come by my office. We talked about vulnerable populations.
    They asked the question do we know where everybody is, we 
know if something happens, we know how to go and get them? I 
said, quite honestly, I don't believe that. Was I correct?
    Ms. Roth. It is hard to imagine that we would know where 
everyone is.
    Mr. Thompson. Okay, good point.
    Ms. Roth. It is probably much more accurate to say that 
each community can count on the fact that about 50 percent of 
their population is going to need some additional assistance.
    Mr. Thompson. Absolutely. So with the Anniston example and 
some of the discussions here, we need to move beyond planning, 
so even if we have to do some--what you call some action, 
whatever you call it, we need to get to that point.
    I am concerned that, if some major event occurs and some of 
those 50 percent of the population will be left to their own to 
fend for themselves, and that is not what our Government should 
be about. So I am calling on you to help that 50 percent who, 
through no fault of their own, might not be able to do it.
    So we can plan. We can do it. But at the end of the day, 
they are still relying on us for help. So now that--that Dr. 
Young and the Department are communicating--and that is good--
the once-a-month meetings are good--but we need to move the 
ball down the line.
    It can't be done at headquarters. We have to push it out 
into the regions and ultimately into the State and localities. 
So we have a lot to do.
    So I am impressing and encouraging the Department to look 
at the DOD model of how they do things, as well as some others, 
and we might not have to reinvent the wheel. We might can adopt 
systems that have worked in other environments and go forward.
    But Katrina has been 5 years. I would not want a Katrina-
type moment to occur again. So with your $150,000, and all you 
say you got, we want you to just go forward and help us.
    But if at some point you run short of money and you can't 
get it done with that $150,000, come back to us and say, ``I 
need a little help,'' and I think you will find a lot of 
friends on this side, both Republican and Democrat, because 
this is an important issue for us.
    I do know the constraints on answering the money question, 
but $150,000 should be addressed.
    I yield back, Madam Chairwoman.
    Ms. Roth. May I respond?
    Mr. Thompson. Sure.
    Ms. Roth. I want to talk about two things that we are doing 
that I think you are going to get pretty excited about. This 
document, this guidance to States for functional needs support 
services in general population shelters, which we are going to 
start training in the regions on July 19, this document, this 
information, this guidance to State and local governments is 
going to help them to be able to accommodate the 50 percent 
that we were just talking about in general population 
environments, in the general population shelter.
    Typically what we have done in the past is we have 
identified a certain segment of the population as being too 
difficult to shelter in the general population environment, and 
we have sent them someplace else.
    Unfortunately, on more than one occasion, that someplace 
else has actually turned out to be no place at all. There were 
busloads of people during the Gustav evacuation that--I am 
sorry, during the Ike evacuation, that ended up staying in 
their buses, traveling from shelter to shelter, and being 
turned away, because the resources were not put in place.
    So this guidance is being provided to States to assist them 
to be able to meet the needs of the whole population in the 
general population environment. In addition to that, we are 
bringing folks together at the end of the summer to help them 
to build their capacity to--first of all, to work together, to 
bring emergency management, to bring community leaders with and 
without disabilities, the voluntary agencies, to bring those 
folks together to help them to begin to build relationships 
that they can then move forward together to make sure that the 
right folks are at their tables, to think about who is in their 
community and what are they going to need in order to be able 
to accommodate them?
    So these are strategies that I think are going to have a 
very significant impact on individual community ability to meet 
the needs of the people who live there, the people who may be 
vacationing there that we didn't plan for, people who may be 
working there. I think that is going to be a strategy that is 
going to be very effective.
    Ms. Richardson. The Chairwoman now recognizes Mr. Cleaver 
from Missouri for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Before I even ask questions, I want to thank you and the 
Chairman for this hearing. I think it is intelligent of us to 
address this problem before there is a problem of a magnitude 
that could bode poorly for this committee.
    Ms. Roth, I am obsessed with animals, and so I study them, 
I read everything I can about animals. I actually consider 
myself somewhat of an expert on big cats. My family thinks that 
I need help.
    [Laughter.]
    But I think--you know, I watch every Animal Planet episode. 
Lions are my favorites. They just--if you were interested. One 
of the things that a pride of lions can do--and it is 
remarkable--is, if they are going to attack a herd of, let's 
say, wildebeest, they pick out--this is amazing--they pick out 
the oldest or the injured or the youngest.
    I mean, they don't--if you look at those movies, it looks 
like--it looks as if they are just running aimlessly, but they 
have a target, and it is usually--actually, the oldest is 
first. I think disasters do the same thing. They pick out the 
oldest, the wounded, the youngest, and that is where they 
attack.
    I think what is true in wildlife is true of disasters. It 
is also true of departments.
    Let me just say that I think what you are planning is very 
ambitious, and it shows that you are not--that birds are not 
going to build any nest in your head, because you will be 
moving.
    You know, looking at this budget and knowing how this 
country functions, in the unlikelihood of a disaster, and we 
would want this never to happen, but let's say there are a lot 
of disabled people in one location who are quite vulnerable and 
been coming victims, knowing how things operate, you know, I 
know, and everybody in here knows that the media will focus on 
shortcomings and problems.
    With a staff of one, which is essentially what you have, I 
just think that we are setting ourselves up for a problem. It 
is not your fault, but I see that coming.
    My son, a student at Dillard University when Katrina hit, 
when he went back, he managed to get out and, sleeping on a 
Wal-Mart parking lot, and then made it into Houston to stay 
with his aunt, but when he went back to try to get whatever 
remained in his apartment, he took his video camera, and he 
talked to people.
    One of the things he discovered is that there were very few 
people sitting out the storm as was reported. There were people 
who were left out in the storm and that were older people. In 
the place where he lived, he videoed them and captured, you 
know, what I think was something very important.
    There is probably very little you can answer with this, so 
maybe I am speaking to the Congress and to the administration. 
There are churches who spend more than $150,000 a year dealing 
with the wounded, churches. Our church spends more than 
$150,000 a year, and we don't have 300 million citizens, which 
is what the Nation has.
    So I have no questions. I just wanted to take this 
opportunity to say what I said and encourage all of you to look 
at Animal Planet.
    Ms. Richardson. Mr. Cleaver brings up a good point. As he 
was sharing his thoughts, Ranking Member Rogers leaned over to 
me and said, ``We should do a joint letter together to the 
President,'' urging in light of what has been talked about 
today, that we feel that your budget is grossly insufficient 
and unable to perform the duties that are needed. So we will, 
in fact, do that, not on your urging, but on ours.
    If there is no objection, if we could have a brief second 
round of questions, if there is--is there anyone opposed? Okay.
    With that, it is my turn again.
    Ms. Roth, for the record, I just want to be clear. Next 
month you will only have yourself, then, one intern, and one 
fellow?
    Ms. Roth. Actually, no. Next month, I will have the 
continued support of detailees from across the agency--that is 
four detailees--two interns, and the continued assignment of 
folks from several areas across the agency, including mass 
care, the office of chief counsel, public affairs.
    Ms. Richardson. Why don't we just do this? If you could 
supply to the committee who is actually full time under your 
jurisdiction and your jurisdiction only, okay? If you could get 
that to the committee of now and what you expect in the next 
couple months.
    My next question is, for the record, the NCD has said that 
one of the things that should be done is disability 
coordinators or positions that could also include people who 
are knowledgeable about people with special needs should be 
hired in the regional offices. Has that been done?
    Ms. Roth. We have spent quite a bit of time looking at the 
best way to move forward on that. What I don't----
    Ms. Richardson. I am sorry, Ms. Roth. I have got 3\1/2\ 
minutes. Has it been done, yes or no?
    Ms. Roth. Yes and no. Yes, we have been working towards 
providing the capacity-building----
    Ms. Richardson. No. Have the regional offices hired a 
position where a person there is able to meet the needs, supply 
the information, and do all of that, that deals with people 
with needs, as well, yes or no?
    Ms. Roth. They have assigned point people. They have not 
hired anyone. They have assigned point people.
    Ms. Richardson. Okay. So if you could supply to this 
committee which regions actually have individuals that can do 
that and which regions don't.
    Also, for the record, I just want to note what Chairman 
Thompson was mentioning, and that is, with this particular 
area, there are many deadlines that have not been met. 
Specifically, FEMA missed the deadline for the committee's 
report directed to FEMA to update the National plan review. 
That was due April 16, 2010. The deadline has not been met.
    Also, the guidance of 301 has not been met. That was 
already delayed. You were given an extension to March 10 to 
incorporate the two, and now that has not been met.
    I didn't hear you give a specific date of when you thought 
it would be done. Do you have one?
    Ms. Roth. My part is already done, so I don't--I can't tell 
you what----
    Ms. Richardson. What are we waiting on?
    Ms. Roth. The internal process that I am just now still 
learning.
    Ms. Richardson. So do you have any idea of when we could 
expect it to be done?
    Ms. Roth. I believe it is very close. I have seen a final 
product.
    Ms. Richardson. If you could let Mr. Fugate know that this 
committee has asked and advised that it is now late again. 
Okay.
    Finally, I am going to use my last 2 minutes to say this. 
Ms. Roth, if we can get you some help, what I would like to do 
is, once you have some help, is to invite you, at least to my 
district.
    I find it particularly alarming that you would say--and it 
is not your fault, you are new in this position, and we 
understand that--however, as Mr. Kish mentioned, they utilized 
self-registry. As Dr. Young has mentioned, you know, people 
are--sometimes a person may have needs this month, but another 
person may be added to that. When I asked you the question, you 
said that you were not necessarily convinced that self-registry 
was the way, that, really, individual preparedness.
    Let me paint my district for you. I have got 1 minute and 
30 seconds. In my district, one-third of the seniors are 
raising their grandchildren. Let me repeat that. One-third of 
the seniors in my district are raising their grandchildren.
    So when you talk about individual preparedness, do you 
think that--well, that is a rhetorical question. The 
grandparents are doing what they can just to be able to take 
care of their grandchildren, let alone do they have 3 days' 
supply of food, do they have enough shoes, do they have water, 
does someone know that they are taking care of all of these 
grandchildren.
    The issues that I mentioned to you, I could take you to 
doors along a block where seniors are not necessarily answering 
the door. If it were not for--I took one lady to the polls last 
Tuesday. If it were not for us physically calling and saying, 
``Do you need a ride to the polls?'', the lady--she had broken 
her arm 2 weeks before, so she wasn't going to be able to go to 
the polls. She did not have transportation.
    Really, for me to take her out, down the stairs, get her in 
the car, I mean, it is just not feasible. So what I think we 
equally have a responsibility to do is to provide more 
direction, to say there has got to be some way that you have a 
record, as Mr. Thompson said, of who is all out there and who 
is going to need assistance.
    Because if and when we have a disaster--and I don't think 
it is if, it is rather when--the biggest problem we are going 
to look at is what we have already seen.
    I went to Samoa, where they had the earthquake and then the 
subsequent tsunami, and the people that we lost most, as Mr. 
Cleaver said, were the people who couldn't run fast enough, and 
that was the elderly and the children. I believe it is really 
incumbent upon us and incumbent upon your particular department 
to be able to have some list of at least who we know.
    For starters, I would tell you one of the issues is age, 
and there are many others, and we have to figure out how we can 
get that properly recorded. We urge you to tell us how we can 
help you.
    With that, I would like to refer to the Ranking Member, if 
you have any follow-up questions.
    Mr. Rogers. Just one, to Ms. Roth. Is your office 
considered just a policymaking office? Or are you expected to 
administer some of these proposals that you are drafting?
    Ms. Roth. My office is a coordinating office. We provide 
support across the agency.
    Mr. Rogers. Okay, that is my point. If it was just 
policymaking, I can understand $150,000. But if you have got 
administrative responsibilities, it is impossible on that 
budget to carry out your mission.
    Thank you, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Rogers.
    With that, Mr. Chairman.
    Mr. Thompson. For the record, Ms. Roth, tell the committee 
exactly what your title is.
    Ms. Roth. I am the director of the Office of Disability 
Integration and Coordination.
    Mr. Thompson. So who is--what was that title? Who is the 
disability coordinator?
    Ms. Roth. I am serving as the acting disability coordinator 
in my role as the director of that office.
    Mr. Thompson. So you have got two titles?
    Ms. Roth. Yes.
    Mr. Thompson. So you get--I just--I guess the more we talk, 
the more concerned the committee is that this might just be 
something that was created to satisfy some of the concerns of 
this committee and not something that has really put together 
the work. That is more and more evident as we discuss it.
    Mr. Kish, just for the record, how often do you and Ms. 
Roth talk?
    Mr. Kish. Me personally with her? I have not spent a lot of 
time talking with Ms. Roth. However, we have been working with 
her office on numerous projects. In fact, one that is in 
progress right now is an updated training video that actually 
features Ms. Roth that was shot in her--a portion of it was 
shot in her office.
    I mean, it--so we do work not just with Ms. Roth's office, 
but also with the office that is responsible for integrating 
the community planning guidance, 101, 301, 302. We work across 
the whole National preparedness directorate to try and ensure 
that not just the CSEPP program----
    Mr. Thompson. 101 is not complete. 101 is not complete.
    Mr. Kish. I am sorry, sir?
    Mr. Thompson. You said 101.
    Mr. Kish. Well, as I understand it, there is a desire to 
integrate 301 and 302 into 101.
    Mr. Thompson. At some point down the road.
    Mr. Kish. Right, right.
    Mr. Thompson. Right. All the deadlines have been missed.
    Mr. Kish. I understand that. But I am saying, we work with 
the office responsible for that to incorporate elements that I 
have represented to you today, to present them for 
consideration into those--of those products.
    Mr. Thompson. Well, and thank you. I think the point we are 
trying to make is, a one-person shop can only do so much. That 
person wearing at least two hats in that shop creates concern. 
A budget of $150,000, I think, for the population we are trying 
to serve, is not in the best interest of that population. I 
will put it like that.
    I say that--Dr. Young, I hope you can elevate the concern 
in your discussions with the Department that, you know, you 
really have to invest in your commitment. You can't really just 
say, ``We are with you, and we want to serve your population.''
    We are trying to, you know, let the professionals and the 
advocates work together, but one person is just--it is going to 
be very doubtful, given that 50 percent population in the 
universe that we are trying to serve. I just think that is a 
real challenge.
    I would join the Chairperson and Ranking Member, as Chair 
of the full committee, to support expressing the committee's 
concern that the Department, through its budgets and in other 
things, needs to do better. I just think it is too big a 
challenge to not invest the resources into make it happen.
    I yield back.
    Mr. Young. Might I speak to that briefly, also?
    Mr. Thompson. I yield back, but I have got 50 seconds left. 
Please.
    Mr. Young. Thank you. Your rhetorical questions sort of 
speak for themselves. We know the constraints that are here.
    One thing that I think we need to balance--and this is part 
of the wisdom in Ms. Roth's title--as integration and 
coordination, certainly more resources make a whole lot of 
sense, but even a very large office that is focused on 
disability will never do its job well if it is not effectively 
integrated and coordinated throughout FEMA.
    So part of the challenge is not only to dedicate resources 
in a specific disability-focused way, but it is ensuring that 
all the offices across FEMA are themselves thinking first line 
about all of these issues that you are drawing attention to.
    We have a population that we have--you know, we used our 50 
percent figure. Whatever the figure is, we have a general 
planning process where the vast majority of resources are going 
toward the easy and a tiny proportion toward the difficult.
    So part of that is the resources of that office, but part 
of it is ensuring that all the offices are not only thinking 
about the general population, but themselves thinking about 
people with disabilities and other populations that are going 
to be in greater need.
    Mr. Thompson. Well, I really appreciate you stepping up and 
trying to defend what some of us think might be the 
indefensible right now. We understand the need for integration 
and coordination.
    But there has to be a core component to make it happen. We 
don't think that core component of critical mass is anywhere 
near it should be, and that is why you are hearing the 
committee raising the alarm bells, that we could be here next 
June and--and the likelihood of being much further along is 
still suspect in the committee's mind.
    Now, we stand to be corrected over time, but given the 
challenges in the population we are trying to serve, we should 
move forward in, I think, as an aggressive a manner as 
possible. It just appears that, in the eyes of some of us, we 
are not there.
    I yield back.
    Mr. Young. If I can----
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Cleaver, if you wouldn't mind, Mr. Rogers just wanted 
to make one comment on that point.
    Mr. Rogers.
    Mr. Rogers. Yes, I just wanted to, Dr. Young, make sure you 
understand, we are not advocating that she just have a bunch of 
bodies to have a big office for looks. It is my view that, in 
order for her to carry out her mission in coordination with you 
and whoever else, there is going to have to be a sum of money 
there that allows her to do the kind of grassroots things that 
you heard Mr. Kish talk about.
    That is just not possible with the limited staffing there. 
I am--and, again, I think that it just--at a minimum, she ought 
to have control over a reserve fund that, in the event we have 
a disaster, she is able to mobilize certain assets that are 
hopefully put in place ahead of time.
    So that is where we are getting with this. It is just, we 
don't want the Department to say, oh, yes, we have taken care 
of that problem. We have got a person over here with that 
title. That doesn't fix the problem. We need to be prepared in 
the event there is a hurricane or a tornado or whatever, that 
we are able to take care of folks who can't take care of 
themselves, and we are serious about it.
    That is all. Thank you.
    Ms. Richardson. Mr. Cleaver is recognized for 5 minutes.
    Mr. Cleaver. I just have one question for Dr. Young. In 
your testimony, you recommend that people with disabilities be 
more fully integrated into the preparedness process. I agree 
with that.
    Can you just share briefly how you envision that taking 
place? How do we actually solicit involvement and, frankly, 
direction from people who are disabled?
    Mr. Young. Sure. I think the example earlier about door-to-
door knocking resonates here. I think we need to look at 
building from the ground up. We are not going to know the right 
questions to ask or the right pieces to put into the planning 
unless we are talking to people in our communities to know what 
their needs and concerns are. I don't think there is any single 
answer for doing that, but it is integrating it into all 
aspects of the emergency planning process.
    I mentioned one example on Friday. We met with the exercise 
division, and there is an extraordinary body of resources going 
into the planning for next May, 2011, for the National level 
exercise. We talked with that division about the possibility of 
having an advisory committee convened by NCD that would be a 
group of people that know these issues from the communities 
that are going to be affected and start working right now, 
throughout the entirety of the planning process, with that 
exercise division.
    So that, in addition to sort of the compendium of knowledge 
of written recommendations, as that exercise division is going 
through each and every aspect of their planning process, they 
would be hearing from people with disabilities on the ground 
who know the issues, I think that kind of ground-up experience 
and direct involvement, not merely in written reports, but in 
the day-to-day actual planning of what FEMA is doing.
    Just to go back a moment briefly, I certainly--I fear that 
I was miscommunicating my emphasis on the resources, where I am 
actually in complete agreement. I share the concerns generally 
that, if we compartmentalize disability as something ``other,'' 
we are going to run into risks of failure.
    So there is a point of focusing on disability, but we need 
to make sure that the results of that is integration into 
everything that we do, so those resources are not isolated, but 
actually effectively integrated in all aspects.
    Ms. Roth. May I? A couple points I would like to make.
    In terms of personal preparedness and community 
preparedness, I think it is important, you know, when we talk 
about registries, for example, and we talk about compiling 
lists of people, what I am concerned with is not that we have 
compiled a list, but that we have resources in those 
communities to respond to the people who might be on that list.
    If the resources are going into compiling a list, but there 
is no plan for assisting those individuals, what we have done 
is we have given them a false sense that the Government knows 
they are there and that the Government is going to take care of 
them, when, in fact, we haven't slipped anything underneath to 
make sure that they are actually getting the services, getting 
the assistance that they need.
    So that is--I just want to be very clear about my concern 
that we not just simply register people, but that we make sure 
that they have some assistance, and that they don't--that 
doesn't absolve them of their personal responsibility to make 
sure they are prepared.
    Even under the ideal circumstances, it may be a while 
before assistance can get to any of us. Roads may be down. 
There may be just more needs than the resources can handle.
    Also, in terms of personal preparedness, we need to make 
sure that we are giving people achievable information. I often 
talk about, you know, some of the information that we give 
people about being prepared. We will say, you know, you need to 
have a week of your medication. Well, if any of us has been to 
the pharmacy and tried to get a week of medication, we know 
that that is not an easy thing to do.
    So instead we need to be teaching people, even if they 
don't have a computer, they need to have information provided 
to their doctor's office on a Flash drive that has their 
prescriptions, or they need to have a piece of paper that has 
their prescriptions on it, because you may not have that backup 
of your medication.
    So that personal preparedness needs to be achievable. We 
need to help people to learn what they need to do to protect 
themselves. We need to help communities to have the resources 
that they need so that they can protect all of their citizens, 
assist all of their citizens, maximize resources, so that we 
keep people out of medical environments, keep people as healthy 
and as independent as we possibly can.
    So that is some of the work that we are trying to support 
across the agency and across the Federal Government in support 
of the States.
    Ms. Richardson. Thank you, Mr. Cleaver.
    Mr. Cao, did you have any questions? Okay.
    I thank the witnesses for their valuable testimony. At this 
time, I would ask the clerk to prepare the table for the next 
panel.
    I welcome the second panel of witnesses. Our first witness, 
Mr. Jon Gundry, the deputy superintendent of the Los Angeles 
County Office of Education, prior to coming to Los Angeles, Mr. 
Gundry spent 12 years in the Houston Independent School 
District, serving most recently as an executive principal 
overseeing 17 campuses in a high school feeder system.
    Our second witness, Ms. Diana Rothe-Smith, has been the 
executive director of the National Voluntary Organizations 
Active in Disaster, National VOAD, since summer 2007. Prior to 
her role as executive director, Ms. Rothe-Smith served as a 
volunteer manager and disaster planner for community-based 
organizations in the greater Atlanta and National Capital 
Regions and spent several years working in event management.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask Mr. Gundry to summarize his statement for 5 
minutes.

 STATEMENT OF JON R. GUNDRY, DEPUTY SUPERINTENDENT OF SCHOOLS, 
             LOS ANGELES COUNTY OFFICE OF EDUCATION

    Mr. Gundry. Good morning, Chairwoman Richardson and the 
distinguished Members of the subcommittee. Thank you for the 
opportunity to address this committee on the importance of this 
issue.
    I am Jon Gundry, deputy superintendent of the Los Angeles 
County Office of Education. I am pleased to be here today on 
behalf of our county superintendent, Dr. Darline Robles.
    I am going to speak briefly about the importance of 
comprehensive and coordinated emergency preparedness planning 
for local education agencies and to summarize some of our 
efforts in Los Angeles County in planning for and responding to 
emergency situations that have affected schools and students in 
our county.
    I am also here to express our strong support for 
legislation introduced by your subcommittee chair, 
Representative Richardson, H.R. 4898, the Elementary and 
Secondary School Emergency Preparedness Planning Act.
    County offices of education in California were established 
in 1855 to directly oversee public schools. Today, the county 
offices are intermediate education agencies that provide 
services to school districts, exercise oversight of certain 
school district functions, and provide direct classroom 
instruction for juvenile offenders and many of the children in 
the county with severe disabilities.
    Los Angeles County Office of Education, or LACOE, as we are 
known, serves 80 school districts, with 2 million preschool and 
school-age children, making up nearly a third of the students 
in the State of California.
    Students in Los Angeles public schools are a highly 
vulnerable population in times of emergency, not only because 
they are located in a place that is at high risk of terrorist 
attack and natural disaster, but also because many thousands of 
those children have special needs. Among them are students with 
disabilities, with limited English proficiency, or those living 
in unstable circumstances or suffering financial hardship.
    The number of severely disabled students in the county is 
approximately 170,000, about 27,000 of whom are directly served 
by LACOE programs.
    Although schools and school districts have emergency plans 
in place, they are generally not as comprehensive as they 
should be and not well coordinated with other agencies and 
school districts. This is primarily due to the fact that they 
are often not given an active role in regional emergency 
planning, they lack the expertise of many other public agencies 
in emergency planning, and they do not have sufficient funding 
to do the necessary planning and preparation.
    In Los Angeles County, LACOE serves as the coordinating 
agency for school districts for emergency preparedness 
response. During the National response to the spring 2009 swine 
flu outbreak, for example, LACOE played a key role in helping 
school districts--keeping school districts current with public 
health information and directives so schools could prepare for 
outbreaks and respond to them.
    LACOE's communications and emergency response director, 
Frank Kwan, who I am pleased to have with me today, directed 
this initiative. For several years prior to this outbreak, Mr. 
Kwan worked with the Los Angeles County Department of Public 
Health to present a series of avian and pandemic flu 
preparedness conferences for school personnel. These 
conferences also stressed the urgent need for school districts 
to begin planning for a variety of potential health 
emergencies.
    LACOE continues to coordinate with public health and other 
local and National agencies to provide input on county 
emergency and disaster planning.
    By way of example, LACOE is currently participating in 
Operation Golden Phoenix 2010, sponsored by the U.S. Department 
of Homeland Security's Science and Technology Directorate. 
Golden Phoenix deals with the nightmare scenario of the 
detonation of an improvised nuclear device.
    In partnership with the U.S. Geological Survey, LACOE co-
sponsored the Nation's largest earthquake-preparedness exercise 
in 2008, the Great Southern California ShakeOut. Nearly 1.5 
million students in Los Angeles County were among the 5.5 
million Southern Californians who took part in the exercise. 
LACOE was also a key player in the Great California ShakeOut in 
2009, and we are currently preparing for the 2010 event.
    In addition to earthquakes, we live with on-going issues 
with air quality and the threat of other natural disasters, 
such as wildfires, flash floods, and mudslides. Because we 
serve as a coordinating agency for emergency preparedness and 
response for school districts in the county, we must anticipate 
and respond to the threat of health and safety of our schools 
and students.
    We do our best to assist school districts by doing such 
things as issuing air quality alerts, advisories of possible 
earthquake aftershocks, and notice of emergency street 
closures. Our purpose is to anticipate safety issues that may 
affect schoolchildren in order to communicate effectively with 
school districts and assist with the coordination of emergency 
response efforts.
    While we believe we do a good job of coordinating emergency 
planning and response in Los Angeles County school districts, 
there is still a need for better training and closer 
collaboration among county agencies.
    For this reason, we urge the creation of a system of school 
alert and response networks on a local or regional basis that 
would more closely coordinate with emergency response agencies 
and school districts, not only in L.A. County, but in all 
regions of the country that are under a high threat of 
terrorist attack, natural disaster, or public health emergency.
    An obvious barrier to creating or expanding comprehensive 
emergency planning and response systems is a shortage of staff 
and resources. With the continuing crisis in education funding, 
school districts and LEAs across America face unprecedented 
financial challenges.
    Given the priority on meeting the demands of accountability 
for student academic achievement, school administrators 
struggling with severe cash-flow problems are unlikely to 
allocate funds dedicated to emergency planning and response.
    This is why H.R. 4898 is so critical in helping to ensure 
that school districts are prepared in time of emergency. The 
bill would authorize the Secretary of Homeland Security to 
establish a comprehensive National program to make emergency 
preparedness planning and implementation grants to local 
educational agencies and districts located in areas under high 
threat for terrorist attacks, natural disasters, or public 
health emergencies.
    In conclusion, the Los Angeles County Office of Education 
supports the creation of better ways for school communities to 
proactively prepare for and effectively respond to emergency 
situations in order to safeguard students. We are committed to 
meeting our obligations to all students and children in our 
county and especially those who are most vulnerable population 
in time of emergency.
    Thank you for the opportunity to address these important 
issues. I am prepared to answer any questions you may have.
    [The statement of Mr. Gundry follows:]

                  Prepared Statement of Jon R. Gundry
                             June 15, 2010

    Good morning. My name is Jon Gundry. I am Deputy Superintendent of 
the Los Angeles County Office of Education. I am pleased to be here 
today, on behalf of the Los Angeles County Superintendent of Schools, 
Dr. Darline Robles.

                                OVERVIEW

    I am going to speak briefly about the importance for comprehensive 
and coordinated emergency preparedness planning for local education 
agencies, and to summarize some lessons we have learned in Los Angeles 
County in planning for and responding to emergency situations that have 
affected schools and students in our county. I am also here to express 
our strong support for legislation introduced by your subcommittee 
Chair, Representative Laura Richardson, H.R. 4898, the ``Elementary and 
Secondary School Emergency Preparedness Planning Act.''

                       ABOUT LACOE AND THE COUNTY

    County offices of education were established in California in 1855 
to directly oversee public schools. Today, the county offices are 
intermediate education agencies that provide services to school 
districts, exercise oversight of certain school district functions, and 
provide direct classroom instruction for juvenile offenders and many of 
the children in the county with severe disabilities. The Los Angeles 
County Office of Education--``LACOE,'' for short--serves 80 school 
districts with 2 million preschool and school-age children, nearly a 
third of the students in the State of California.
    Students in Los Angeles public schools are a highly vulnerable 
population in times of emergency, not only because they are located in 
a place that is at high risk of terrorist attack and natural disaster, 
but also because many thousands of those children have special needs. 
Among them are students with disabilities, with limited English 
proficiency, or those living in unstable circumstances or suffering 
financial hardship. The number of severely disabled students in the 
county is approximately 170,000, about 27,000 of whom are directly 
served by LACOE programs.

                     NEED FOR IMPROVED COORDINATION

    Parents rely on schools to keep their children safe. In fact, 
parents are concerned about safety above everything else when they send 
their children to school. Although schools and school districts have 
emergency plans in place, they are generally not as comprehensive as 
they should be and not well coordinated with other agencies and school 
districts. This is primarily due to the fact that they are not given an 
active role in regional emergency planning, they lack the expertise of 
many other public agencies in emergency planning, and they do not have 
sufficient funding to do the necessary planning and preparation.
    In Los Angeles County, LACOE serves as the coordinating agency for 
school districts for emergency preparedness and response.
    During the National response to the spring 2009 swine flu outbreak, 
for example, LACOE played a key role in keeping school districts 
current with public health information and directives so schools could 
prepare for outbreaks and respond effectively to them.
    LACOE's Communications and Emergency Response Director, Frank Kwan, 
who I am pleased to have with me today, directed this initiative. For 
several years prior to this outbreak, Mr. Kwan worked with the Los 
Angeles County Department of Public Health to present a series of avian 
and pandemic flu preparedness conferences for school personnel. These 
conferences also stressed the urgent need for school districts to begin 
planning for a variety of potential public health emergencies.
    LACOE continues to coordinate with public health and other local, 
State, and National agencies and to provide input on county emergency 
and disaster planning. By way of example, LACOE is currently 
participating in Operation Golden Phoenix 2010, sponsored by the U.S. 
Department of Homeland Security (DHS) Science and Technology 
Directorate. Golden Phoenix deals with the nightmare scenario of the 
detonation of an improvised nuclear device.
    In partnership with the U.S. Geological Survey, LACOE co-sponsored 
the Nation's largest earthquake-preparedness exercise in 2008, the 
Great Southern California ShakeOut. Nearly 1.5 million students in Los 
Angeles County were among the 5.5 million Southern Californians who 
took part in the exercise. LACOE was also a key player in The Great 
California ShakeOut in 2009, and we are currently preparing for the 
upcoming 2010 event.
    In addition to earthquakes, we live with on-going issues with air 
quality and the threat of other natural disasters such as wild fires, 
flash floods, and mud slides. Because we serve as the coordinating 
agency for emergency preparedness and response for school districts in 
the county, we must anticipate and respond to any threat to the health 
and safety of our schools and students. We do our best to assist school 
districts by doing such things as issuing air quality alerts, 
advisories of possible earthquake aftershocks, and notice of emergency 
street closures. Our purpose is to anticipate safety issues that may 
affect school children in order to communicate effectively with school 
districts and assist in the coordination of emergency response efforts.

         RECOMMENDATIONS FOR IMPROVED PREPAREDNESS AND RESPONSE

    While we believe we do a good job of coordinating emergency 
planning and response among Los Angeles County school districts, there 
is still a need for better training and closer collaboration among 
county agencies. For this reason, we urge the creation of a system of 
school alert and response networks on a local or regional basis that 
would more closely coordinate with emergency response agencies and 
school districts, not only in L.A. County, but in all regions of the 
country that are under a high threat of terrorist attack, natural 
disaster, or public health emergency.
    Because of their special relationships with communities and 
families, school districts, educational support agencies, and local 
education agencies should take leadership and be an integral part of 
emergency and disaster planning and training. School districts and 
schools would welcome the opportunity for stronger coordination with 
local/State/Federal emergency responders in time of emergency.

                          FUNDING CONSTRAINTS

    An obvious barrier to creating or expanding comprehensive emergency 
planning and response systems is a shortage of staff and resources. 
With the continuing crisis in education funding, school districts, and 
LEAs across America face unprecedented financial challenges. Given 
current dwindling resources, LACOE is hard-pressed to sustain its own 
level of emergency outreach and training activities, let alone improve 
our communication and coordination efforts.
    Given the priority on meeting the demands of accountability for 
student academic achievement, school administrators struggling with 
severe cash-flow problems are unlikely to allocate funds dedicated to 
emergency planning and response.

                          PROPOSED LEGISLATION

    This is why H.R. 4898 is so critical in helping to ensure that 
school districts are prepared in time of emergency. The bill would 
authorize the Secretary of Homeland Security to establish a competitive 
National program to make emergency preparedness planning and 
implementation grants to local educational agencies and districts 
located in areas under a high threat of terrorist attacks, natural 
disasters, or public health emergencies.

                               CONCLUSION

    In conclusion, the Los Angeles County Office of Education supports 
creating better ways for school communities to proactively prepare for, 
and effectively respond to emergency situations in order to safeguard 
students. We are committed to meeting our obligations to all students 
and children in our county, and especially those who are most 
vulnerable population in time of emergency.
    Thank you for the opportunity to address these important issues. I 
will be pleased to answer any questions you may have.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Ms. Rothe-Smith to summarize her statement 
for 5 minutes.

 STATEMENT OF DIANA ROTHE-SMITH, EXECUTIVE DIRECTOR, NATIONAL 
          VOLUNTARY ORGANIZATIONS ACTIVE IN DISASTERS

    Ms. Rothe-Smith. Madam Chairwoman and distinguished Members 
of the subcommittee, thank you for the opportunity to speak 
before you today.
    The National Voluntary Organizations Active in Disaster, or 
National VOAD, as we are more commonly known, is made up of the 
50 largest disaster-focused nonprofit organizations in the 
country.
    From Adventist Community Services to World Vision, our 
member organizations are the driving force behind disaster 
response, relief, and recovery in this country.
    National VOAD represents the nonprofit and faith-based 
organizations already on the ground serving low-income 
communities, people with disabilities, those suffering from 
illness or medical hardship, children, the elderly, the 
impoverished, the uninsured or underinsured, people with pets, 
and immigrant and non-English-speaking populations.
    Their programs are there to offer services to those without 
the means to independently recover from a disaster. Our members 
work together to create an all-community approach to address 
all unmet needs. Communities can benefit by including National 
VOAD members in their planning early and often.
    It is important to stress the role of the voluntary 
organizations as part of a very elaborate and well-coordinated 
team of support for communities in response to disasters.
    Those that are sometimes defined as having special needs or 
being of a vulnerable population, our National VOAD members 
call their neighbor.
    Our members are providing programs throughout the country 
in an effort to fight poverty, build resiliency to disaster, 
and to recovery faster and more completely.
    For example, Mennonite Disaster Service is involved in 
mitigation in a variety of places, most notably, perhaps, in 
New Iberia, Louisiana, and Cheek, Texas, where marginalized 
communities experienced minor damage from a past hurricane, but 
economics and time have hindered them from repairs. Small 
damage has become another disaster through time and weather. 
MDS is working on repairing roofs, walls, flooring, and 
replacing whole kitchens for those most in need.
    Since 2007, the National Baptist Convention USA has been 
strategically planning and building a network to ensure that 
those underserved communities can be integrated into the 
mainstream disaster system. This is in an effort to lessen the 
impact of a disaster for the total community and bring to the 
table those community leaders that have much to contribute.
    The Salvation Army has a program called Preparing Together. 
The concept is simple: Train churches, clubs, and community 
organizations to pair a volunteer with a senior or a person 
with a disability to act as a readiness coach and evacuation 
advocate and a shelter-in-place guide.
    Through their Resilient and Ready Communities Initiative, 
Save the Children works with emergency management, schools, 
childcare leaders, and children to assess community strengths 
and address critical gaps in emergency planning for children's 
needs.
    The Humane Society of the United States is working to 
address the needs of people with pets who are often a 
vulnerable population, given their reluctance to leave their 
homes and evacuate. HSUS is working with Federal, State, and 
local communities to include pets in all evacuation sheltering 
and mass-care planning.
    Affiliates of the Hands On Network offer block parties, 
where neighbors incorporate community needs assessments to 
determine how best neighbors can help neighbors in the event of 
a disaster.
    The Church of the Brethren works to ensure that shelters 
and service delivery sites have respite care for children, and 
the American Red Cross is working with many agencies to ensure 
the needs of all are addressed. They have also worked with FEMA 
to create guidance for assisting people with disabilities and 
shelters, which complements what Red Cross already uses to 
ensure accessibility.
    These are only a few examples, but there is still much work 
to do. Terms like ``special need'' or ``vulnerable 
populations'' allow us all too easily to group very differing 
citizens into one homogeneous population and provide 
instructions that are not appropriately communicated or are 
impossible to follow. These are issues that must be addressed 
with the true representation of a community and then put into 
practice by emergency management.
    Rather than separate plans that address special needs or 
vulnerable populations, we need inclusive plans for everyone. 
We also need to clearly and deliberately include the public, 
who are eager to engage.
    Expectations for our local citizens need to be as clearly 
defined as those of our local citizens, especially in the 
implementation of these plans in response and recovery.
    Madam Chairwoman and distinguished Members of the 
committee, I would like to thank you again for your time and 
would welcome any questions you may have.
    [The statement of Ms. Rothe-Smith follows:]

                Prepared Statement of Diana Rothe-Smith
                             June 15, 2010

    Madam Chairwoman and distinguished Members of the committee, thank 
you for the opportunity to appear before you to address ``Caring for 
Special Needs: What is being done about vulnerable populations?''
    The National Voluntary Organizations Active in Disaster, or 
National VOAD as we are more commonly known, is made up of the 50 
largest disaster-focused non-profit organizations in the country. From 
the American Red Cross to Catholic Charities and The Jewish Federations 
of North America--from the Salvation Army to Feeding America and 
Habitat for Humanity International--our member organizations are the 
driving force behind disaster response, relief, and recovery in this 
country. There are 50 National nonprofit members, 53 State and 
territory VOADs, and hundreds of local and community VOADs throughout 
the United States.
    The members of National VOAD represent the non-profit, faith-based, 
and community-based organizations that are already on the ground 
serving low-income communities, people of disabilities, those suffering 
from illness or medical hardship, children, the elderly, the 
impoverished, people with pets, and immigrant and non-English speaking 
populations. Our programs in times of disaster are there to continue to 
offer support to these local communities and expand to offer more 
services to those without the means to independently recover from a 
disaster. Like disasters are planned for based upon an all-hazards 
approach, our members work together to create an all-community approach 
to disaster response and recovery, including all unmet needs. 
Communities can benefit by including these organizations in their 
planning early and often.
    Additionally, it is crucial to include key organizations that 
represent the full spectrum of a given community, including social 
service providers, advocacy groups, and local faith-based and community 
groups. Rather than separate plans that address ``special needs'' or 
``vulnerable populations,'' emergency managers need inclusive plans for 
their entire community.
    Recognizing that humanitarian assistance is most effective when 
implemented by local partners as part of a coordinated effort for 
community recovery, National VOAD members have worked to more clearly 
define these roles and services through Points of Consensus, manuals 
and tools, direct training and technical assistance, and other 
guidance. Included in our written statement are the three currently 
approved Points of Consensus for spiritual care, disaster case 
management, and rebuilding and repair. By 2011, National VOAD hopes to 
also offer Points of Consensus for mass care, volunteer management, 
donation management, and working with diverse communities outside the 
continental United States.
    Additionally, National VOAD members have worked with FEMA and other 
Federal and State partners to develop the Disaster Multi Agency Feeding 
Template, a tool for local communities when developing their own mass 
feeding plans in response to disasters. This tool supports the 
integrated, interdependent system this country has for providing 
disaster assistance.
    National VOAD is also creating the first National Nonprofit Relief 
Framework. Structured and modeled upon the National Response Framework 
and to serve as a companion to it and the National Disaster Recovery 
Framework, the National Nonprofit Relief Framework more clearly defines 
how the nonprofit community in general and the National VOAD members in 
particular respond to disaster in a cooperative and collaborative 
manner. This document is scheduled to be released in December of this 
year.
    All of this work is being done to stress the role of the voluntary 
organizations as part of a very elaborate and well coordinated team of 
support for communities in response to disasters.
    In addition, our members are providing programs throughout the 
country in an effort to fight poverty, build resiliency to disaster, 
and to recovery faster and more completely.
    For example:
  <bullet> Feeding America has an Emergency Food and Shelter Program--a 
        hunger/homelessness prevention program that fights poverty and 
        builds community resilience to disaster. In its 26-year 
        history, the EFSP has provided $3.3 billion in funding to 
        address short-term needs that could lead to increased hunger 
        insecurity and homelessness. In 2009, 122 Feeding America 
        Members received a total of $11.7 million from the EFSP.
  <bullet> The Humane Society of The United States is working to 
        address the needs of people with pets, who are often a 
        vulnerable population given the amount of people with pets in a 
        given community and their reluctance to leave their and 
        evacuate. HSUS is working with Federal, State, and local 
        communities to include pets in all evacuation, sheltering, and 
        mass care planning.
  <bullet> Since 2007, the National Baptist Convention, USA Inc. has 
        been strategically planning and building a network to ensure 
        that those underserved communities can be integrated into the 
        mainstream disaster system. This is in an effort to lessen the 
        impact of a disaster for the total community. Their goal is not 
        necessarily to become standardized but to assess and bring to 
        table those new stakeholders that have much to contribute.
  <bullet> The Salvation Army has a program called ``Preparing 
        Together'' which is a preparedness initiative for seniors and 
        people with disability. The concept is simple; they are 
        training churches, clubs, and community organizations to pair a 
        volunteer with a senior or a person with a disability together 
        to act as a readiness coach, a family partner, an evacuation 
        advocate, and a sheltering in place guide.
  <bullet> Through their Resilient and Ready Communities Initiative, 
        Save the Children works with emergency planners, emergency 
        responders, schools, childcare leaders, caregivers, and 
        children to assess communities' strengths and address critical 
        gaps in emergency planning for children's comprehensive needs. 
        Based on a highly successful 1-year pilot project in Tulsa, 
        Oklahoma, Save the Children's Disaster Resilient Communities 
        for Children initiative engages community stakeholders in 
        implementing best practices of emergency planning to help to 
        safeguard children in at-risk communities.
  <bullet> Mennonite Disaster Service is involved in mitigation in a 
        variety of places, most notably, perhaps, in New Iberia, LA, 
        and Cheek, TX, where marginalized communities experienced minor 
        damage from a past hurricane, but economics and time have 
        hindered them from adequate or any repairs. Hence, small damage 
        has become a disaster through time and additional weather. MDS 
        is working on a number of homes, repairing roofs, walls, 
        flooring, and replacing whole kitchens for those most in need--
        the uninsured, the underinsured, the disabled, elderly, and 
        single parent.
  <bullet> Affiliates of the Hands On Network offer neighborhood block 
        parties where neighbors incorporate preparedness planning and 
        community needs assessments to determine how best neighbors can 
        help neighbors in the event of a disaster.
  <bullet> Children's Disaster Services, part of the Church of the 
        Brethren Disaster Ministries, partners with the American Red 
        Cross to ensure that shelters and other service delivery sites 
        have temporary respite care for children when the need arises.
  <bullet> The American Red Cross is working across many agencies to 
        ensure the needs of children and people with disabilities and 
        other functional requirements, including the elderly, are 
        addressed. Red Cross representatives have served on working 
        groups for children's issues coordinated by the National 
        Commission on Children in Disasters and have implemented many 
        of the recommendations from the Commission into their 
        protocols. Recently, Red Cross representatives worked with FEMA 
        to assist in the creation of guidance for assisting people with 
        disabilities and functional needs in shelters. This guidance 
        will complement the guidance documents that Red Cross already 
        uses in ensuring shelters are accessible and inclusive. In 
        addition to their work with Federal agencies, the Red Cross has 
        a number of partnerships with other voluntary agencies. Local 
        chapters are encouraged to partner with Independent Living 
        Centers and other organizations that provide services for 
        people with disabilities to augment the Red Cross response 
        following a disaster.
    These are just a few examples. But there is still much work to do. 
Terms like ``special need'' and ``vulnerable populations'' allow us to 
all too easily group very differing citizens into one homogeneous 
population and provide instructions that are not appropriately 
communicated or that are impossible to follow. These are issues that 
must be addressed with key community representatives and then put into 
practice by emergency management professionals. While planning needs to 
include a true representation of the community--response, immediate 
assistance, and long-term recovery all require a true integration of 
voluntary organizations, like those that are members of National VOAD, 
in order to meet all of the unmet needs of the community.
    Madam Chairwoman and distinguished Members of the committee, I 
would like to thank you again for your time, and would welcome any 
questions you may have.

                              Attachments
          Church of the Brethren Children's Disaster Services

                PREPAREDNESS FOR VULNERABLE POPULATIONS

    All families that have been impacted by a disaster are vulnerable--
unexpectedly thrown into a struggle to survive, seeking food, clothing, 
and shelter for their loved ones. In the midst of this are the 
children, their concerns and emotional needs are not a priority as 
parents seek to secure essentials for the family's physical needs.
    ``Homelessness for a child is more than loss of a house. It 
disrupts every aspect of life. It separates children from their 
belongings, beloved pets, reassuring routines, friends and community. 
At a time when children should be developing a sense of safety and 
security . . . they are severely challenged and limited by 
unpredictability, dislocation and chaos.''\1\
---------------------------------------------------------------------------
    \1\ Ellen Bassuk, MD, Harvard Medical School--Quoted in National 
Commission on Children and Disaster Interim Report, October 2009, p. 
56.
---------------------------------------------------------------------------
    To an uninformed observer, children appear to be unaffected because 
they can be seen playing, and play looks normal. In truth, the opposite 
is true. Often their play reflects the trauma of the disaster. Children 
have three unique, pervasive fears after a disaster without the 
language to express them: Will it happen again? Will someone I love be 
hurt? Who will take care of me?
    Are infants and toddlers immune to traumatic stress? Absolutely 
not! Young children pick up on the fear and anxiety of their parents 
and caregivers, and become irritable and fussy themselves.
    In shelters children are particularly vulnerable. In addition to 
being stressed or traumatized by the disaster, the atmosphere is 
chaotic, increasing their insecurity. The volunteers there are often 
spontaneous and unscreened. Even if an ``Instant Background Check'' is 
initiated or part of a response plan, it is often not completed before 
a volunteer is placed with children or staffing a shelter with children 
and other vulnerable people.
    While in shelters or resource assistance centers, children and 
families need support. Parents and caregivers feel overwhelmed by the 
disaster, which demands all of their resources to cope and create a 
plan for their family's recovery. This is an all-consuming task, 
leaving little emotional energy to care for the unique disaster-related 
needs of their children. Considering the wide needs of families, 
supporting children through temporary respite care supports the parents 
and caregivers as well.
    One observed strategy in shelters is to provide a space for 
children and then add toys. However, this quickly becomes a problem 
without good supervision. An unsupervised area quickly becomes 
cluttered; children act out their frustrations, increasing the chaos of 
the shelter and in turn causing additional stress on the children. 
Occasionally the shelter population can become organized to help with 
supervision of children, but this is far from an adequate plan in most 
situations.
    In situations when children have prolonged exposure to the 
devastating effects of the disaster, have witnessed extreme 
destruction, experienced a personal loss, or were at risk before the 
disaster stuck, they are particularly vulnerable to the impact of 
trauma and can develop Post-Traumatic Stress Disorder which has been 
shown to retard both emotional and cognitive development. In these 
situations it is particularly important for staff or volunteers working 
with these children have special training and experience.
    John Kinsel \2\ shares three critical strategies important in the 
recovery of children affected by disaster:
---------------------------------------------------------------------------
    \2\ Kinsel, John. ``Working with Children and Adolescents after a 
Disaster,'' in Disaster Spiritual Care: Practical Clergy Responses to 
Community, Regional and National Tragedy, edited by S. Roberts and 
W.W.C. Ashley. Woodstock, Vermont: Skylight Paths Publishing, 2008.
---------------------------------------------------------------------------
  <bullet> Children need to be assured and reassured that they are 
        safe.
  <bullet> Even the youngest children that are verbal need a simple and 
        truthful explanation of what happened.
  <bullet> Reestablishment of some semblance of normal routines should 
        occur as soon as possible.
    Hopefully it is increasingly clear that the care of children needs 
considerable planning, not just in the most extreme situations, but in 
nearly all disaster situations. Children simply can't be handed off to 
whoever is available or shows up, a well designed plan that includes 
the family, with support from prescreened and trained staff or 
volunteers, is critical part of preparedness to most disasters.
    In our three decades of experience training volunteers to work with 
children after a disaster, we have learned that it is essential for 
volunteers to understand:
  <bullet> The physical and emotional phases of a disaster.
  <bullet> Common responses of each age group to the experience of 
        disaster.
  <bullet> How to keep children safe in a disaster situation.
  <bullet> How to communicate to children in a way that promotes 
        healing.
  <bullet> Toys that will draw out a child's experiences.
  <bullet> How to set limits in a way that fosters a warm nurturing 
        environment for traumatized children.
  <bullet> Listening to distraught parents and appropriate resources to 
        share if requested.
    This is accomplished through simulation of a shelter setting and 
carefully planned exercises that give volunteers practice in the skills 
being taught.
    Children's Disaster Services (CDS) has implemented an expansion 
plan that will increase the number of trained and certified volunteers 
in disaster prone areas in the United States. Starting with the Gulf 
and Pacific coasts, CDS will systematically train and certify 
volunteers in these areas, deploying them with experienced leadership 
to foster their understanding of working with children after disasters 
until the area has the capacity for local leadership. This is being 
done through partnerships with groups that have an interest in children 
and disaster response. ``CDS (Children's Disaster Services) centers 
provide a safe, secure environment where children can begin the process 
of healing and recovery and parents can feel reassured that their 
children are being cared for in a loving way.''\3\
---------------------------------------------------------------------------
    \3\ Peek, Lori, Jeanette Sutton, and Judy Gump (2008). ``Caring for 
Children in the Aftermath of Disaster: The Church of the Brethren's 
Children's Disaster Services Program.'' Children, Youth and 
Environments 10(1): 418.
---------------------------------------------------------------------------
    Our experience responding to 207 disasters over the past 3 decades 
has shown that one crucial element of preparedness is that those in 
charge of Disaster Recovery Centers, assistance centers, shelters, or 
other service delivery sites know about the risk disasters pose to 
children and give their needs priority when planning. It is essential 
that managers know how to access appropriate respite care services. In 
addition, it is crucial that sufficient numbers of volunteers are 
trained to meet the special needs of traumatized children and are close 
enough to the disaster to set up Temporary Respite Centers within 24-36 
hours of a disaster's impact.

 FEEDING AMERICA'S ON-GOING WORK WITH VULNERABLE POPULATIONS--BUILDING 
                          COMMUNITY RESILIENCE

    Community members living in the lower economic bracket are 
disproportionately impacted by disaster. Research has shown that those 
living in poverty are frequently more vulnerable to injury or death and 
have a much more difficult path to recovery because they have fewer 
savings and the lack financial flexibility that can help speed disaster 
recovery. These individuals may be the least likely to evacuate and may 
not have a support system to help them recover. Feeding America, the 
largest domestic hunger relief organization comprised of over 200 food 
banks across the Nation and serving over 60,000 local service 
organizations in every county of the United States works with this 
vulnerable and at-risk population every day.
    In this, the world's wealthiest nation, one in eight people do not 
know where they'll find their next meal. An estimated 36.2 million 
Americans, or 12.2 percent, are food insecure; meaning their access to 
enough food is limited by a lack of money and other resources. These 
are American citizens with homes, jobs, and families, in communities of 
every description. They are our neighbors, coworkers, relatives and 
friends. Their stories are filled with lost jobs, stagnant wages, 
medical calamities, and the rising costs of food and fuel. The last 
year has brought many more Americans to the brink and as such 
individuals, families, and whole communities are increasingly 
vulnerable to the impact of disasters and will have greater difficulty 
recovering following the next disaster.

Current Status: More Food and Funds, but Increased Need Leading to 
        Increased Vulnerability
  <bullet> Feeding America has increased the amount of food and grocery 
        products secured and distributed to its network of food banks 
        more by more than 22 percent over last year to 2.63 billion 
        pounds annually.
  <bullet> Financial donations increased 63 percent to $75 million in 
        fiscal year 2009.
  <bullet> Demand for food at agencies of local food banks around the 
        country still continues to outpace supply--demand has grown on 
        average by 30 percent over the past year.
  <bullet> Current recession and the continuing rise in unemployment--
        now at 9.7% across the Nation--are having a profound effect on 
        the ability of local food banks to feed millions of Americans 
        living at risk of hunger and homelessness.
  <bullet> Over 55 percent of our Network members have had to turn away 
        clients because they cannot meet demand for food.
            Emergency Food and Shelter Program--a hunger/homelessness 
                    prevention program that fights poverty and builds 
                    community resilience to disaster
  <bullet> In its 26-year history, EFSP has provided $3.3 billion in 
        funding to address short-term needs that could lead to 
        increased hunger insecurity and homelessness.
  <bullet> In 2009, 122 FA members received a total of $11.7 million 
        from the EFSP.
  <bullet> The Feeding America network and individual member food banks 
        can be a resource for identifying and quantifying hunger in 
        communities and can efficiently meet these needs.
    The relationships established on a day-to-day basis through this 
program provide a unique outlet for the Federal Government to work with 
in times of disasters. Marrying up the Federal Emergency Management 
Agency's Voluntary Agency Liaisons, cadres of Community Relations 
Specialists with the EFSP local boards will help resources get out to 
those who need it most in an expedited manner.

                              PREPAREDNESS

    Feeding America Member Food Banks are working with corporate and 
non-profit partners to share preparedness materials with their network 
of social service agencies that serve populations which Government has 
traditionally struggled to reach including the poor, seniors, children, 
and recent immigrants. The following case studies highlight some recent 
initiatives to improve community and individual preparedness.

            North Texas Mass Care Task Force begins work to enhance 
                    local disaster-relief efforts

Goal: To increase number of people to be sheltered and fed to 40,000 
individuals.
    Following the 1-year anniversary of Hurricanes Katrina and Rita in 
the Gulf region, executives of the North Texas Food Bank (NTFB), 
American Red Cross Dallas Area Chapter (ARC), The Salvation Army 
Metroplex Area Command (TSA) and the Volunteer Center of North Texas 
(VCNT) came together to initiate an important project designed to 
improve the efficacy and efficiency of mass care disaster response for 
their community. These four non-profit organizations formed the Mass 
Care Task Force to strengthen their ability to take action in 
partnership when called upon to respond to a disaster in North Texas, 
or to serve evacuees from a neighboring community.
    The task force helped to fully define each organization's primary 
responsibilities to avoid duplication. The strides made since 2005 and 
when Hurricane Ike hit in 2008 demonstrated the success such 
collaboration and planning can have in preparing non-profits to respond 
to disasters. ``But with Ike in 2008, we knew exactly what resources 
were needed and the right agencies to provide them as a result of our 
Mass Care Task Force planning,'' said Jan Pruitt, president and chief 
executive officer of the North Texas Food Bank. ``The organizations in 
the Mass Care Task Force want to make sure we're prepared to meet the 
needs of the North Texas community should a much larger disaster 
occur.''
    In early 2009, the Communities Foundation of Texas announced $5 
million as a challenge grant over 4 years to support development and 
implementation of a Mass Care Response and Disaster Relief Plan for 
North Texas with funds from its W.W. Caruth, Jr. Foundation. This is 
the first-in-the-Nation collaboration of this scope with the goal of 
increasing emergency preparedness from their current ability to shelter 
and feed 7,800 to being able to accommodate 40,000 individuals.
    On May 20, 2009, National representatives of Feeding America, the 
American Red Cross, Salvation Army joined the North Texas Mass Care 
Task Force and the W.W. Caruth, Jr. Foundation to recognize the 
important work of this task force in keeping North Texans safer in 
times of disaster and hosted a kick-off meeting for the next phase of 
their work together. Specifically, the Task Force began work on a joint 
disaster planning and exercise effort to further refine the joint 
operations plan through a series of table-top exercises with the final 
plan expect by late 2009.

            Partnership for Forward-staging of Essential Hurricane 
                    Supplies
Goal: Reduce lag time associated with the movement of shelf-stable 
nutritional supplement to areas impacted by disaster and/or receiving 
larger numbers of evacuees.
    Pre-positioning is one of the most effective ways to provide life 
saving/sustaining supplies in a timely manner. Abbott Nutrition has 
been a long-time supporter of Feeding America with the staging of 
disaster relief supplies. Abbott wanted to explore new ways to support 
food banks in disaster with a slightly more forward-leaning approach. 
Rather than placing all of the donated relief supplies in the 5 
National disaster distribution centers--we staged smaller amounts of 
Abbott product directly in food banks throughout the Southeast and Gulf 
Regions. The pre-positioning sought to reduce the time lag associated 
with transporting this type of product to responding food banks and 
organizations while quickly address shelter support and immediate needs 
following an evacuation and/or effects of a storm. To do this Abbott 
donated supplies including Pediasure, Pedialyte, Ensure, and Zone which 
were staged in pre-packaged, pre-mixed modules. The East Texas Food 
Bank in Tyler and America's Second Harvest of South Georgia in Valdosta 
agreed to serve as mixing centers for the Network by packaging the 
donated supplies for distribution prior to the beginning of Hurricane 
Season. The Feeding America-Abbott Disaster supplies were delivered to 
multiple locations the last week in May, coinciding with National 
Hurricane Preparedness Week (May 24-30). Locations were selected due to 
its vulnerability to hurricane, ability to assist in disaster response 
and recovery, and the quantities were based on the size of the 
population in the food banks' service areas. Specifically, Feeding 
America pre-staged Abbott's donated goods at 7 food banks that served a 
population over 1 million, and another 14 food banks with service areas 
under 1 million. The partnership exemplified the investment that can be 
made to help communities in urgent need, when disasters strike.

            California Earthquake Table-top Exercise
Goal: To build capacity of local faith-based and non-profit 
organizations and to improve COOP.
    On Wednesday, July 1, 2009 the Foodbank of Santa Barbara County, 
California hosted a disaster preparedness conference and table-top 
exercise with representatives from more than 30 member agencies that 
provide emergency services through food distributions, preparation and 
by providing shelter. The half-day conference included representatives 
from Feeding America, the Orfalea Foundation and the American Red Cross 
representative to the county's Voluntary Organizations Active in 
Disasters.
    The development of the conference agenda and its facilitation were 
a collaborative effort between the Santa Barbara Food Bank and Feeding 
America's National Office. The conference included a table-top 
discussion of an simulated earthquake scenario with the local service 
agencies working through a variety of problem statements to be resolved 
within their geographical area; a presentation by on Continuity of 
Service or Who's Open for Business to help provide the basic tools 
needed to develop a disaster contingency plan, and then a discussion 
with the Red Cross on coordination of service delivery during times of 
disasters.
    The funding for the conference was provided by the Orfalea 
Foundation as part of its ``Aware & Prepare: A Community Partnership to 
Strengthen Emergency & Disaster Readiness'' and in partnership with the 
Santa Barbara County Office of Emergency Services (SBC OES). The 
initiative's mission is to create a community partnership to strengthen 
capabilities to mitigate, prepare for, respond to, and recover from an 
emergency or disaster in Santa Barbara County.
    The conference was an opportunity to address seven key areas of 
disaster preparedness, including:
  <bullet> Public Education and Awareness.
  <bullet> Coordination and Communication.
  <bullet> Preparedness.
  <bullet> Emergency Public Information.
  <bullet> Resources and Personnel.
  <bullet> Volunteer Organizations Active in Disasters.

            Tarrant Area Food Bank Engages Vulnerable Populations in 
                    Preparedness
    Target Corporation supports the disaster programs of Feeding 
America, The Salvation Army, and the American Red Cross and has 
developed a Family Safety booklet to promote disaster preparedness. The 
booklet contains a checklist of supplies that every family should have 
on hand at all times, as well as tips for keeping children safe and 
helping families create a safety plan. The disaster preparedness 
booklet was made available in Target stores during National 
Preparedness Month in September 2009.
    In September 2009, the Tarrant Area Food Bank in San Antonio was 
able to distribute more than 1,000 copies of the Target disaster 
preparedness materials to more than 300 social service agencies 
throughout the 13 counties that they serve. Through this network of 
food bank agencies, they were able to share information about 
individual and family preparedness with children, seniors, and recent 
immigrants that frequently are not the target of disaster preparedness 
efforts.

                                RESPONSE

    Feeding America Member Food Banks supplements mass care congregant 
feeding sites managed by National VOAD partners, provides an alternate 
distribution mechanism for individuals and families that cannot be 
reached through Government Points of Distribution, and is involved with 
household distribution of food that helps people move into the recovery 
process. The following case study highlights the role that the Houston 
Food Bank played as a partner and resource to emergency management at 
the local, State, and Federal level.

            BP Deepwater Horizon Gulf Coast Oil Spill
    Many coastal communities throughout Louisiana, Mississippi, 
Alabama, and Florida are reporting drop-off in sales from their 
grocers, revenue losses from money spent in restaurants, condos, and 
hotel rentals, as well as the loss wages of boat owners and crews and 
the seafood packing operators. To respond to the increased demand for 
assistance, Feeding America food banks throughout these coastal 
communities in these States are bracing for the long-term economic 
impact and burdens families will face.
    Immediately the Second Harvest Food Bank of New Orleans and 
Acadiana began preparing for the need to support their communities for 
the long term. They began working with other VOAD partners, emergency 
management community and started to identify the long-term impact this 
devastating event would have on their communities. They began to 
distribute food and water to those in need and are currently assessing 
how they will continue to do so for those newly in need.
    In response to record unemployment and uncertainty with the recent 
oil spill, Bay Area Food Bank (Theodore/Mobile) began deploying the 
mobile pantry program, a traveling food pantry, to those communities 
affected along the Gulf Coast including Pascagoula, MS (1 distribution) 
and Grand Bay, AL (5). Specific distributions are scheduled for 
additional mobile pantries in Bay St. Louis, MS (1); Bayou La Batre, AL 
(4); Biloxi, MS (1) and Grand Bay, AL (7). Considered a blessing to the 
grateful families who receive the much needed food, recipients have 
been heard saying that they had ``given up all hope until the mobile 
pantry showed up'' (Pensacola, FL). Several ladies attended a food 
distribution in Grand Bay, Alabama after losing their jobs just 2 days 
earlier. Both stated that the food from the trailer was a ``godsend'' 
to them and they ``didn't know what they would do without it.'' Some 
distributions are targeted specifically for the Asian community's 
dietary preferences and will also include SNAP enrollment information 
in various Asian languages.
    Many of these communities are still recovering from Hurricane 
Katrina. Of particular interest to this committee may be that the 
Mobile Pantry operation in the Bay St. Louis/Waveland, MS area is being 
conducted at a temporary church building where both the church and the 
area homes were entirely underwater and devastated by Katrina. This 
church hosted the pantry distribution and provided cooking classes to 
talk about how to prepare the food provided by the pantry as well as 
held discussions on how to stretch food dollars.

            April 2010 Flooding: Second Harvest of Middle Tennessee 
                    (Nashville)
    As a result of the flooding in late April of this year, Second 
Harvest of Middle Tennessee worked on contingency plans developed over 
the weekend for the flooding as their facility was directly impacted by 
5 feet of water. The food bank quickly became inaccessible due to road 
closures and lost valuable equipment, office space and product. 
Further, it quickly moved over 200 pallets of key disaster food items 
such as peanut butter, canned meats, vegetables and fruit and cereals 
to its alternate facility at a warehouse facility at Metro Nashville 
Airport.
    From that location, Second Harvest Food Bank activated its disaster 
team and began responding to the needs of the community and individuals 
who had been affected by the flooding disaster. In the immediate days 
following the flooding, Second Harvest's efforts focused on assembling 
and distributing emergency food boxes, cleaning supplies, bottled 
water, and other non-food items to Metro's Disaster Information 
Centers.
    When the flood waters receded and Metro Center became accessible 
and power was restored, Second Harvest reoccupied its building and 
quickly accelerated operations to meet both the on-going hunger needs 
in our community and the emergency food needs for folks affected by the 
disaster. The primary instrument by which they used to distribute food 
quickly and efficiently into the rural counties affected by the 
disaster was Mobile Pantries. The Mobile Pantry is a traveling food 
pantry that delivers food directly to agencies to hold a large-scale 
food distribution for people in need. To continue their day-to-day 
services and the added needs caused by the flooding, Second Harvest of 
Middle TN reached out to their local Kroger, Walmart, and Dollar 
General contacts regarding their interest in supporting food bank flood 
relief efforts. Other members of the Feeding America network quickly 
stepped in and offered support--personnel and product--but true to the 
Volunteer State, the food bank effectively engaged in local partners to 
raise funds and foods to meet the needs thus minimized the need to ship 
in product from other areas.
    Since May 2, when the rain finally stopped, Second Harvest has 
operated 20 Mobile Pantries, distributing close to 1,000,000 pounds 
(781,250 meals) to folks whose lives have been affected by the flooding 
disaster.

            Hurricane Ike: Houston Food Bank as Force-multiplier for 
                    Emergency Management
    The 2008 hurricane season was recognized to have been one of the 
busiest seasons on record by National Oceanic and Atmospheric 
Administration and Hurricane Ike goes down as the third-most 
destructive storm in history. The Houston Food Bank played an integral 
role supporting the response operations in America's fourth-largest 
city and to Galveston Island which bore the brunt of the storm's 
landfall.
    The Houston Food Bank (HFB) distributed just over 20 million pounds 
of relief supplies during the initial relief efforts and during the on-
going recovery phase. HFB coordinated with 239 different local agencies 
thereby lending an distribution infrastructure to emergency management 
partners that allowed far wider and more diverse coverage than is 
possible through the County Points of Distribution (POD). The food 
bank, along with partner agencies were able to reached deep into even 
the small population neighborhoods that were otherwise not being 
reached through traditional distribution efforts. In areas where there 
were no viable agencies in existence, the food bank utilized mobile 
pantries and made deliveries.
    HFB began distribution the day after landfall and ramped up to an 
average daily output of over 500,000 pounds within 4 days. Well over 50 
percent of the relief supplies distributed originated with FEMA and was 
provided in coordination with the State of Texas' feeding plan and the 
cooperation of Houston City officials. The balance of the relief 
supplies, beyond the product that originating with FEMA, was provided 
through private donations at the local level and through National 
corporate partners leveraged by the Feeding America National Office.

                                RECOVERY

    Feeding America Member Food Banks remain in communities long after 
other National relief efforts have ended and they continue to support 
the immediate and long-term recovery efforts of community-based 
organizations. The following case study highlights recent efforts to by 
the Northeast Iowa Food Bank during the floods in June 2008 and during 
the on-going recovery for the communities they serve.

            Midwest Floods of 2008: Northeast Iowa Food Bank Support of 
                    Long-term Recovery
    The flooding experienced in Northeast Iowa continues to impact 
communities through the long-term rebuilding and on-going mental health 
treatment for children impacted.
    The Northeast Iowa Food Bank has made a conscious effort to stay 
involved with the long-term recovery process of the communities we 
serve. Staff have been dedicated to be a member of multiple long-term 
recovery committees and have supported work crew and camps for long-
term mental for children.

Northeast Iowa Food Bank and Camp Noah

  <bullet> Providing food and drinks to camps in 8 cities affected by 
        flooding and/or tornadoes of 2008:
    <bullet> New Hartford
    <bullet> Hazelton
    <bullet> Parkersburg
    <bullet> Shell Rock
    <bullet> Waverly
    <bullet> Lamont
    <bullet> Dunkerton
    <bullet> Laporte City
  <bullet> Product provided includes:
    <bullet> Water
    <bullet> Gatorade
    <bullet> Fruit Juice
    <bullet> Shelf Stable Milk
    <bullet> Snacks (Chips, Fruit Snacks, Granola Bars)
    <bullet> Macaroni and Cheese
    <bullet> Ground Beef
    <bullet> Ground Turkey
    <bullet> Hot Dogs
    <bullet> Canned Fruits and Vegetable
    <bullet> Fresh Produce
    <bullet> Bakery Items.
    Camps are completely funded by the community and it cost $2,500 to 
bring the National team in. By helping to provide the food we are able 
to help supplement the budgets for these important camps in rural 
communities.

                  Humane Society of the United States
    For the past few decades, and especially since Hurricane Katrina, 
the Federal Government and many State and local emergency management 
officials have increased their awareness and recognition that families 
and individuals with pets must be considered when addressing the needs 
of vulnerable populations.
    According to the American Veterinary Medical Association's 2007 
statistics, 59.5% of U.S. households have pets--and two-thirds of those 
had more than one pet. This is an increase of more than 7 million pets 
from the same organization's 2001 statistics, or a total of more than 
680 million pets living with families.
    In spite of the fact that pet owners are clearly in the majority in 
our communities, planning and execution of disaster evacuation and 
sheltering operations have not adequately or consistently addressed 
their needs, resulting in loss of life and personal anguish.
    We have learned too many times that individuals have failed to 
evacuate, or have returned to dangerous areas because they were not 
allowed to take their pets away from dangerous conditions. Too many 
times, we have seen heart-breaking images of pets torn from children's 
arms, or watched distraught adults as they were forced to abandon 
helpless pets, or learned of those who perished because they would not 
leave their animals or lived on the streets because no shelter would 
accept them. Too many times, first responders and emergency personnel 
have been imperiled by circumstances involving injured or abandoned 
pets in disasters.
    The 2006 PETS Act, passed by Congress and signed by the President, 
began to address the needs of this vulnerable population at the Federal 
level. We applaud Congress and the Executive branch for taking this 
action, and acknowledge the significant steps taken by FEMA, USDA/
APHIS, and other Federal agencies since then to address the needs of 
families and individuals with pets. Our members have appreciated the 
commitment shown by representatives of these agencies, and the active 
role they have assumed in coordinating the efforts of public and 
private disaster-related organizations to ensure that families with 
animals are included in disaster planning.
    By working together in collaboration and cooperation, the members 
of the National Voluntary Organizations Active in Disaster have also 
strengthened the fabric of non-profit support for families with 
animals.
    Many communities--especially those who have extensive experience 
with disasters--have also recognized the importance of planning for 
families with pets and have included them in the planning process. In 
others, ``lessons learned'' after a disaster have included the need to 
act on behalf of those with animals.
    Our commitment to this vulnerable population is solid, and we 
applaud the efforts by all those who have included planning for their 
needs into their Disaster Plans. We encourage all communities currently 
reviewing or updating their Disaster Plans to recognize and include the 
needs of families and individuals with animals in disaster.

                       Mennonite Disaster Service
    Virtually all of our work is being done within vulnerable 
populations. Much of our continuing work entails preparedness and 
mitigation.

                                  ERT

    We have been and continue to train Early Response Teams (ERT) in 
various communities where we have sizable populations (specifically 
Mennonites and Amish). They are supplied with a trailer (which they buy 
together) that is equipped for self-containment and use as soon as the 
authorities allow us to come in. It is loaded with chain saws, fuel, 
water, and a great variety of tools.

                               MATERIALS

    MDS uses an adapted version of the Lutheran Disaster Response's 
``Preparing for Disaster: A Guide for [Mennonite] Congregations.'' MDS 
also collaborated on a booklet called, ``Beyond our Fears: Following 
Jesus in Times of Crisis,'' published by Mennonite Publishing Network.

                         HURRICANE PREPAREDNESS

    MDS and MCC (Mennonite Central Committee--our sister organization 
that concentrates on disaster response overseas, and activism in the 
United States) met with Mennonite congregations in Texas to discuss and 
plan preparedness for the next hurricanes, including the situation for 
evacuees. Mennonite churches in San Antonio, Houston, and other parts 
of Texas are readying themselves to receive those fleeing a storm.

                               MITIGATION

    MDS is involved in mitigation in a variety of places, most notably, 
perhaps, in New Iberia, LA, and Cheek, TX, where marginalized 
communities experienced minor damage from a past hurricane, but 
economics and time have hindered them from adequate or any repairs. 
Hence, small damage has become a disaster through time and additional 
weather. MDS is working on a number of homes, repairing roves, walls, 
flooring, and replacing whole kitchens for those most in need--the 
uninsured, the underinsured, the disabled, elderly, and single parent.
    None of these really reflect the additional work being done in the 
Gulf, even now as we listen and begin responding to those affected by 
the oil spill--many of the people who have received help from MDS for 
their homes are now looking at the oncoming and present disaster that 
is the oil spill.--Scott Sundberg, Director of Communications Mennonite 
Disaster Service.

                  National Baptist Convention, USA Inc
From: The Office of Disaster Management, National Baptist Convention, 
        USA Inc., Randy G. Vaughn, Director.
    Through our Office of Disaster Management we are organizing and 
structuring our convention to strengthen and fill gaps to the 
vulnerable and underserved communities. The underserved communities 
have been added to the list of vulnerable populations and should be 
included as such due to these populations lacking resources to prepare 
for a disaster and recover from its aftermath. We have begun to build 
capacity, educate, and create new partnerships with other disaster-
related organizations.
    Since 2007, the National Baptist Convention, USA Inc. has been 
strategically planning and building a network to ensure that those 
underserved communities can be integrated into the mainstream disaster 
system. This is in an effort to lessen the impact of a disaster for the 
total community. Our goal is not necessarily to become standardized but 
to assess and bring to table those new stakeholders that have much to 
contribute.
    Capacity-building is a necessary activity for disaster risk 
reduction; however we now recognize what a mammoth task it is to equip 
15,000 communities in such a vast geographic area. The organizational 
Development is moving steadily but the Human Development is lacking. 
The resources to equip individuals with understanding, knowledge, and 
skills are just not available.
    If we equip and educate that vulnerable community it will become 
economically beneficial as it will somewhat lessen the impact on public 
safety net programs. Lack of preparedness for the health and welfare of 
the vulnerable population can have devastating consequences. The 
catalyst that will trigger better preparedness, mitigation, protection 
of human health, and safety and welfare is additional informational and 
economical resources.

    Ms. Richardson. I thank all the witnesses for their 
testimony. I will remind each Member that you will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    Mr. Gundry, how does the Los Angeles school county of 
education conduct inclusive preparedness planning with 
consideration of children and young people who come from 
economically disadvantaged area, diverse ethnic backgrounds, 
and children with disabilities?
    Mr. Gundry. That is a very big question. Right now, what 
the county does is we coordinate primarily communications with 
school districts around the county. Our superintendent has a 
direct line of communication with the superintendents of all 80 
districts and all--including the subdistricts of the Los 
Angeles School District, each of which has its own 
superintendent.
    So there are 88 superintendents who she has a direct line 
to. So we rely on those superintendents to take the information 
that we give to them and implement their own emergency plans, 
whatever kind of plans they have in place.
    Now, we do have the responsibility for serving directly 
many of the students with special needs in those school 
districts, so we have our own emergency response plans in place 
for our sites that serve the 27,000 students with disabilities 
who are directly under our care.
    Ms. Richardson. Of those 27,000 students, what do you have 
in place to help them?
    Mr. Gundry. Well, it varies site by site, because our sites 
are located all over Los Angeles County. We have agreements 
with local school districts to serve their students, because 
there are still students within the local school districts, but 
we operate the sites and hire the teachers.
    So each site would have its own emergency preparedness 
plan, depending on where it is, because they are widely diverse 
and geographically diverse, as well, around the county, so it 
would--we are talking about a site-by-site emergency 
preparedness plan that we have.
    Ms. Richardson. Are these plans required by the State or by 
the Federal Government? Or is this just something that our 
county is kind of taking the initiative in doing?
    Mr. Gundry. They are required. Every school and every 
school district is required to have an emergency preparedness 
plan. Now, I don't believe that the monitoring of those plans--
it is kind of spotty.
    So that is one of the reasons, we believe, that this bill 
is so important, because we would help oversee the development 
of those plans and--and help ensure that they are in place, 
first of all, and that they meet whatever standards are--you 
know, are agreed upon are necessary to have an effective 
emergency preparedness plan.
    Ms. Richardson. So if I am to understand you correctly, 
your officers, in terms of--or the office within your county 
department, serve as monitoring or collecting information. To 
your knowledge, does the State or Federal Government provide 
any monitoring or follow-up?
    Mr. Gundry. I believe they do, but I don't believe it is 
comprehensive. You know, they do periodic auditing of the 
plans, and I don't believe there is any comprehensive system 
for regularly reviewing the emergency preparedness plans. I 
haven't seen them, but I would anticipate that they vary widely 
in terms of their comprehensiveness from one school district to 
another.
    Ms. Richardson. Within those plans, do they include a 
section for children who might have additional needs?
    Mr. Gundry. I can't give you a direct answer to that 
question. I can only guess. I would say that most of them 
probably do not.
    Ms. Richardson. Do you find that your particular--because 
you are the largest county in the United States, and I am sure 
you attend many conferences--do you find that what you do is 
very different from what you see in other rural communities or 
even urban communities?
    Mr. Gundry. Yes, I think what we do is unusual, that there 
is a coordinating agency that coordinates this kind of 
communication among school districts. I came to Los Angeles 
from Houston, which is a large school district, and there was 
no regional coordination for this.
    Even within the school district, we had good emergency 
preparedness plans, but when I--as a principal, I remember when 
I questioned my own, I saw that I was supposed to evacuate 
1,000 students to a grocery store in the neighborhood, and I 
asked the manager of the store if he was aware that we were 
coming in an emergency, and he was not, so--and told me that we 
were not welcome there.
    So I think that, even when you have a plan in place, it has 
to be well coordinated and communicated with others who may be 
involved in that plan, because if you are evacuating schools 
and neighborhoods, they have to go somewhere. Where they are 
going, those people have to know that they are coming.
    So there is a great deal of communication that is involved 
in regular revisiting the plans, because when people change in 
these locations, they may not be aware. Principals of schools 
change. Managers of stores and other administrators in public 
agencies change. If there is not a regular review of the plans, 
people are not going to be aware of what they are and when they 
are needed.
    Ms. Richardson. Thank you.
    Ms. Smith, I have 10 seconds. What have been some of the 
most important lessons learned by VOAD that can assist others 
who work with vulnerable populations?
    Ms. Rothe-Smith. I would say very briefly that it is the 
integration, it is the actual--we are very good at being 
inclusive with our planning, but in the implementation, 
particularly response and recovery, there are many lessons that 
can be learned.
    The members of National VOAD and others advocacy groups 
really need to be engaged in the response and recovery 
activities of emergency managers to fully realize the potential 
and to serve the full community.
    Ms. Richardson. Thank you.
    Mr. Cao, as Ranking Member, you are recognized for 5 
minutes.
    Mr. Cao. Thank you, Madam Chairwoman.
    Mr. Gundry, the Los Angeles County school district is very 
diverse in its student population. Is that correct?
    Mr. Gundry. Yes, sir, it is.
    Mr. Cao. Do you have the language accessibility for 
minority students, Asians, Hispanics, and others who might not 
speak English well?
    Mr. Gundry. Yes. Yes, we do.
    Mr. Cao. Do you conduct, for example, emergency plannings 
with their parents?
    Mr. Gundry. The county office does not do a direct planning 
with parents. Our communications are primarily with school 
districts, and then the school districts around the county have 
the direct contact with parents.
    Mr. Cao. Now, is there a system or are there ways for 
parents of minority students to be able to understand some of 
the planning procedures and how to, I guess, communicate with 
their children in the event of an emergency, natural disaster, 
or what have you?
    Mr. Gundry. Excuse me. Again, we are talking about 80 
different school districts and how they all operate 
differently, but I would say, generally, yes. I think the 
school districts in the county know who their population is, 
and there are a number of different language groups represented 
in the county.
    I think the school districts by and large do a very good 
job of knowing the languages that their parents speak and 
making every effort to be sure that their communications are 
getting to all of their community.
    Mr. Cao. Okay. Ms. Rothe-Smith, what are some of the 
criteria, if an organization were to--if they want to join with 
your agency?
    Ms. Rothe-Smith. National VOAD, as an organization, a 
member would need to be National in scope, would need to be a 
nonprofit organization, would need to have the ability to 
respond within all 10 FEMA regions and have a specific disaster 
mission or program. That is to name to few, but we do have a 
more comprehensive membership criteria.
    Mr. Cao. What do you see as the biggest challenges in 
trying to eliminate the gaps found in planning, response, and 
recovery for vulnerable populations?
    Ms. Rothe-Smith. I would say that there is a lot of 
different definitions around vulnerable population. While we 
really need to be looking at a more comprehensive definition, 
ultimately it really is incumbent upon the community to define 
its vulnerable population.
    Our National members, as I mentioned, are National in 
scope, but they do need to engage with the local community on 
those that are experts in disaster, but the community itself is 
an expert in its community. That is the type of relationship 
that needs to occur. That integration with emergency management 
is what needs to occur.
    Mr. Cao. Now, does your organization work closely with 
FEMA?
    Ms. Rothe-Smith. Yes. We have an MOU with FEMA. The 
original one was 1994, and we just updated that MOU last month 
and signed that.
    Mr. Cao. Okay. Now, were you present in New Orleans after 
Katrina?
    Ms. Rothe-Smith. I was not in my role as----
    Mr. Cao. Not you specifically, but your organization?
    Ms. Rothe-Smith. Yes.
    Mr. Cao. Okay. In what capacity?
    Ms. Rothe-Smith. We are a coordinating body, so if you 
consider us more like the United Nations of disaster relief 
organizations--so we were hosting coordination calls, and we 
were on the ground coordinating the member organizations. They 
themselves, as direct service providers, were on the ground 
providing service throughout the Gulf, but also throughout the 
United States, receiving the evacuees that were coming into 
communities.
    Mr. Cao. Now, is your organization also involved in any 
aspects in connection with the oil spill?
    Ms. Rothe-Smith. Yes, not in an official capacity at this 
point, but our member organizations are. The majority of them 
are assessing the situation. They are determining what role 
they might play, dependent upon a hazards assessment with the 
particular spill recovery, but they are all involved in the 
long-term economic impact that we will have, because the 
majority of them are social service and faith-based 
organizations that are already on the ground doing that type of 
service.
    Mr. Cao. What kind of services are they hoping to implement 
for the long-term recovery?
    Ms. Rothe-Smith. They would be looking at the humanitarian 
needs, most specifically. The challenge right now is looking at 
what the clean-up would be, but really they are looking to 
assess, then, what the economic impact on the communities will 
be, and then how they as social service and humanitarian 
organizations would be able to provide assistance to those 
unemployed or those needing additional resources.
    Mr. Cao. Thank you.
    I yield back.
    Ms. Richardson. Thank you.
    Mr. Cleaver from Missouri is recognized for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Mr. Gundry, Ms. Rothe-Smith just mentioned United Nations. 
Los Angeles is actually the United Nations with regard to the 
diverse population. When you consider, as you mentioned in your 
comments, students with disabilities who also have some limited 
language or English proficiency creates a whole new problem. 
Whether people want to accept it or not, Los Angeles is going 
to be the United States.
    What kind of recommendation do you have for us that would 
hopefully give us the intelligence to shape our policies that 
would provide help for not just kids in a school, but kids who 
have disabilities and who also are unable to communicate as 
well as they should and we would like in English?
    Mr. Gundry. My recommendation is that, when--you know, if 
this legislation passes and the grant money is authorized to go 
out to agencies such as ours to have a coordinated response 
among school districts, that they simply be part of the 
application process for the grant, is to describe what the 
specific plans are to accommodate students, you know, with any 
kind of disability or any kind of vulnerability they may have 
in time of emergency.
    So it would be--in order to qualify for the grant money, 
the agency would have to have a specific plan for dealing with 
the needs of those vulnerable populations.
    Mr. Cleaver. Thank you.
    Ms. Rothe-Smith, can you tell us any city in the country 
that would be presently ideal as a shelter, where the disabled 
could be accommodated? I mean, I have gone into the dome in New 
Orleans to watch football. I am not sure that it was disabled-
ready.
    So is there any place that could be a model for the rest of 
the country?
    Ms. Rothe-Smith. I think it is a difficult question for me 
to answer. I wouldn't be able to--I am not an expert to assess 
the disability accessibility for a given city.
    However, I would say that, in a disaster, it is 
increasingly difficult to assess that, because even in the most 
accessible community, given the infrastructural damage or water 
or whatever the impact might be, might impede the ability for a 
person with a disability to actually get to the areas that are 
accessible.
    Mr. Cleaver. Okay. I understand, and I appreciate what you 
are saying. But today, if we had to say to the Nation that, you 
know, notwithstanding the type of disaster, Lubbock, Texas, 
does, in fact, have some facilities that would accommodate all 
of its citizens, including disabled--what I am getting at is, 
we never think about that until it happens.
    You know, people in wheelchairs are already--I mean, they 
are already at an enormous disadvantage. Then when they can't 
get inside a building, it is--I mean, they have, you know, two 
or three times the likelihood of not surviving a disaster.
    What I want to have our committee deal with--and, frankly, 
FEMA, as well--is how we can make ready communities to do that? 
I mean, is it awareness? Is it money? What do we do? Are there 
places in the country that we can look to for guidance on this?
    I used to be the mayor of Kansas City, Missouri. I can tell 
you, we had two floors, 25 people who drowned in one, and 12 in 
the other. We never, ever thought about people who would become 
victims, No. 1, and never remotely thought about, you know: 
``How do we get people who are disabled into safe places?'', 
until after it was over.
    Ms. Rothe-Smith. I would echo that. I think the previous 
panel made the point of stating that our cities need to be more 
accessible today, prior to the disaster, and then, in turn, 
will make them more accessible post-disaster.
    But additionally, I would say that it is important that we 
integrate. Your closest shelter right now might not be a 
special needs shelter, so does that mean that you get turned 
away? That is part of the planning, and that is really why the 
community itself needs to be so actively involved in its 
response, to make aware what those vulnerabilities and gaps are 
and address them prior to the disaster. But I absolutely agree 
with you.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Cleaver.
    I have two other questions. Would Members be okay with us 
continuing a second round? Without objection? Okay.
    Mr. Gundry, Congress included in the 9/11 Act a provision 
allowing States in urban areas to use homeland security grant 
programs for school preparedness activities. Has the L.A. 
County School District ever applied for and received Federal 
homeland security grant funding to support prepared activities? 
If so, how have you used that funding?
    Mr. Gundry. Madam Chairwoman, to my knowledge, we have not 
applied.
    Ms. Richardson. So, again, for the record, you are the 
largest county in the school district, you haven't applied, and 
you haven't been able to use any of the funding?
    Mr. Gundry. Well, there are possibly school districts 
within the county that have been. I am not aware of it.
    Ms. Richardson. Okay. Also, you mentioned funding is very 
tight with teachers and just keeping people in the classroom. 
How are teachers and school administrators trained to serve in 
their important preparedness roles? How often do you conduct 
disaster training for teachers and administrators?
    You mentioned 2010, 2008, but specifically to this topic, 
how are special needs or needs teachers prepared beyond, you 
know, cover and roll, get under your desk? Are they actually 
prepared to be able to move wheelchairs, to be able to make 
sure--do they call someone to make sure that a van actually 
comes? How extensive does it go for them?
    Mr. Gundry. That is going to vary from one school district 
to another. I know some school districts are well prepared with 
very specific plans. The El Monte School District, for example, 
has a very detailed plan, where teachers have walkie-talkies in 
their classrooms and they are very well trained on specifically 
what to do in times of emergency.
    I am sure there are other school districts that have not 
given their teachers any training. So they don't have they 
kinds of detailed plans in place.
    So that is the reason why we believe it is important to 
have a coordinating agency that will help oversee the quality 
of these emergency response plans throughout the county, 
because they will vary widely from one district to another.
    Ms. Richardson. How would you use--if the Elementary and 
Secondary School Emergency Planning Act were to be passed, how 
would you intend to recommend that we would use that funding?
    Mr. Gundry. In our county, we would recommend that we have 
at least one full-time employee who oversees training for 
school districts, administrators, and possibly even teachers, 
to have review of emergency planning plans, to make 
recommendations to school districts, and the quality of their 
plans, and the feasibility of the implementation. We would 
coordinate that effort from one single location.
    Ms. Richardson. Thank you very much.
    Mr. Cleaver, any further questions?
    Okay. Seeing no further questions, I will go back to my 
script here and make sure we covered everything. Did the 
witnesses have anything further that you wanted to share that 
wasn't covered in the questions that were asked or your 
testimony?
    Mr. Gundry. No, Madam Chairwoman.
    Ms. Rothe-Smith. No, thank you.
    Ms. Richardson. I thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the subcommittee may have additional questions for the 
witnesses, and we ask that you respond in writing 
expeditiously--preferably within 2 weeks--in writing to those 
questions.
    Hearing no further business, the hearing is adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairwoman Laura Richardson for Marcie Roth
    Question 1. What efforts has the Disability Coordinator taken to 
meet each of the eleven responsibilities listed for the position in 
Section 513 of the Homeland Security Act of 2002 (6 U.S.C. 321b)?
    Answer.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                   FEMA ACCOMPLISHMENTS
                                   Office of Disability
       PKEMRA REQUIREMENT            Integration and            NOT MET              MET              EXCEEDED           ONGOING           COMPLETED
                                  Coordination 7/1/09-6/
                                          15/10
--------------------------------------------------------------------------------------------------------------------------------------------------------
513(b)(1) Providing guidance     <bullet> The ODIC        ..................  X................  .................  X................  .................
 and coordination on disability   Director has provided
 in emergency planning            disability integration
 requirements and relief          expertise and guidance
 efforts.                         at approximately 150
                                  external engagements
                                  spanning issues such
                                  as disability
                                  registries, disaster
                                  mental health,
                                  children, housing,
                                  voluntary disaster
                                  organizations,
                                  emergency
                                  communications,
                                  rehabilitation
                                  engineering, standards
                                  for emergency
                                  evacuation
                                  technologies, and
                                  hurricane preparedness.
                                 <bullet> ODIC operates
                                  a listserve of 600
                                  disability and
                                  emergency management
                                  stakeholders, and
                                  provided them with
                                  updates on
                                  preparedness,
                                  response, and recovery
                                  related issues of
                                  importance to children
                                  and adults with
                                  disabilities, their
                                  families, support
                                  service providers, and
                                  communities.
                                 <bullet> The ODIC
                                  Director has been
                                  actively involved in
                                  providing guidance and
                                  subject matter
                                  expertise preparing
                                  for and during
                                  flooding in several
                                  States, the American
                                  Samoa tsunami, H1N1
                                  preparedness and
                                  response, Haiti
                                  earthquake (supporting
                                  USAID), west coast
                                  tsunami alert (Chile
                                  earthquake), Deepwater
                                  Horizon (supporting
                                  the Coordination Team
                                  and the Language
                                  Access Team, and more.
                                 <bullet> ODIC has been
                                  actively involved in
                                  the development of a
                                  Multi-Agency Shelter
                                  Assessment tool to
                                  assist States in
                                  assessing the needs of
                                  shelters and their
                                  residents in a
                                  disaster.
                                 <bullet> ODIC has
                                  proposed methods to
                                  incorporate disability
                                  subject matter experts
                                  in FEMA disaster
                                  response (such as
                                  disability cadres or
                                  subject matter experts
                                  incorporated into
                                  existing FEMA cadres).
                                 <bullet> ODIC has begun
                                  to develop a FEMA
                                  Internal Disability
                                  Working Group to
                                  engage senior leaders
                                  from across the agency
                                  in collaborative
                                  efforts to integrate
                                  and coordinate the
                                  disability access and
                                  functional needs of
                                  our constituents and
                                  related issues of our
                                  stakeholders and
                                  partners.
                                 <bullet> ODIC is
                                  planning a National
                                  Capacity Building
                                  Training for Fall,
                                  2010 bringing together
                                  emergency managers,
                                  disability leaders,
                                  and FEMA headquarters
                                  and regional staff for
                                  intensive cross-
                                  training in both
                                  disability and
                                  emergency management.
513(b)(2) Interacting with       <bullet> The ODIC        ..................  .................  X................  X................  .................
 staff at FEMA, National          Director is providing
 Council on Disability,           technical assistance
 Interagency Coordinating         and expert guidance on
 Council (ICC), and other         disability integration
 Federal, State, local, and       in multiple venues
 Tribal governments on            within FEMA, such as:
 disability in emergency          FEMA's Regional
 planning requirements and        Offices, FEMA National
 relief efforts.                  Advisory Council, the
                                  National Disaster
                                  Housing Taskforce, the
                                  Pandemic Guidance
                                  Workgroup, Logistics,
                                  the Long Term Disaster
                                  Recovery Initiative,
                                  and the National
                                  Exercise Program's
                                  National Level
                                  Exercise 11, including
                                  the National Council
                                  on Disability and
                                  State representatives.
                                 <bullet> ODIC
                                  participated in the
                                  creation of a FEMA
                                  Children's Working
                                  Group, and established
                                  a focus within that
                                  group on children with
                                  disabilities. ODIC is
                                  participating in the
                                  September, 2010
                                  Children's Summit.
                                 <bullet> ODIC has
                                  provided disability
                                  integration expertise
                                  in multiple FEMA
                                  conferences related to
                                  Logistics, Mass Care,
                                  and External Affairs,
                                  and organized outside
                                  disability expert
                                  presentations at these
                                  venues as well.
                                 <bullet> The FEMA
                                  Administrator holds
                                  monthly meetings with
                                  the National Council
                                  on Disability Chair.
                                 <bullet> FEMA is a
                                  sponsor of the
                                  National Council on
                                  Disability 20th
                                  Anniversary ADA
                                  Summit, and
                                  collaborates with NCD
                                  on a host of issues
                                  including
                                  preparedness, alerts
                                  and warnings, National
                                  level exercises,
                                  disaster housing,
                                  functional needs
                                  support services,
                                  durable medical
                                  equipment & consumable
                                  medical supplies, and
                                  long-term disaster
                                  recovery on an on-
                                  going basis.
                                 <bullet> The ODIC
                                  Director holds weekly
                                  meetings with the DHS
                                  Office for Civil
                                  Rights and Civil
                                  Liberties (which
                                  oversees the
                                  Interagency
                                  Coordinating Council
                                  on Emergency
                                  Preparedness and
                                  Individuals with
                                  Disabilities (ICC)),
                                  works with the ICC on
                                  priority issues,
                                  serves on the ICC
                                  Health Subcommittee
                                  and submitted a
                                  chapter on ODIC
                                  accomplishments for
                                  the ICC Annual Report.
                                 <bullet> ODIC is
                                  establishing a Citizen
                                  Corps partnership with
                                  the National Council
                                  on Independent Living,
                                  and assisted Citizen
                                  Corps with their
                                  Disability Law Webinar
                                  on April 10, 2010.
                                 <bullet> ODIC has
                                  convened a National
                                  work group to assist
                                  Mass Care's ``just-in-
                                  time'' capacity for
                                  FEMA to provide
                                  durable medical
                                  equipment and
                                  consumable medical
                                  supplies upon State
                                  requests.
                                 <bullet> ODIC has on-
                                  going meetings with
                                  the Department of
                                  Justice and the U.S.
                                  Access Board.
513(b)(3) Consulting with        <bullet> ODIC holds      ..................  .................  X................  X................  .................
 organizations that represent     monthly meetings with
 the interests and rights of      the National Council
 people with disabilities         on Independent Living
 regarding emergency planning     Emergency Preparedness
 requirements and relief          Taskforce.
 efforts.
                                 <bullet> ODIC is
                                  developing Memorandums
                                  of Understanding with
                                  the National Council
                                  on Independent Living,
                                  the Disability Rights
                                  Network, American
                                  Association of
                                  Physical Medicine and
                                  Rehabilitation,
                                  National Association
                                  of Rehabilitation
                                  Nurses and the
                                  National Association
                                  of Technology Act
                                  Programs to provide
                                  disaster assistance at
                                  Disability Recovery
                                  Centers.
                                 <bullet> ODIC has
                                  convened meetings with
                                  the National Center
                                  for Law and Economic
                                  Justice, the Coalition
                                  for Citizens with
                                  Disabilities, National
                                  Disability Rights
                                  Network, the Access to
                                  Readiness Coalition
                                  and other constituent
                                  and stakeholder groups.
513(b)(4) Coordination and       <bullet> The ODIC        X.................  .................  .................  X................  .................
 dissemination of best            Director presented to
 practices and model evacuation   the American National
 plans for individuals with       Standards Institute on
 disabilities.                    disability integration
                                  in emergency
                                  evacuation in June,
                                  2010.
                                 <bullet> The ODIC
                                  Director is building
                                  relationships with
                                  disability researchers
                                  in order to stay
                                  abreast of findings
                                  related to best
                                  practices in emergency
                                  evacuation and other
                                  emergency management
                                  issues.
                                 <bullet> The ODIC
                                  Director met with the
                                  Principal Investigator
                                  for a study on
                                  Disability and
                                  Evacuation in June
                                  2010.
                                 <bullet> The ODIC is
                                  working with FEMA's
                                  Mass Care Section to
                                  identify and acquire
                                  universal cots that
                                  will enable people
                                  with disabilities to
                                  shelter at general
                                  population shelters
                                  instead of being sent
                                  to medical facilities.
                                 <bullet> ODIC Director
                                  is providing subject
                                  matter expertise to a
                                  FEMA/Harvard team
                                  working on a
                                  technology tool to
                                  assist with tracking
                                  people with mobility
                                  disabilities
                                  throughout their
                                  evacuation.
513(b)(5) Development of         <bullet> ODIC            ..................  X................  .................  X................  .................
 training materials and a         collaborated with NCD,
 curriculum for training of       DOJ, the Red Cross,
 emergency response providers,    the National Council
 State, local, and Tribal         on Independent Living,
 government officials, and        National Disability
 others.                          Rights Network and
                                  various States and
                                  regions to develop
                                  Guidance on Planning
                                  for Integration of
                                  Functional Needs
                                  Support Services in
                                  General Population
                                  Shelters. Document
                                  release is expected
                                  soon. Training for the
                                  States on this
                                  Guidance starts in
                                  July, 2010.
                                 <bullet> ODIC
                                  participated in
                                  integrating
                                  Comprehensive
                                  Preparedness
                                  Guidelines (CPG) 301
                                  (Special Needs) into
                                  CPG 101.1. document
                                  release is expected
                                  soon.
                                 <bullet> ODIC has
                                  participated with Mass
                                  Care in developing
                                  curriculum for
                                  training FEMA Regions,
                                  States, Emergency
                                  Managers and Shelter
                                  Planners on Guidance
                                  on Planning for
                                  Integration of
                                  Functional Needs
                                  Support Services in
                                  General Population
                                  Shelters.
                                 <bullet> ODIC and the
                                  U.S. Department of
                                  Justice provided
                                  training to FEMA's
                                  Emergency Management
                                  Institute staff on
                                  disability rights laws
                                  and the integration of
                                  disability issues into
                                  emergency management
                                  training materials.
                                 <bullet> ODIC is
                                  currently gathering
                                  preparedness best
                                  practices from our
                                  State partners and
                                  disability groups and
                                  will share these tools
                                  on the ODIC website.
513(b)(6) Promoting the          <bullet> ODIC is         ..................  X................  .................  X................  .................
 accessibility of telephone       providing guidance to
 hotlines and websites.           FEMA's READY Division
                                  to enhance ready.gov
                                  information on
                                  disability and
                                  emergency preparedness.
                                 <bullet> ODIC is
                                  working with the U.S.
                                  Department of Labor to
                                  plan a new emergency
                                  management section on
                                  disability.gov website.
                                 <bullet> ODIC is
                                  working with the ICC
                                  on
                                  DisabilityPreparedness
                                  .Gov.
                                 <bullet> ODIC has
                                  developed its own
                                  website to provide
                                  information and
                                  guidance regarding
                                  emergency management
                                  and disability.
                                 <bullet> ODIC has
                                  provided guidance to
                                  FEMA's External
                                  Affairs team and
                                  throughout FEMA on web
                                  accessibility.
                                 <bullet> ODIC has
                                  provided guidance to
                                  FEMA's External
                                  Affairs team on
                                  hotline accessibility
                                  and providing accurate
                                  public information.
513(b)(7) Working to ensure      <bullet> ODIC has been   ..................  X................  .................  X................  .................
 that video programming           working with the FEMA
 distributors, including          External Affairs team,
 broadcasters, cable operators,   the FCC and the ICC
 and satellite television         Subcommittee on
 services, make emergency         Emergency
 information accessible to        Communications on
 individuals with hearing and     accessible emergency
 vision disabilities.             information.
                                 <bullet> ODIC is
                                  coordinating with
                                  FEMA's Integrated
                                  Public Alerts and
                                  Warning System Program
                                  Office, research and
                                  development experts in
                                  emergency
                                  communications, the
                                  National Council on
                                  Disability and the FCC
                                  to address accessible
                                  emergency
                                  communications.
                                 <bullet> ODIC and the
                                  National Continuity
                                  Programs Directorate
                                  convened a meeting of
                                  subject matter experts
                                  to discuss IPAWS and
                                  making emergency
                                  information accessible
                                  to individuals with
                                  hearing and vision
                                  disabilities.
513(b)(8) Ensuring the           <bullet> Met with        X.................  .................  .................  X................  .................
 availability of accessible       National group of
 transportation options for       paratransit providers
 individuals with disabilities    to discuss their role
 in the event of an evacuation.   in evacuation.
                                 <bullet> Working with
                                  the ICC on accessible
                                  evacuation
                                  transportation issues.
                                 <bullet> Currently
                                  providing input into
                                  the National Mass
                                  Evacuation Tracking
                                  System.
                                 <bullet> Discussions
                                  with Federal partners
                                  about evacuation-
                                  related transportation
                                  issues to identify
                                  current initiatives
                                  and needs.
                                 <bullet> Advising FEMA
                                  ESF8, USTRANSCOM/DOD
                                  on air evacuation
                                  planning as it affects
                                  people with
                                  disabilities, their
                                  durable medical
                                  equipment and personal
                                  assistance/family
                                  member(s).
513(b)(9) Providing guidance     <bullet> Led National    ..................  X................  .................  X................  .................
 and implementing policies to     efforts in
 ensure that the rights and       collaboration with the
 wishes of individuals with       ICC to engage the
 disabilities regarding post-     involvement of
 evacuation residency and         disability
 relocation are respected.        organizations and
                                  constituents in the
                                  development of the
                                  National Long Term
                                  Disaster Recovery
                                  Framework.
                                 <bullet> Actively
                                  participated as a
                                  member of the National
                                  Disaster Housing Task
                                  Force.
513(b)(10) Ensuring that the     <bullet> ODIC            ..................  X................  .................  X................  .................
 needs of individuals with        collaborated with the
 disabilities are included in     National Preparedness
 the components of the National   Directorate (NPD) and
 preparedness system.             the Community
                                  Preparedness Task
                                  Force to include a
                                  disability subject
                                  matter expert (Angela
                                  English, Executive
                                  Director, TX
                                  Governor's Office on
                                  Disability).
                                 <bullet> Working with
                                  NPD on several
                                  documents including
                                  integrating CPG 301
                                  into CPG 101.1.
                                 <bullet> Actively
                                  presenting
                                  preparedness
                                  information at
                                  National and regional
                                  preparedness
                                  conferences.
                                 <bullet> Assisting
                                  READY.Gov to include
                                  the preparedness needs
                                  of children and adults
                                  with disabilities in
                                  all preparedness
                                  initiatives.
513(b)(11) Any other duties as   <bullet> FEMA's Senior   ..................  X................  .................  X................  .................
 assigned by the administrator.   Advisor for Disability
                                  Issues established the
                                  Office of Disability
                                  Integration and
                                  Coordination, securing
                                  liaisons with multiple
                                  FEMA offices and
                                  arranging for interns
                                  and detailees to staff
                                  the office.
                                 <bullet> Assisting the
                                  agency in identifying
                                  universal design cots
                                  to accommodate
                                  individuals with
                                  mobility disabilities
                                  in general population
                                  shelters.
                                 <bullet> Active
                                  involvement in the
                                  FEMA Children's
                                  Working Group to
                                  ensure that children
                                  with disabilities are
                                  included in all
                                  children's initiatives.
                                 <bullet> Serving on the
                                  administrator's Senior
                                  Leaders Team.
                                 <bullet> Serving on the
                                  deputy administrator's
                                  Investment Review
                                  Board.
                                 <bullet> Assisting the
                                  administrator with
                                  catastrophic planning
                                  considerations to
                                  include children and
                                  adults with
                                  disabilities.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 2. Please describe the number of staff as well as a brief 
job description for each person that works within or supports, 
including part time and non-paid personnel, the Office of Disability 
Integration and Coordination.
    Answer.

                     OFFICE OF DISABILITY INTEGRATION AND COORDINATION HEADQUARTERS STAFFING
----------------------------------------------------------------------------------------------------------------
                                                                                                        Percent
                   Role                        Anticipated End Date                  Base              with ODIC
----------------------------------------------------------------------------------------------------------------
Director.................................  Ongoing.....................  ODIC........................        100
Office Manager...........................  12/8/10.....................  Detail--VA NPSE.............        100
Community Liaison........................  10/1/10.....................  Detail--MD NPSE.............        100
Intern...................................  8/7/10......................  STEP........................        100
----------------------------------------------------------------------------------------------------------------

    In addition, ODIC has the support of other FEMA staff who are not 
staffed directly in the ODIC. Specifically, FEMA External Affairs, 
FEMA's Office of Chief Counsel, and FEMA Recovery Division Offices 
including Mass Care and Correspondence, each have a liaison dedicated 
to working specifically with ODIC.
    Question 3. Please provide an update on the status of FEMA's 
Comprehensive Planning Guidance 301 (Special Needs Planning), including 
when it will be integrated into CPG 101 and publicly released.
    Answer. FEMA CPG 101 and the interim documents 301 and 302, are 
current public documents that will remain valid and in effect until the 
release of the revised comprehensive CPG 101.1. FEMA has taken great 
care to solicit input from relevant stakeholders. The revised CPG 101 
(CPG101.1) is under review and is expected to be released soon.
    Question 4. Please describe which regions currently have full-time 
Disability Coordinators. For those regions without a Disability 
Coordinator, please describe what position within the region also 
serves in the capacity of the Disability Coordinator.
    Answer. Each of the 10 FEMA Regions has at least one Point of 
Contact who works on disability issues and coordinates with ODIC. 
Regions II, V, VI, VII and IX have two positions and Regions III and IV 
have three. ODIC assists regional staff working with disability 
integration issues by providing training, capacity building, and the 
opportunity to share ideas. ODIC is planning a National conference to 
be held in Washington, DC in the early fall of this year that will 
bring these regional staff members together with their State 
counterparts and relevant subject matter experts to provide a strong 
beginning to this collaborative National effort.
    Question 5. For those individuals with a disability that must 
shelter in place during a disaster, what plans does FEMA have to ensure 
rescue workers and Government officials are made aware of each person's 
location and needs?
    Answer. FEMA provides guidance to States in support of their plan 
to meet the needs of all of their citizens who must shelter in place. 
This information is currently available in Comprehensive Preparedness 
Guide (CPG) 101, and Interim CPG 301 and has been included in the draft 
version of document, CPG 101.1. In addition, the Office of Disability 
Integration and Coordination is offering training this summer to expand 
and strengthen relationships between disability organizations and 
emergency managers and planners so they can work together to integrate 
resources and accommodate everyone during a disaster.
    FEMA is committed to helping people with disabilities remain 
independent and self-sufficient before, during, and after an emergency. 
The agency provides guidance to all individuals as they develop their 
personal preparedness plans, including those for people with 
disabilities and access and functional needs, on www.Ready.gov. FEMA 
also assists State and local governments, as well as organizations and 
individuals, to prepare and plan to address the needs of all of their 
citizens in an emergency or disaster.
    FEMA also works with subject matter experts to expand the use of 
promising and best practices in preparedness, alerts and warnings, 
evacuation, transportation and sheltering, and other aspects of the 
emergency life cycle to incorporate integrated emergency management 
practices that are inclusive of children and adults with access and 
functional needs, including individuals with disabilities.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
